<html>
<title> - STATE DEPARTMENT: POLICY AND PROGRAMS</title>
<body><pre>[Senate Hearing 108-427]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-427

                  STATE DEPARTMENT: POLICY AND PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 12, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



93-316              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
    Chronology of administration statements prior to the war.....    28
Boxer, Hon. Barbara, U.S. Senator from California, submission for 
    the record:
    Article from The New York Times, Feb. 7, 2004, ``The Struggle 
      for Iraq: Intelligence; Agency Alert About Iraqi Not 
      Heeded, Officials Say''....................................    62
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    38
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Nelson, Hon. Bill, U.S. Senator from Florida, submission for the 
    record:
    Letter to President Bush, Feb. 10, 2004, concerning the 
      deteriorating conditions in Hispaniola.....................    48
Powell, Hon. Colin L., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     9
    Prepared statement...........................................    16
    Responses to additional questions for the record from:
      Senator Biden..............................................57, 65
      Senator Voinovich..........................................41, 69
      Senator Sarbanes...........................................    52
      Senator Coleman............................................    71
      Senator Feingold...........................................37, 70
      Senator Bill Nelson........................................    79

                                 (iii)

  

 
                 STATE DEPARTMENT: POLICY AND PROGRAMS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SR-325, Russell Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Chafee, Allen, Voinovich, Biden, 
Sarbanes, Feingold, Boxer, Bill Nelson, and Corzine.


          OPENING STATEMENT OF HON. RICHARD G. LUGAR, CHAIRMAN


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. This is a very special meeting. 
We have the Secretary of State with us. We appreciate that we 
are in the process of concluding a rollcall vote on the Senate 
floor, but the time of the Secretary and of all members is 
valuable. Therefore, I will proceed with my opening statement. 
Hopefully, we will be joined shortly by the ranking member of 
the committee, Senator Biden, and then we will call upon the 
Secretary for his testimony.
    At some point, as I have advised the Secretary, we are 
hopeful to have a quorum of our membership. At such appropriate 
time as I see that we will continue the Law of the Sea markup, 
hopefully can have a vote and at least take committee action on 
that important convention as a part of our work today.
    Today the Senate Foreign Relations Committee is pleased to 
welcome Secretary of State Colin Powell. Mr. Secretary, we are 
eager to hear your views on the status of our alliances, the 
Bush administration's plans for making further progress in Iraq 
and Afghanistan, the status of negotiations pertaining to the 
Middle East and the Korean Peninsula, and your assessments of 
the State Department's budget.
    During last year, American foreign policy achieved an 
extensive list of accomplishments, some of which have gone 
unnoticed but shall not today. The President put forward bold 
plans to fight the global spread of AIDS and to establish the 
Millennium Challenge Corporation, which will encourage 
political and economic progress in developing nations that 
embrace positive reforms. Congress worked closely with the 
White House and the State Department on these initiatives, and 
passed legislation that would implement them.
    Our commitment of substantial funds to the Liberian crisis 
and to the Middle East Partnership Initiative have similarly 
demonstrated the United States intends to provide leadership in 
fighting poverty and disorder that are so often at the root of 
conflict.
    The United States continues to make progress in securing 
international assistance for counterterrorism efforts 
throughout the world. In particular, great strides were made 
during 2003 to solidify cooperation from Saudi Arabia and other 
Persian Gulf states. Many nations in Europe, Central Asia, and 
Southeast Asia have continued to be good allies in the war on 
terror.
    In our own hemisphere, the Colombian Government, with U.S. 
support, has made measurable progress in increasing personal 
security for its people. Murders and kidnapings were down 
significantly in 2003. Colombians are traveling in parts of the 
country that until recently were thought to be too dangerous.
    In Russia, the Nunn-Lugar Cooperative Threat Reduction 
Program and its associated programs continue to safeguard and 
destroy the arsenal of weapons of mass destruction built by the 
former Soviet Union. Through the G-8 Global Partnership Against 
Spread of Weapons of Mass Destruction, we have secured $10 
billion in commitments for this endeavor from our allies over 
the next 10 years of time. Congress passed legislation that 
allows the Nunn-Lugar program to be used outside the states of 
the former Soviet Union and, with President Bush's strong 
encouragement, chemical weapons destruction at Shchuchye in 
Russia has been accelerated. We must ensure that the funding 
and momentum of the program is not encumbered by bureaucratic 
obstacles or undercut by political disagreements.
    The United States has also moved forward in the area of 
arms control negotiations. Last year, at the request of the 
President, the Senate ratified the Moscow Treaty governing the 
strategic nuclear arsenals of Russia and the United States. In 
coming weeks, the Foreign Relations Committee intends to report 
the resolution of ratification of the IAEA Additional Protocol 
to the Senate. This protocol will strengthen the international 
community's ability to detect illegal weapons programs. 
Yesterday President Bush called for immediate ratification of 
the Additional Protocol.
    Libya's decision to open its weapons of mass destruction 
program to international inspection and its acceptance of 
responsibility for Pan Am 103 constitute a remarkable success 
for United States foreign policy, resulting from close 
cooperation with allies, specifically Great Britain, firm 
diplomacy, and the demonstrations of our resolve in Iraq and 
Afghanistan.
    State Department diplomacy played an important role in the 
growing opportunity for rapprochement between India and 
Pakistan. If this initiative can produce a more stable and 
prosperous subcontinent, our own security will be immeasurably 
improved.
    American diplomacy also contributed to movement toward a 
peace agreement in Sudan, the ratification of a constitution in 
Afghanistan, and the conclusion of a breakthrough tax treaty 
with Japan, which will be a boost to any American company doing 
business in that country.
    During the last year, even as our relationships with some 
of our NATO allies were strained by the war in Iraq, the Senate 
ratified the treaty admitting seven Eastern European nations to 
NATO. The administration also secured agreement for a central 
NATO role in the International Security Assistance Force in 
Afghanistan. In my view, NATO must build on these successes by 
defining a broader mission for itself in maintaining stability 
in the greater Middle East. This should include an expanded 
NATO presence in Afghanistan outside Kabul and a role in Iraq's 
stabilization. Progress in these areas by NATO would help heal 
the rifts created by disagreements over the use of force in 
Iraq.
    Our efforts in Iraq and Afghanistan, though difficult, have 
produced important successes. The people of those two countries 
are better off now than they were under Saddam Hussein and the 
Taliban. Schools are operating. Police forces and national 
armies are being trained. Free media is being established and 
women are participating in society in many more ways than they 
have done before.
    However, our experiences in Iraq and Afghanistan 
demonstrate we must be better prepared to undertake post-
conflict missions. To this end, the Foreign Relations Committee 
has organized a Policy Advisory Group that is attempting to 
come to grips with how the State Department and our government 
as a whole should organize and prepare itself to deal with 
complex emergencies. Some of the best national security minds 
in Washington have participated in these discussions, including 
Under Secretary of State for Political Affairs Marc Grossman. I 
anticipate that the committee will put forward a legislative 
proposal in the coming weeks.
    Public diplomacy is another area where deficiencies must be 
corrected if our policies are to succeed in the Middle East and 
elsewhere. I was heartened by the appointment of Margaret 
Tutwiler as Under Secretary of State for Public Diplomacy. She 
has worked well with our committee and is committed, as you 
are, Mr. Secretary, to boosting the effectiveness and frequency 
of our communications with foreign populations. I believe this 
will require a sea change in the orientation of the State 
Department, particularly as it relates to training, language 
expertise, and avenues of professional advancement.
    Regionally, more attention must be paid to Latin America. 
Venezuela, Bolivia, and Haiti face severe challenges to their 
constitutional governments, and Mexico's importance to our 
prosperity and security continues to be misunderstood and 
undervalued by policymakers in both executive and legislative 
branches. President Bush's immigration proposal is an excellent 
starting point, but the U.S.-Mexican bilateral relationship 
must be elevated to a higher priority.
    With the establishment of the Global AIDS Initiative and 
the Millennium Challenge Corporation, this administration has 
done more to improve our engagement with Africa than any 
administration in recent memory. I believe, however, that our 
policies will not be fully successful in Africa until we 
improve our economic engagement with the continent. To this 
end, I am hopeful for strong administration support of the 
extension of the African Growth and Opportunity Act, AGOA, 
which I have introduced in the Senate.
    Mr. Secretary, this partial but lengthy list of foreign 
policy successes and priorities demonstrates how expansive the 
global challenges for the United States are. We want to hear 
from you about the needs of your Department in this era when it 
occupies the front lines in the war on terrorism.
    I want to compliment you personally on your efforts to 
expand funding for the State Department and for foreign 
assistance programs. You have brought strategic vision to 
budgetary questions involving the Department and this committee 
could not ask for a better partner in explaining the importance 
of our international affairs budget to the American people.
    The progress we have made in the last 3 years has begun to 
reverse the damaging slide in diplomatic funding that occurred 
during the 1990s. Most Americans recognize the importance of 
investments in national security, but often our national 
conception of foreign affairs focuses too heavily on the crisis 
of the moment and fails to appreciate the painstaking work that 
occurs every day in the State Department and in other agencies. 
To win the war against terrorism, the United States must assign 
U.S. economic and diplomatic capabilities the same strategic 
priority we assign to military capabilities.
    We must continue our investment in diplomats, embassy 
security, foreign assistance, and other tools of foreign 
policy. If a greater commitment of resources can prevent the 
bombing of our embassies, secure alliance participation in 
expensive peacekeeping efforts, or improve detection of 
terrorists seeking visas, the investment will have yielded 
dividends far beyond its costs.
    I yield now to my distinguished friend Senator Biden for 
his opening statement.


     OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., RANKING MEMBER


    Senator Biden. Thank you very much, Mr. Chairman.
    It is great to have you before us, Mr. Secretary. We are a 
friendly crowd, and I have told any staff member if they 
editorialize with their facial expressions they are fired. I 
want to just say for the record, I get as angry as you when 
that happens. But you are in friendly territory here, among 
Democrats and Republicans.
    Let me say I associate myself with some of the remarks my 
colleague the chairman has made. There are a number of 
successes that are out there. But it is the nature of this 
oversight process, we tend to focus on those things which are 
in limbo or where there is disagreement.
    I want to say at the outset before I give you my formal 
statement that I also know that, having been here for now I 
guess seven Presidents, that there are always and should be, 
and it is healthy, disagreements within administrations about 
policy, but once policy is determined there is a team, 
everybody is on the same team. So I am going to be asking you 
some questions here which for all I know you might have been on 
the other side of an argument internally, that may be more 
consistent with what I think should have happened or maybe not. 
But I do not want you to--we have known each other a long time 
and I know you will not; this is not about you, this is about 
policy areas I would like to explore.
    So welcome. I realize this is now the political season. We 
are going into a Presidential election. But the problems we 
face and the seriousness with which we have to address them, 
particularly in your job and ours, it does not stop because it 
is a political season, and hopefully we can move beyond a lot 
of that.
    Our Iraq policy I believe at this moment appears to be a 
little bit in limbo. The June 30 deadline for transfer of 
sovereignty is looming and Mr. Sistani's demand for elections 
has put in doubt our ability to proceed on key points of the 
November 15 agreement, which is starting to look a little more 
difficult to implement here.
    I have had the opportunity, as I know my colleague the 
chairman has and others, to have some private and frank 
conversations with the Secretary General of the United Nations. 
We all understand his dilemma as well and we are trying to 
figure our way through this. I agree that we need to end the 
appearance of occupation as soon as possible, but it is also 
vital, it is also vital that Iraqis have some confidence in the 
process and believe that a neutral referee is going to be on 
the scene after June 30 so that the current disputes do not 
escalate into a civil war.
    I think, quite frankly, as you know because I am like a 
broken record with you on this and with others in the 
administration, I believe we have missed some meaningful 
opportunities to share the burden more fully with our friends 
and allies in Iraq, and I hope we do not miss the final 
opportunity because I think we are at a point where everyone in 
Europe, including the French, have decided that, 
notwithstanding their occasional unwarranted and untoward 
comments and actions, that success in Iraq is essential. I 
think everybody is, sort of like that old expression: Nothing 
to focus one's attention like a hangman's noose. Failure in 
Iraq is of greater danger, quite frankly, to the French and the 
Europeans than it is even to us, because it is their front yard 
and our back yard.
    So I think the elements are there to significantly broaden 
the coalition to take on responsibility for securing the peace 
in Iraq, and I look forward to hearing some of your thinking, 
if time permits today--if not, I know you are always 
available--on the U.N. role in Iraq's future beyond generic 
assertions that it is going to be significant, or whatever 
phrase the President uses, also on the possibility of holding 
direct elections for a transitional government.
    On the security side, I had the privilege of preceding you 
in Brussels at the NAC when you appeared on a Friday calling 
for NATO to participate in Iraq and eventually take that over. 
I could not agree with you more. I would like to talk to you a 
little bit about that if time permits, and I would appreciate 
an update, if you are able to in open session, on recent 
discussions with our NATO allies on those matters. Obviously, 
if you would rather not do some of this in public, even though 
it is not, quote, ``classified,'' but would limit your 
negotiating ability, I appreciate that.
    On Afghanistan, I am very pleased the administration has 
agreed to expand the International Security Force. I do not 
want to get you in trouble, but if I am not mistaken a guy 
named Powell suggested that a couple years ago. But progress I 
think has been awfully slow. I have had the opportunity, as 
others have, to spend some time with a man I have great respect 
for and I know you do, General Jones, our Supreme Allied 
Commander-NATO, and as you know he has some concerns about the 
pace as well. The administration's security solution, which is 
these small Provincial Reconstruction Teams, I quite frankly 
think are inadequate to the task, and at some point maybe we 
can talk about that.
    So too are the resources for reconstruction. You did a 
great job heading to Japan immediately after our successes in 
Afghanistan. The President declared--his words, not mine or 
yours--a ``Marshall Plan for Afghanistan.'' I quite frankly 
think that we have got a long, long, long way to go, 
notwithstanding we are occupied in other parts of the world as 
well.
    Afghanistan is again the world's top supplier of opium, and 
the ability to help them construct a legal economy has been 
sort of difficult, in large part because in significant parts 
of the country warlords continue to control the total 
environment.
    I want to commend you for your recent op-ed piece in the 
Moscow press, with which I agree completely. Russia, as you 
observed, has traveled an enormous distance since the collapse 
of the Soviet Union. Unlike you, however, I and I suspect the 
chairman and others as well are very concerned about the recent 
backsliding in Russian democracy, especially regarding the rule 
of law and independent media, and also about continuing Russian 
brutality in Chechnya and meddling in Georgia and Moldova.
    One issue that begs for a coherent policy is nuclear 
proliferation. Yesterday the President delivered an important 
speech on that subject and I am very glad to see he has turned 
his attention to this subject in a much more concentrated way. 
I support many of the President's proposals, such as 
encouraging countries to criminalize proliferation activities, 
getting all countries to sign and implement the Additional 
Protocols of the IAEA, and enhancing the IAEA's oversight, 
safeguards, and verification capability.
    But we cannot just rely, in my view--I am not suggesting 
you think otherwise, but--we cannot just rely on the preemptive 
use of force if we are going to contain this deadly threat. But 
I worry that in too many cases ideology for the first 3 years 
of this administration has trumped or at least gotten in the 
way of nonproliferation policy.
    The President says he wants to reexamine the essential 
bargain, the Nuclear Nonproliferation Treaty, and I think it 
warrants being reexamined. But in return everybody has to 
remember what that bargain was, that in return for not pursuing 
nuclear weapons states can receive assistance for civilian 
nuclear power applications. But there was another part of that 
central bargain of the NPT, which was that--that I believe this 
administration has ignored. That is that the nuclear powers 
will gradually move away from nuclear weapons while non-nuclear 
weapons states refrain from acquiring them.
    Over the last 3 years I believe we have sent mixed signals 
at best and negative signals at worst, that the United States 
has undermined our message that other nations must forgo the 
bomb. For during this period the administration has raised the 
specter of the possible use of nuclear weapons against non-
nuclear weapons states. We have begun exploring new nuclear 
weapons of dubious utility, and we have walked away from the 
Comprehensive Test Ban Treaty.
    It does not really embolden the rest of the world to think 
that we are keeping the second part of that implicit bargain in 
NPT, which was that we would move away, move in the opposite 
direction.
    A year ago, Deputy Secretary Armitage, who I do not want to 
ruin his reputation, but of all the people I have ever dealt 
with in my entire career of almost 32 years now he is the 
straightest, most up-front, and most honest interlocutor I have 
ever encountered. Now, that probably is going to cause him to 
be fired, but I really mean it. He is first rate. He testified, 
when we asked him on the crisis of North Korea, he said that he 
saw no crisis in North Korea because, ``I think we have got 
some time to work with this.'' But he added: ``I do not think, 
given the poverty of North Korea, that it would be too long 
after she got a good amount of fissile material that she would 
be inclined to engage with somebody, a non-state actor or a 
rogue state.''
    I hope the administration heeds your close friend's warning 
here. I know we have the multi-party talks, but quite frankly I 
do not see them going very far now, either. The administration 
has been working the North Korean issue with varying degrees of 
intensity since it took office. In that time the situation has 
gone from bad to worse. It may have happened anyway no matter 
what the administration was. It may not be controllable.
    But North Korea has kicked out international inspectors, 
has removed the 8,000 fuel rods that have been stored in 
Yongbyon, and says it has reprocessed them, which is the most 
logical thing to happen, although we cannot confirm with 
absolute certainty that they have done that. We are left to 
wonder when the administration will view North Korea's growing 
stockpile of nuclear materials as an urgent matter that 
warrants serious, immediate negotiation.
    In Pakistan, after numerous assurances that no 
proliferation was occurring, we are now told that Dr. A.Q. Khan 
acted for years to sell nuclear technology without the 
knowledge or consent of the Pakistani Government. Quite 
frankly, I think that is incredibly fictitious. The idea--and I 
could be wrong; I am going to ask you about this--that Dr. Khan 
could be loading up the equivalent of C-141s and flying off 
material to other parts of the world and the ISI or the 
Pakistani military not know he is doing it, I find that 
absolutely, totally, completely beyond my comprehension.
    I hope I can be proven to be wrong on that. But the fact of 
the matter is it is difficult to believe, and I look forward to 
hearing the administration's assessment of this matter and how 
the United States should respond from this point on.
    A year ago the administration doubted the usefulness of 
international inspectors. Today we must conclude that 
inspectors, for example in Iraq, did a good job. The IAEA 
deserves credit for its inspections in Iran over the last year, 
and we have agreed that the IAEA will help monitor the 
dismantlement of Libya's program. Such an important institution 
I think deserves our strong support, not the sniping. It has 
not come from you, but it has come from this administration 
consistently since it has taken office.
    Finally, let me say a few words about the budget. Once 
again, I commend you for securing a significant increase in the 
foreign affairs budget. I think we have had some great 
Secretaries of State, but in my time here I have known of no 
one who has engendered the loyalty, the thanks, and the 
gratitude of the employees of the State Department more than 
you. You have done with them what you did when you were the 
commander of every unit you ever commanded and when you were 
the Chairman of the Joint Chiefs. You have instilled pride in 
them. They know you are fighting for them. I think it has had a 
marked increase in their ability, capability, and confidence, 
and I want to publicly commend you for that.
    I happened to be with a group of State Department folks and 
two high-ranking people, who were high-ranking officials and 
Democrats in previous administrations, and to hear them talk 
about what you have done for the Department would please you 
very, very, very much. I do not think we recognize it often 
enough and how important that is. It is raw leadership you have 
provided, and once again you have fought for their budget and 
your budget.
    The major increase is devoted to the Millennium Challenge 
Account and combating HIV-AIDS, two programs that are just 
getting off the ground, but these increases I am concerned may 
appear to have come at a price. Development assistance 
programs, which the President pledged would not suffer as a 
result of the Millennium Challenge Account, are reduced in the 
FY 2005 budget request. There may be a rationale for that I do 
not understand, but I would like to talk about that. So are 
refugee programs and aid to Russia and other neighboring 
states. Other important programs such as the anti-narcotics 
programs and international broadcasting are essentially 
straight-lined, with no increases for inflation.
    I think one of the things--there is a lot of things that 
the chairman and I agree on and there is unanimity in this 
committee, one of which I think is the significant need for a 
fundamental reworking and beefing up of our public diplomacy. I 
think it takes a great deal more than we have in this budget.
    I know you were--I think you were there early on when the 
President asked several of us in the Oval Office right after 9-
11 and after Afghanistan and we were worried about the Arab 
street to put together a program. I would like to resubmit to 
you a program that we put together, the total cost of which 
over a period of time is about a half a billion dollars.
    I think we need something robust. I think we need something 
significant. I think that the chairman and Mr. Hyde are 
committed to, not working on the proposal I make, but working 
on such a proposal. So I hope, notwithstanding the fact it is 
basically flat-lined here, you will have an open mind to 
hearing some of our suggestions. We are a global power with 
global responsibilities and we cannot let our attention on Iraq 
and the Middle East cause us to lose our focus on other vital 
regions of the world.
    There is a lot more to talk about. We could do this for a 
week. There is so much at stake here. Mr. Chairman, in the 
interest of time I am going to stop here. I look forward to 
having the opportunity today and, I know we cannot get it all 
done today, but over the next month or so to go into more depth 
on some of the issues that are raised here.
    I will probably warn you--not warn you--advise you I want 
to talk a little bit about Pakistan at the front end of this 
meeting and then maybe about Iraq and nonproliferation if there 
is time. But again I compliment you on the esprit de corps you 
have created, which has often been missing at the State 
Department. It is a big deal and you deserve all the credit, 
all the credit.
    The Chairman. Thank you very much, Senator Biden.
    I think, Secretary Powell, you can receive the ambience of 
a strong bipartisan support for the Department and for your 
work and on so many issues, and we appreciate that.
    Would you please proceed now with your testimony.

  STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, U.S. 
                      DEPARTMENT OF STATE

    Secretary Powell. Thank you very much, Mr. Chairman. I have 
a prepared statement for the record and would submit it at this 
time.
    The Chairman. It will be placed in the record in full.
    Secretary Powell. And I will provide some brief remarks 
summarizing that statement after I respond to a few of the 
points that you made, Mr. Chairman, and those made by Senator 
Biden.
    Let me say what a pleasure it is for me to appear again 
before the Senate Foreign Relations Committee. It is always a 
joy to be with the members of the committee and your very 
professional, very experienced, very well-behaved staff. So I 
am very pleased to see that this morning.
    Mr. Chairman, you listed so many areas that I could spend 5 
hours talking about, but I will not do that. But it kind of was 
stunning to me to hear someone else list all the things that we 
have been working on. In the State Department we tend to be 
running the ground game. We tend not to be able to throw deep 
passes all the time. But every day, in so many different ways, 
wonderful diplomats and other individuals from all over the 
government, accredited to our missions around the world, are 
out there getting the job done for the American people.
    Suddenly you find a Libya that is willing to give up its 
weapons of mass destruction. Suddenly you find a Sudan that is 
closer to peace than it has ever been in 20 years. Suddenly you 
go from a situation where India and Pakistan were almost at war 
with each other 18 months ago and we were worried about nuclear 
conflagration on the subcontinent, to a point now where they 
are cooperating with each other in moving forward and even 
starting to inch up on the difficult issue of Kashmir. And we 
find that Pakistan feels sufficiently confident in their 
position and, with our help and pressure, we are dealing with 
the the A.Q. Khan situation and we are going to get that 
network all ripped up.
    The Moscow Treaty, the proliferation security initiative--
all the things you have mentioned, Mr. Chairman, we are proud 
of, and especially proud of the young men and women of the 
Department who have done this for the American people, for the 
President, and for his foreign policy.
    You paid me great tribute and I deeply appreciate that, but 
I could not have done it without the support that I received 
from this committee, from all the Members of Congress, and all 
the other committees that I report to. When I go out and visit 
our embassies and I give them a little pep talk, a ``meet and 
greet,'' as they are called--and you gentlemen and ladies have 
been kind enough to do it for us as you go out and visit our 
embassies--but I never finish one of those meet and greets 
without saying: And by the way, I want you folks to know that 
Congress supports you and the American people support you.
    I also tell them: I will go up and make the request for 
money and not only they give me what I ask for, they want to 
give me more, and I have to kind of say, no, that would not be 
right; I can only support the President's request, I cannot go 
any further, do not give me any more money.
    But it is a reflection of the appreciation that you have 
for what they are doing, and it is so important to those young 
men and women to know that it is not just the Secretary who 
understands and appreciates what they are doing, but that you 
appreciate what they are doing, you support them, and that the 
American people support them. That is what makes it all work.
    As I have told the committee on many occasions beginning I 
think at my very first hearing, I am a foreign policy adviser 
to the President, but I have also been given an organization to 
run, and I know a little bit about running organizations. I 
told you we would recruit. I told you we would fix the 
information technology system, we would fix our building 
operation, and our security procedures. I think the Department 
has done all of those things and done it in a manner that the 
Congress should have every reason to be proud of and approve 
of. We could not have done it without the support of this 
committee, and once again I thank you for that.
    Mr. Chairman, I am sure in the course of our questioning we 
will get into all of the many issues that have been raised by 
you and by Senator Biden. What I would like to do is just go 
through my statement completely and then we can get into the 
various issues.
    The President's FY 2005 international affairs budget 
request for the Department of State, USAID and other foreign 
affairs agencies totals $31.5 billion and it is broken down as 
follows: foreign operations, $21 billion; State operations, 
$8.4 billion; P.L. 480 food aid, $1.2 billion; international 
broadcasting, $569 million--and I always am trying to see if we 
can raise that number because of the challenges that we face of 
the kind Senator Biden mentioned--and the U.S. Institute for 
Peace, $22 million.
    The President's top foreign policy priority is winning the 
war on terrorism. Winning on the battlefield with our superb 
military forces is just one step in this process, just one 
element of our campaign. To eradicate terrorism altogether, the 
United States must help create stable governments in nations 
that once supported terrorism, nations like Iraq and 
Afghanistan, and we must go after terrorist support mechanisms 
as well as the terrorists themselves. We must also help 
alleviate conditions in the world that enable terrorists to 
bring in new recruits.
    To these ends, our foreign affairs agencies will use the FY 
2005 request money to continue to focus on the reconstruction 
of Iraq and Afghanistan. We will continue to support our 
coalition partners to further our counterterrorism, law 
enforcement and intelligence cooperation. And we will continue 
to do everything we can to expand democracy and help generate 
prosperity, especially in the Middle East as well as in other 
parts of the world.
    Mr. Chairman, members of the committee, 48 percent of the 
President's budget for foreign affairs supports the war on 
terrorism, our No. 1 priority. For example, $1.2 billion 
supports Afghan reconstruction efforts, security efforts, and 
democracy building. More than $5.7 billion provides assistance 
to countries around the world who have joined us in the war on 
terrorism. And $3.5 billion indirectly supports the war on 
terrorism by strengthening our ability to respond to 
emergencies and conflict situations. Finally, $190 million is 
aimed at expanding democracy in the greater Middle East, which 
is crucial if we are ever to attack successfully the motivation 
to terrorism.
    Mr. Chairman, two of the greatest challenges confronting us 
today are the reconstruction of Iraq and Afghanistan, and let 
me first turn to Iraq. The Coalition Provisional Authority and 
the Iraqi Governing Council have made great strides in the 
areas of security, economic stability, and growth, as well as 
in democratization. Iraqi security forces now comprise more 
than half of the total security forces in the country.
    In addition, the Coalition Provisional Authority has 
established a new Iraqi Army, issued a new currency, and 
refurbished and equipped schools and hospitals. As you know, 
the CPA is taking steps to return sovereignty to the Iraqi 
people this summer.
    Much work remains to be done. Working with our coalition 
partners, we will continue to train Iraqi police, border 
guards, and Civil Defense Corps, and the army in order to 
ensure the country's security as we effect a timely transition 
to democratic self-governance and a stable future. At the same 
time, we are helping provide critical infrastructure, including 
clean water, electricity, reliable telecommunications, and all 
the other infrastructure systems that are necessary for this 
country to get back up on its feet.
    Thousands of brave Americans, in uniform and in mufti, are 
in Iraq now, working tirelessly to help Iraqi succeed in this 
historic effort. Alongside their U.S. military colleagues, 
USAID, State Department, and Departments of the Treasury and 
Commerce and so many other government organizations are working 
together to implement infrastructure, democracy building, 
education, health, and economic development programs. These 
efforts are producing real progress in Iraq.
    As you know, Mr. Chairman, we are trying to implement the 
15 November agreement. We are working hard to finish work on a 
basic administrative law that Iraq will use until they are able 
to put into place a full constitution. We are still committed 
to having a transitional government in place that we can turn 
responsibility over and sovereignty over to on the 30th of 
June.
    We have been in touch with the U.N. team that is now in 
country, led by Ambassador Brahimi, who we know so well and who 
did such a great job in Afghanistan. He has met within the last 
24 hours with the Ayatollah Sistani and we are waiting for a 
fuller report of his activities.
    Clearly, we all would like to see elections as soon as 
possible, so there is no question about the legitimacy of the 
government to make sure that the new government is 
representative of all the people of Iraq. But elections take 
time, take preparations. We are hoping that Ambassador Brahimi 
will come out with some ideas as to how we can continue to 
march toward early transfer of sovereignty, but also deal with 
the concerns that have been raised with respect to full 
elections.
    Obviously, the security situation is challenging. We see 
that in the bombings that have taken place recently, where the 
insurgents there, the terrorists who are there, the old regime 
elements, are now going after police. They are going after 
those individuals who have been brought in to protect Iraqis, 
and they are now killing their own citizens as well as 
continuing to strike coalition targets.
    These regime-remaining elements will be dealt with. I think 
you will see that over time the terrorists will be dealt with 
by our military forces, by our coalition partners and their 
military forces, but increasingly by Iraqis taking on the 
burden for their own security.
    This is not the time to shrink back from the challenge that 
is ahead. This is the time to move fully forward so that we do 
not lose this opportunity to create a democracy for the people 
of Iraq which will benefit the region and benefit the world.
    A lot of debate is taking place right now with respect to 
the reason for the conflict, whether or not there were 
stockpiles of weapons of mass destruction. That debate will 
continue and many different groups are looking into it--two 
congressional committees, Director Tenet has a group looking at 
it, and the President has formed a commission also to look at 
it, and others are examining this question.
    There is no doubt in my mind, however, that Saddam Hussein 
had the intent, never lost the intent. Nobody has ever said he 
lost the intent. He had the capability in terms of the 
infrastructure, in terms of the knowledge as to how to use 
these weapons. He was developing delivery means, new delivery 
means for these weapons, both in the form of missiles and 
UAV's. The one question that we are still debating is: Did he 
have stockpiles and what happened to them if he did have them?
    The best intelligence information available to the 
President and all of his advisers, available to the 
intelligence community, available to the United Nations, 
available to the United Kingdom and France and Germany and all 
others, left no doubt in our mind that he had stockpiles; in 
addition to all of these other elements of his capability, when 
matched with his intent, presented a threat to the region, to 
his own people, to the world, to the United States.
    The President did not just jump in and act preemptively. He 
took it to the United Nations and made the case to the United 
Nations. We got Resolution 1441 passed. I then took our 
intelligence case to the United Nations last February 5. It was 
not a political case. It was a solid intelligence case that 
represented the best judgment of the intelligence community. 
That is why Director Tenet and I spent 4 days out at CIA 
looking over all the holdings that he had to make sure that we 
were confident of our judgment, and that is why Director Tenet 
accompanied me to that meeting.
    We were confident at that time that we knew the intent, we 
knew most of the elements of his capability, and we expected to 
find stockpiles.
    The work is not finished. The Iraqi Survey Group continues 
its work. Dr. Kay does not believe we will find those 
stockpiles, but we will continue to work to prove once and for 
all whether or not there is anything there.
    But Dr. Kay, who says he does not think anything is there, 
also says he is absolutely convinced we did the right thing, 
that Saddam Hussein was in material breach of his obligations, 
no question about it, violated all U.N. resolutions, to include 
1441, and if left to his own devices, if released from the 
pressure of the international community, if released from the 
pressure of sanctions, there is no doubt in Dr. Kay's mind, nor 
is there any doubt in my mind, that you would have seen those 
programs take new life and come back to haunt the region, haunt 
the people of Iraq, and haunt the international community as we 
worried about the nexus between those kinds of weapons and 
terrorism.
    So while we debate this question, while we debate this 
question about the stockpiles, I hope there is no question in 
the mind of any American citizen, and if there is we need to 
dispel it. The President acted on good, solid information that 
was available to us at that time and that he did the right 
thing, and the world is a lot better off with no Saddam 
Hussein. We do not have to worry about the question of weapons 
of mass destruction in the future, nor do we have to worry 
about finding any more mass graves that have been filled by 
this awful person who is no longer in power.
    What we have to do now as a Nation and as an international 
community is to come together and help the Iraqi people to 
build a new society based on a solid foundation of democracy 
and living in peace with its neighbors.
    Senator Biden asked about how we are working with the 
international community. We have a strong coalition. We are not 
there alone. There are many other nations with us there. Japan 
has now just dispatched troops and, for the first time since 
World War II, they have been able to do this, in the spirit of 
helping the Iraqi people.
    We think we will get greater support from NATO. As Senator 
Biden noted, I am working and so is Secretary Rumsfeld and 
other colleagues in the government, working with NATO to 
structure a role. No NATO member has opposed a future role for 
NATO in Iraq. They want to focus on Afghanistan right now, but 
we are considering what NATO might do in Iraq.
    We should not fool ourselves into thinking there are huge 
pots of troops waiting around in NATO nations who have not yet 
contributed to this effort that we will suddenly have access to 
if NATO as an alliance agrees to this. I think it unlikely we 
will get large numbers, if any numbers, of German troops or 
French troops. But I think it is possible to structure a role 
for NATO, taking over one of the zones perhaps in Iraq, that 
could enjoy the support of all of the NATO nations.
    Mr. Chairman, Afghanistan is another high priority for this 
administration. The United States is committed to helping build 
a stable and democratic Afghanistan that is free from terror 
and no longer harbors threats to our security. After we and our 
coalition partners defeated the Taliban government, we faced a 
daunting task of helping the Afghan people rebuild their 
country. We have demonstrated our commitment to this effort by 
providing over $3.7 billion in economic and security assistance 
to Afghanistan since 2001.
    Through our assistance and the assistance of the 
international community, the Government of Afghanistan is 
successfully navigating the transition that began in October 
2001. Afghanistan adopted a constitution last month and is 
preparing for democratic national elections in June. With 
technical assistance from the United States, Afghanistan 
successfully introduced a new stable currency in October 2002 
and is working to improve revenue collections in the provinces.
    The lives of women and girls are improving as women pursue 
economic and political opportunities and as young girls return 
to school or in many cases go to school for the first time ever 
in their lives.
    Since 2001 the United States has rehabilitated 205 schools, 
140 health clinics, and trained 13 battalions of the Afghan 
National Army. Also, President Bush's commitment to de-mine and 
repave the entire stretch of the Kabul-to-Kandahar highway was 
fulfilled. The road had not been functional for 20 years. What 
was once a 30-hour journey has now been reduced to a journey of 
only 5 to 6 hours. But more importantly, we are starting to 
connect the country back together once again through this kind 
of road effort and road efforts that will be forthcoming in the 
next year.
    While the Afghanistan of today is very different from the 
Afghanistan of September 2001, there is still much left to 
accomplish. In the near term, the United States will assist the 
Government of Afghanistan in its preparation for elections next 
June to make sure that they are free and fair. To demonstrate 
tangible benefits to the Afghan people, we will continue to 
implement assistance on an accelerated basis, and the request 
before you today contains $1.2 billion in assistance for 
Afghanistan that will concentrate on education, health, 
infrastructure, and assistance to the Afghan National Army.
    Mr. Chairman, the challenges we face in Iraq and 
Afghanistan are huge and complex, daunting and dangerous, but 
we can overcome them. It is hard to rebuild with one hand and 
fight off attacks with the other, but we are going to do it. We 
are going to fight off these attacks and we are not going to 
walk away from either of these two countries until the mission 
has been accomplished.
    We regret every life that is lost, whether that life is 
American, British, Canadian, Spanish, Italian, German, Iraqi, 
Afghan, or any other of the brave and dedicated people who are 
involved in this effort. But these men and women know and their 
families know that they do not risk life and limb in vain. They 
know that together we are changing the world. We are bringing 
freedom and democracy to people who have never known it before 
or who have had it denied to them for ages. We are drying up 
the swamps in which terrorism can flourish. We are bringing 
hope where hope was a forlorn stranger just a short time ago. 
And in the Taliban and in Saddam Hussein, we have eliminated 
two of the world's most dangerous regimes.
    Mr. Chairman, as part of the war on terrorism President 
Bush established a clear policy to work with other nations to 
meet the challenges of defeating terror networks with global 
reach. This commitment extends to the front-line states that 
have joined us in the war on terrorism and to those nations 
that are key to successful transition to democracy in both Iraq 
and Afghanistan. Our assistance enables countries cooperating 
closely with the United States to prevent future attacks, to 
improve counterterrorism capabilities, and to tighten border 
controls.
    As I mentioned earlier, the FY 2005 budget provides for 
more than $5.7 billion for assistance to countries around the 
world that have joined us in this effort, including Turkey, 
Jordan, Afghanistan of course, Colombia, Pakistan, Indonesia, 
and the Philippines. While progress has been made attacking 
terrorism organizations globally and regionally, much work 
remains to be done, and the President's budget strengthens our 
financial commitment to our coalition partners to get this work 
finished.
    Mr. Chairman, one aspect of the war on terrorism is going 
after weapons of mass destruction and their proliferation. 
Thank you for what you have done with the Nunn-Lugar program 
over the years. That is one of the key programs that goes after 
this challenge. You have seen what has happened now that we 
have bottled up Libya and removing their potential to be both a 
source and an owner of weapons of mass destruction. You have 
seen what has happened in Pakistan recently.
    Yesterday President Bush spoke at the National Defense 
University, as you noted, and outlined a new approach from the 
administration to this growing danger. He described how we 
worked for years to uncover the A.Q. Khan network. We never 
ignored it. We knew all about it. But we had to quietly go 
about identifying all elements of this network and dealing with 
it, and by learning more through our efforts with Libya about 
the network we were able to take the case to President 
Musharraf and let him know of the danger that lurked inside of 
Pakistan, a danger to Pakistan, a danger to the rest of the 
world.
    The President spoke to President Musharraf on a number of 
occasions. I spoke to President Musharraf about this on a 
number of occasions. My staff did a quick check last night and 
President Musharraf and I have had 82 phone calls over the last 
2-plus years, many of which dealt with these kinds of issues. 
And I am very pleased at the action that President Musharraf 
has taken in response to his recognition of the danger 
presented by this network, as well as the encouragement we have 
given him to deal with this danger.
    I think the President's speech yesterday provides new 
opportunities to go after this proliferation challenge and I am 
sure it will enjoy the support of this committee.
    Mr. Chairman, I could go on and go down every one of the 
items that you listed or every one of the items that Senator 
Biden listed, but I might find myself repeating too many points 
that would take away from the time available for members of the 
committee to raise the specific questions and give me a chance 
to respond to those questions.
    So let me close, Mr. Chairman, merely by saying once again 
how much we appreciate all the efforts that this committee has 
made to support us and to say how proud I am of what my 
Department has been doing in all these areas, whether it is 
matters of war, getting rid of a tyrant like Saddam Hussein, or 
whether it is matters of peace, solving regional conflicts in 
Liberia, in Sudan, in the Congo, seeing results in Libya, 
seeing some improvement in Iran, or whether it is going after 
some of the greatest problems we have on the face of the Earth 
that are not tyrants or wars, but are disease and pestilence, 
poverty, ignorance.
    The Millennium Challenge Account, our HIV-AIDS work, the 
wonderful work done by USAID, all of these efforts are so 
important in creating the kind of world we want to live in, and 
they often go unsung. People do not often write headline 
stories about food being delivered or inoculations being 
administered or great people out in USAID-land or in our 
embassies that, day to day, go and get this work done for the 
American people.
    On their behalf, I thank you for your support, and I am 
prepared for your questions.
    [The prepared statement of Secretary Powell follows:]

     Prepared Statement of Hon. Colin L. Powell, Secretary of State

    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify on the State Department's portion of the 
President's Budget Request for Fiscal Year 2005.
    The President's FY2005 International Affairs Budget for the 
Department of State, USAID, and other foreign affairs agencies totals 
$31.5 billion, broken down as follows:

  <bullet> Foreign Operations--$21.3 billion

  <bullet> State Operations--$8.4 billion

  <bullet> P.L. 480 Food Aid--$1.2 billion

  <bullet> International Broadcasting--$569 million

  <bullet> U.S. Institute of Peace--$22 million

    Mr. Chairman, the President's top foreign policy priority is 
winning the war on terrorism. Forty-eight percent of the President's 
budget for foreign affairs directly supports that priority by assisting 
our allies and strengthening the United States' diplomatic posture. For 
example: $1.2 billion supports Afghanistan reconstruction, security and 
democracy building, and more than $5.7 billion is provided for 
assistance to countries around the world that have joined us in the war 
on terrorism, and $3.5 billion indirectly supports the war on terrorism 
by strengthening our ability to respond to emergencies and conflict 
situations. Moreover, $190 million is aimed at expanding democracy in 
the Greater Middle East, in part to help alleviate the conditions that 
spawn terrorists.
    In addition, $5.3 billion is targeted for the President's bold 
initiatives to fight HIV/AIDS and create the Millennium Challenge 
Corporation, both of which will support stability and improve the 
quality of life for the world's poor--and, again, help to relieve 
conditions that cause resentment and despair.
    Mr. Chairman, let me elaborate a bit on how some of these dollars 
will be spent.

                      WINNING THE WAR ON TERRORISM

    Winning on the battlefield with our superb military forces is just 
one step in defeating terrorism. To eradicate terrorism, the United 
States must help create stable governments in nations that once 
supported terrorism, go after terrorist support mechanisms as well as 
the terrorists themselves, and help alleviate conditions in the world 
that enable terrorists to bring in new recruits. To this end, in FY2005 
the State Department and USAID will continue to focus on the 
reconstruction of Iraq and Afghanistan, support our coalition partners 
to further our counterterrorism, law enforcement and intelligence 
cooperation, and expand democracy and help generate prosperity, 
especially in the Middle East.

Building a Free and Prosperous Iraq
    The United States faces one of its greatest challenges in 
developing a secure, free and prosperous Iraq. The USG is contributing 
almost $21 billion in reconstruction funds and humanitarian assistance 
to this effort. The World Bank and the International Monetary Fund are 
expected to provide another $4 to $8 billion in loans and grants over 
the next three years. These resources, coupled with the growing 
assistance of international donors, will ease the transition from 
dictatorship to democracy and lay the foundation for a market economy 
and a political system that respects human rights and represents the 
voices of all Iraqis.
    The Coalition Provisional Authority (CPA) and the Iraqi Governing 
Council (IGC) have made great strides in the areas of security, 
economic stability and growth, and democratization. Iraqi security 
forces now comprise more than half of the total security forces in the 
country. In addition, the CPA has established a New Iraqi Army, issued 
a new currency and refurbished and equipped schools and hospitals. And, 
as you know, the CPA is taking steps to return sovereignty to the Iraqi 
people this summer.
    Much work remains to be done. Working with our coalition partners, 
we will continue to train Iraqi police, border guards, the Civil 
Defense Corps and the Army in order to ensure the country's security as 
we effect a timely transition to democratic self-governance and a 
stable future.
    At the same time, we are helping provide critical infrastructure, 
including clean water, electricity and reliable telecommunications 
systems which are essential for meeting basic human needs as well as 
for economic and democratic development. Thousands of brave Americans, 
in uniform and in mufti, are in Iraq now working tirelessly to help 
Iraqis succeed in this historic effort. Alongside their military 
colleagues, USAID, State Department and the Departments of the Treasury 
and Commerce are working to implement infrastructure, democracy 
building, education, health and economic development programs. These 
efforts are producing real progress in Iraq.

Winning the Peace in Afghanistan
    Mr. Chairman, Afghanistan is another high priority for this 
Administration. The U.S. is committed to helping build a stable and 
democratic Afghanistan that is free from terror and no longer harbors 
threats to our security. After we and our coalition partners defeated 
the Taliban government, we faced the daunting task of helping the 
Afghan people rebuild their country. We have demonstrated our 
commitment to this effort by providing over $3.7 billion in economic 
and security assistance to Afghanistan since 2001.
    Through our assistance and the assistance of the international 
community, the government of Afghanistan is successfully navigating the 
transition that began in October 2001. Afghanistan adopted a 
constitution last month and is preparing for democratic national 
elections in June. With technical assistance from the U.S., Afghanistan 
successfully introduced a new stable currency in October 2002 and is 
working to improve revenue collection in the provinces.
    The lives of women and girls are improving as women pursue economic 
and political opportunities and girls return to school. Since 2001, the 
United States has rehabilitated 205 schools and 140 health clinics and 
trained thirteen battalions of the Afghan National Army (ANA). Also, 
President Bush's commitment to de-mine and repave the entire stretch of 
the Kabul-Kandahar highway was fulfilled. The road had not been 
functional for over 20 years. What was once a 30-hour journey can now 
be accomplished in 5 or 6 hours.
    While the Afghanistan of today is very different from the 
Afghanistan of September 2001, there is still much left to accomplish. 
In the near-term, the United States will assist the government of 
Afghanistan in its preparations for elections in June to ensure that 
they are free and fair. To demonstrate tangible benefits to the Afghan 
people, we will continue to implement assistance on an accelerated 
basis. The FY2005 Budget contains $1.2 billion in assistance for 
Afghanistan that will be focused on education, health, infrastructure, 
and assistance to the ANA, including drawdown authority and Department 
of Defense ``train and equip.'' For example, U.S. assistance efforts 
will concentrate on rehabilitation and construction of an additional 
275 schools and 150 health clinics by June 2004, and complete training 
and equipping of fifteen army battalions. The U.S. will also extend the 
Kabul-Kandahar road to Herat so that people and commerce will be linked 
East and West across Afghanistan with a ground transportation link 
between three of the largest cities.

Support for Our Coalition Partners
    As part of the war on terrorism, President Bush established a clear 
policy to work with other nations to meet the challenges of defeating 
terror networks with global reach. This commitment extends to the 
front-line states that have joined us in the war on terrorism and to 
those nations that are key to successful transitions to democracy in 
Iraq and Afghanistan.
    Our assistance enables countries cooperating closely with the 
United States to prevent future attacks, improve counter-terrorism 
capabilities and tighten border controls. As I indicated earlier, the 
FY2005 Budget for International Affairs provides more than $5.7 billion 
for assistance to countries around the world that have joined us in the 
war on terrorism, including Turkey, Jordan, Afghanistan, Pakistan, 
Indonesia and the Philippines.
    U.S. assistance has also resulted in unparalleled law enforcement 
and intelligence cooperation that has destroyed terrorist cells, 
disrupted terrorist operations and prevented attacks. There are many 
counterterrorism successes in cooperating countries and international 
organizations. For example:

  <bullet> Pakistan has apprehended more than 500 al Qaeda terrorists 
        and members of the Taliban through the leadership of President 
        Musharraf, stronger border security measures and law 
        enforcement cooperation throughout the country.

  <bullet> Jordan continues its strong counterterrorism efforts, 
        including arresting two individuals with links to al Qaeda who 
        admitted responsibility for the October 2002 murder of USAID 
        Foreign Service officer Lawrence Foley in Amman.

  <bullet> The North Atlantic Treaty Organization has endorsed an 
        ambitious transformation agenda designed to enhance its 
        capabilities by increasing deployment speed and agility to 
        address new threats of terrorism.

  <bullet> Colombia has developed a democratic security strategy as a 
        blueprint for waging a unified, aggressive counterterror-
        counternarcotics campaign against designated foreign terrorist 
        organizations and other illegal, armed groups.

    The U.S. and its Southeast Asian allies and friends have made 
significant advances against the regional terrorist organization Jemaah 
Islamiyah which was responsible for the Bali attack in 2002 that killed 
more than 200 people. In early August 2003, an Indonesian court 
convicted and sentenced to death a key figure in that bombing.
    Since September 11, 2001, 173 countries have issued orders to 
freeze the assets of terrorists. As a result, terror networks have lost 
access to nearly $200 million in more than 1,400 terrorist-related 
accounts around the world. The World Bank, International Monetary Fund 
and other multilateral development banks have also played an important 
role in this fight by strengthening international defenses against 
terrorist finance.
    While progress has been made attacking terrorist organizations both 
globally and regionally, much work remains to be done. The FY2005 
President's Budget strengthens our financial commitment to our 
coalition partners to wage the global war on terror. Highlights of the 
President's request include $700 million for Pakistan to help advance 
security and economic opportunity for Pakistan's citizens, including a 
multi-year educational support program; $461 million for Jordan to 
increase economic opportunities for Jordanian communities and 
strengthen Jordan's ability to secure its borders; and $577 million for 
Colombia to support President Uribe's unified campaign against drugs 
and terrorism.
    In September 2003, at the United Nations, President Bush said: 
``All governments that support terror are complicit in a war against 
civilization. No government should ignore the threat of terror, because 
to look the other way gives terrorists the chance to regroup and 
recruit and prepare. And all nations that fight terror, as if the lives 
of their own people depend on it, will earn the favorable judgment of 
history.'' We are helping countries to that judgment.
    Mr. Chairman, one of the aspects of the War on Terrorism that gives 
us a particular sense of urgency is proliferation of weapons of mass 
destruction. These terrible weapons are becoming easier to acquire, 
build, hide, and transport.
    Yesterday, President Bush spoke at the National Defense University 
(NDU) and outlined the Administration's approach to this growing 
danger. The President described how we have worked for years to uncover 
one particular nefarious network--that of A.Q. Khan.
    Men and women of our own and other intelligence services have done 
superb and often very dangerous work to disclose these operations to 
the light of day. Now, we and our friends and allies are working around 
the clock to get all the details of this network and to shut it down, 
permanently.
    We know that this network fed nuclear technology to Libya, Iran, 
and North Korea.
    At NDU yesterday, President Bush proposed five measures to 
strengthen the world's efforts to prevent the spread of WMD:

  <bullet> Expand the PSI to address more than shipments and transfers; 
        even to take direct action against proliferation networks.

  <bullet> Call on all nations to strengthen the laws and international 
        controls that govern proliferation.

  <bullet> Expand our efforts to keep Cold War weapons and other 
        dangerous materials out of the hands of terrorists.

  <bullet> Close the loophole in the Nuclear Nonproliferation Treaty 
        that allows states such as Iran to produce nuclear material 
        that can be used to build bombs under the cover of civilian 
        nuclear programs.

  <bullet> And, finally, disallow countries under investigation for 
        violating nuclear nonproliferation treaties from serving on the 
        IAEA Board of Governors.

    As the President said yesterday, the nexus of terrorists and WMD is 
a new and unique threat. It comes not with ships and fighters and tanks 
and divisions, but clandestinely, in the dark of the night. But the 
consequences are devastating. No President can afford to ignore such a 
threat.

Expansion of Democracy in the Middle East
    We believe that expanding democracy in the Middle East is critical 
to eradicating international terrorism. But in many nations of the 
Middle East, democracy is at best an unwelcome guest and at worst a 
total stranger. The U.S. continues to increase its diplomatic and 
assistance activities in the Middle East to promote democratic voices--
focusing particularly on women--in the political process, support 
increased accountability in government, assist local efforts to 
strengthen respect for the rule of law, assist independent media, and 
invest in the next generation of leaders.
    As the President emphasized in his speech last November at the 
National Endowment for Democracy (NED), reform in the Middle East is of 
vital importance to the future of peace and stability in that region as 
well as to the national security of the United States. As long as 
freedom and democracy do not flourish in the Middle East, resentment 
and despair will continue to grow--and the region will serve as an 
exporter of violence and terror to free nations. For the United States, 
promoting democracy and freedom in the Middle East is a difficult, yet 
essential calling.
    There are promising developments upon which to build. The 
government of Jordan, for example, is committed to accelerating reform. 
Results include free and fair elections, three women holding Cabinet 
Minister positions for the first time in Jordan's history, and major 
investments in education. Positive developments also can be found in 
Morocco, which held parliamentary elections last year that were 
acclaimed as free, fair and transparent.
    In April 2003, the Administration launched the Middle East 
Partnership Initiative (MEPI), an intensive inter-agency effort to 
support political and education reform and economic development in the 
region. The President continues his commitment by providing $150 
million in FY2005 for these efforts.
    To enhance this USG effort with a key NGO, the President has 
doubled the NED budget to $80 million specifically to create a Greater 
Middle East Leadership and Democracy Initiative. NED is a leader in 
efforts to strengthen democracy and tolerance around the world through 
its work with civil society. We want that work to flourish.
    As President Bush said in his November speech at NED: ``The United 
States has adopted a new policy, a forward strategy of freedom in the 
Middle East. This strategy requires the same persistence and energy and 
idealism we have shown before. And it will yield the same results. As 
in Europe, as in Asia, as in every region of the world, the advance of 
freedom leads to peace.''

Public Diplomacy in the Middle East
    And the advance of freedom is aided decisively by the words of 
freedom.
    Democracy flourishes with freedom of information and exposure to 
diverse ideas. The President's FY2005 Budget promotes expansion of 
democracy in the Middle East by providing public access to information 
through exchange programs and the Middle East Television Network.
    New public diplomacy efforts including the Partnerships for 
Learning (P4L) and Youth Exchange and Study (YES) initiatives have been 
created to reach a younger and more diverse audience through academic 
and professional exchange programs. In FY2005, the P4L and the YES 
programs, funded at $61 million, will focus more on youth of the Muslim 
world, specifically targeting non-traditional, non-elite, often female 
and non-English speaking youth.
    U.S. broadcasting initiatives in the Middle East encourage the 
development of a free press in the American tradition and provide 
Middle Eastern viewers and listeners access to a variety of ideas. The 
U.S. revamped its Arabic radio broadcasts in 2002 with the introduction 
of Radio Sawa, which broadcasts to the region twenty-four hours a day. 
As a result, audience size for our Arabic broadcasting increased from 
under 2 percent in 2001 to over 30 percent in 2003. Based on this 
successful model, the U.S. introduced Radio Farda to broadcast to Iran 
around the clock. Building on this success, the FY2005 President's 
Budget Request provides over $70 million for Arabic and Persian radio 
and television broadcasts to the Middle East. In early 2004, the United 
States will launch the Middle East Television Network, an Arabic 
language satellite network that will have the capability of reaching 
millions of viewers and will provide a means for Middle Easterners to 
better understand democracy and free market policies, as well as the 
U.S. and its people.

                 OUR NEW APPROACH TO GLOBAL PROSPERITY

    President Bush's approach to global economic growth emphasizes 
proven American values: governing justly, investing in people, and 
encouraging economic freedom. President Bush has pledged to increase 
economic engagement with and support for countries that commit to these 
goals through an ambitious trade agenda and new approaches to 
development assistance focusing on country performance and measurable 
results.

The Millennium Challenge Account (MCA)
    In February of 2003, we sent the Congress a budget request for the 
MCA and legislation to authorize the creation of the Millennium 
Challenge Corporation (MCC), the agency designed to support innovative 
development strategies and to ensure accountability for results.
    The MCC will fund only proposals for grants that have clear, 
measurable objectives, a sound financial plan and indicators for 
assessing progress.
    The Congress appropriated $1 billion for MCA for FY2004. The FY2005 
Budget request of $2.5 billion makes a significant second year increase 
to the MCA and paves the way to reaching the President's commitment of 
$5 billion in FY2006.

Trade Promotion Authority (TPA)
    President Bush recognizes that the fastest, surest way to move from 
poverty to prosperity is through expanded and freer trade. America and 
the world benefit from free trade. For this reason, one of his first 
actions upon taking office in 2001 was to seek TPA, allowing him to 
negotiate market-opening agreements with other countries. The President 
aims to continue vigorously to pursue his free trade agenda in order to 
lift developing countries out of poverty, while creating high-paying 
job opportunities for America's workers, businesses, farmers and 
ranchers and benefiting all Americans through lower prices and wider 
choices. As the President said in April, 2001 at the Organization of 
American States: ``Open trade fuels the engines of economic growth that 
creates new jobs and new income. It applies the power of markets to the 
needs of the poor. It spurs the process of economic and legal reform. 
It helps dismantle protectionist bureaucracies that stifle incentive 
and invite corruption. And open trade reinforces the habits of liberty 
that sustain democracy over the long term.''
    Since receiving TPA in 2002, the President has made good on his 
promise, completing free trade agreements with Chile and Singapore, 
which were quickly approved by Congress and went into effect on January 
1. We have recently completed negotiations with five Central American 
countries on the Central America Free Trade Agreement (CAFTA) and are 
working to bring the Dominican Republic into that agreement. Earlier 
this week, we announced the conclusion of an agreement with Australia. 
Negotiations are ongoing with Morocco, the Southern African Customs 
Union (SACU), Bahrain, and on the Free Trade Agreement of the Americas 
(FTAA). We are concluding comprehensive agreements that include market 
access for goods and services, strong intellectual property and 
investment provisions, and include commitments for strong environmental 
and labor protections by our partners. These arrangements benefit 
Americans and our trading partners.
    Building on this significant progress, the President intends to 
launch free trade negotiations with Thailand, Panama, and the Andean 
countries of Colombia, Ecuador, Bolivia and Peru. The President has 
also stated his vision for a Middle East Free Trade Area by 2013, to 
ignite economic growth and expand opportunity in this critical region. 
Finally, the President is committed to wrapping up successfully the 
World Trade Organization's Doha agenda. The United States has taken the 
lead in re-energizing these negotiations following the Cancun 
Ministerial.

            CARING FOR THE WORLD'S MOST VULNERABLE CITIZENS

Emergency Plan for AIDS Relief
    When President Bush took office in January 2001, the HIV/AIDS 
pandemic was at an all time high, with the estimated number of adults 
and children living with HIV/AIDS globally at 37 million, with 68 
percent of those individuals living in sub-Saharan Africa. From fiscal 
years 1993 to 2001 the total U.S. Government global AIDS budget was 
about $1.9 billion. As part of the Emergency Plan for AIDS Relief, the 
President proposed $2 billion in fiscal year 2004 as the first 
installment of a five-year, $15 billion initiative, surpassing nine 
years of funding in a single year. The President's Emergency Plan for 
AIDS Relief represents the single largest international public health 
initiative ever attempted to defeat a disease. The President's Plan 
targets an unprecedented level of assistance to the 14 most afflicted 
countries in Africa and the Caribbean to wage and win the war against 
HIV/AIDS. In addition, programs will continue in 75 other countries.
    By 2008, we believe the President's Plan will prevent seven million 
new infections, treat two million H1V-infected people, and care for 10 
million HIV-infected individuals and those orphaned by AIDS in 
Botswana, Cote d'Ivoire, Ethiopia, Guyana, Haiti, Kenya, Mozambique, 
Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda and Zambia.
    Announced during President Bush's State of the Union Address on 
January 28, 2003, the Emergency Plan provides $15 billion over five 
years for those countries hardest hit by the pandemic, including $1 
billion for the Global Fund to Fight AIDS, Tuberculosis and Malaria. 
The FY2005 Budget provides $2.8 billion from State, USAID, and the 
Department of Health and Human Services (HHS) to combat global AIDS, 
more than tripling funding for international HIV/AIDS since the 
President took office.
    Over the past year, we have worked with the Congress to pass 
legislation laying the groundwork for this effort and to appoint a 
senior official at the State Department to coordinate all U.S. 
Government international HIV/AIDS activities. Ambassador Randall Tobias 
has been confirmed by Congress and has now taken steps to assure 
immediate relief to the selected countries. He announced mechanisms to 
initiate services in five key areas, such as care for orphans and 
vulnerable children as well as care and antiretroviral treatment for 
HIV-infected adults.
    As a crucial next step, the FY2005 Budget Request expands on the 
Emergency Plan. By working together as a highly collaborative team, and 
placing primary ownership of these efforts in the hands of the 
countries that we are helping--just as you will recall the Marshall 
Plan did so successfully in post-WWII Europe--the Department of State, 
USAID and HHS can use significantly increased resources quickly and 
effectively to achieve the President's ambitious goals in the fight 
against global AIDS.
    Mr. Chairman, President Bush summed it up this way in April of last 
year, ``There are only two possible responses to suffering on this 
scale. We can turn our eyes away in resignation and despair, or we can 
take decisive, historic action to turn the tide against this disease 
and give the hope of life to millions who need our help now. The United 
States of America chooses the path of action and the path of hope.'' 
These dollars put us squarely on that path.

Emergency Humanitarian Assistance--Helping Others in Need
    The President's Budget Request reflects a continued commitment to 
humanitarian assistance. The request maintains U.S. leadership in 
providing food and non-food assistance to refugees, internally 
displaced persons, and other vulnerable people in all corners of the 
world. In addition, the budget reflects the findings of the Program 
Assessment Rating Tool (PART) evaluations completed for the United 
Nations High Commissioner for Refugees and for USAID's Public Law 480 
Title II international food assistance, which confirmed a clear purpose 
for these programs.
    In 2003, the Administration provided funding to several 
international and nongovernmental organizations to assist nearly 
200,000 Angolan refugees and internally displaced persons return home 
after decades of civil war.
    In an Ethiopia enveloped by drought, the Administration led 
international efforts to prevent widespread famine among 13 million 
vulnerable people, providing over one million metric tons of emergency 
food aid (valued at nearly half a billion dollars) to the World Food 
Program and NGOs, funding immunizations for weakened children, and 
supplying emergency seeds to farmers.
    In Sudan, the Administration worked with the United Nations and the 
Government of Sudan so that vital assistance could be delivered to the 
Sudanese people. This year the U.S. will provide about $210 million in 
vital assistance to the people in the south, including approximately 
125,000 metric tons (valued at nearly $115 million) in food aid, as 
well as non-food assistance, such as sanitation and water. We 
anticipate that a comprehensive peace agreement in Sudan will allow us 
to expand significantly our development assistance to help the Sudanese 
people in effecting a long-awaited recovery following decades of civil 
war. The FY2005 Budget includes $436 million in humanitarian and 
development, economic, and security assistance funding, much of which 
will be contingent upon a peace settlement between the government and 
the south.
    The FY2005 Budget ensures that the Administration can continue to 
respond quickly and appropriately to victims of conflict and natural 
disasters and to help those in greatest need of food, shelter, health 
care and other essential assistance, including those in areas starting 
to recover from conflict and war, such as Liberia. In particular, the 
budget requests funding for a flexible account to give the President 
the ability to respond to unforeseen emergency needs, the Emergency 
Fund for Complex Foreign Crises, funded at $100 million.

               KEEPING AMERICANS SAFE AT HOME AND ABROAD

    Mr. Chairman, we also have a sacred responsibility to look to the 
security of our citizens, here and overseas, when that security is a 
part of our responsibility.

Capital Security Cost Sharing Program
    The State Department has the responsibility to protect more than 
60,000 U.S. Government employees who work in embassies and consulates 
abroad. Since the 1998 bombings of two U.S. embassies in East Africa, 
the State Department has improved physical security overseas; however, 
as many of you are well aware, many posts are still not secure enough 
to withstand terrorist attacks and other dangers. To correct this 
problem, in 1999, the State Department launched a security upgrade and 
construction program to begin to address requirements in our more than 
260 embassies and consulates.
    Working with the Congress, President Bush has accelerated the pace 
of improving and building new secure facilities. Moreover, we have 
reorganized the Overseas Buildings Office to manage the effort with 
speed, efficiency, and effectiveness. Within the budget, we are 
launching a plan to replace the remaining 150 embassies and consulates 
that do not meet current security standards over the next 14 years, for 
a total cost of $17.5 billion. To fund construction of these new 
embassy compounds, we will begin the Capital Security Cost Sharing 
(CSCS) Program in FY2005. We will implement this program in phases over 
the next five years.
    Each agency with staff overseas will contribute annually towards 
construction of the new facilities based on the number of positions and 
the type of space they occupy. We arrived at the cost shares in the 
FY2005 President's Budget Request in consultations with each agency and 
the State Department's Overseas Buildings Office.
    CSCS is also a major component of the President's Management Agenda 
Initiative on Rightsizing. Along with securing facilities, we have 
focused on assuring that overseas staffing is deployed where they are 
most needed to serve U.S. interests. As agencies assess the real cost 
of maintaining staff overseas, they will adjust their overseas staffing 
levels. In this way, new embassies will be built to suit appropriate 
staffing levels. The program is already producing rightsizing results. 
Agencies are taking steps to eliminate unfilled positions from their 
books to reduce any unnecessary CSCS charges, which in turn is leading 
to smaller embassy construction requirements.

Border Security
    Prior to September 11, 2001, the State Department's consular 
officers focused primarily on screening applicants based on whether 
they intended to work or reside legally in the United States. In 
deciding who should receive a visa, consular officers relied on State 
Department information systems as the primary basis for identifying 
potential terrorists. The State Department gave overseas consular 
officers the discretion to determine the level of scrutiny that should 
be applied to visa applications and encouraged the streamlining of 
procedures.
    Today, Consular Affairs at the State Department, working with both 
Customs and Border Protection and the Bureau of Citizenship and 
Immigration Services at the Department of Homeland Security, are 
cooperating to achieve our goals more effectively by sharing 
information and integrating information systems.
    The Department of State has invested substantial time, money, and 
effort in revamping its visa and passport process as well as its 
provision of American Citizen Services. The Department has more than 
doubled its database holdings on individuals who should not be issued 
visas, increased training for all consular officers, established 
special programs to vet applications more comprehensively, increased 
the number of skilled, American staff working in consular sections 
overseas, and improved data-sharing among agencies. The State 
Department, along with the Department of Homeland Security, is 
currently developing biometrics, such as fingerprints, digital 
photographs or iris scans, for both visas and passports in order to 
fulfill requirements of the Patriot and Border Security Acts and the 
International Civil Aviation Organization.
    As a part of the State Department's efforts to screen visa 
applicants more effectively, and in particular to ensure that a 
suspected terrorist does not receive a visa to enter the United States, 
we will be an active partner in the Terrorist Screening Center (TSC). 
The TSC, established in December 2003, will maintain a single, 
consolidated watchlist of terrorist suspects to be shared with Federal, 
state, local and private entities in accordance with applicable law. 
The Department of State will also participate in the Terrorist Threat 
Integration Center (TTIC), a joint-effort aimed at reducing the 
potential of intelligence gaps domestically and abroad.
    To achieve our goal of secure borders and open doors, in FY2005 the 
State Department plans to expand the use of biometrics to improve 
security in the visa and passport processes; more effectively fill gaps 
worldwide by hiring people with specific skills including language 
expertise; improve and maintain all consular systems; and more broadly 
expand data sharing with all agencies with border control or 
immigration related responsibilities. The budget in FY2005 includes 
$175 million for biometric projects including photographs and 
fingerprints to comply with Border Security and Patriot Acts.
    The Border Security program underwent a PART analysis in the 
development of the FY2004 and FY2005 budgets and this budget request 
reflects the results of those analyses. The Department is moving ahead 
on program management improvements that clearly link to the Department 
of Homeland Security goals related to visa policy.

            THE CRITICAL IMPORTANCE OF DIPLOMATIC READINESS

    We created the Diplomatic Readiness Initiative (DRI) in 2002 to 
address staffing and training gaps that had become very adverse to the 
conduct of America's diplomacy. The goal of DRI was to hire 1,158 new 
foreign and civil service employees over a three-year period. These new 
hires, the first over-attrition hires in years, would allow us to 
provide training opportunities for our people and greatly improve the 
Department's ability to respond to crises and emerging priorities 
overseas and at critical domestic locations. To bring these new people 
on board--and to select the best men and women possible--we 
significantly improved Department hiring processes, to include 
recruiting personnel from more diverse experience and cultural 
backgrounds and people who could fill critical skill gaps. In the 
process, we broke records in recruiting and thus had the best and the 
brightest from which to select. The Department of State will be reaping 
the benefits from this process for many years to come. We also created 
new mandatory leadership and management training, enhanced public 
diplomacy and consular training, and made significant increases in the 
amount of language training available for new Foreign Service Officers. 
DRI hiring has supported the Department's efforts in responding to 
crises since September 11th and provided the additional resources 
necessary to staff overseas locations that truly represent the front 
line in the war on terrorism.
    Some of these positions, however, are being diverted to support new 
requirements not envisioned by DRI, such as permanently staffing new 
embassies in Afghanistan, Iraq, Sudan, and possibly in Tripoli. Because 
of this, the FY2005 Budget Request provides additional resources to 
continue our DRI commitment.
    DRI has allowed the Department to focus on recruiting, training and 
retaining a high quality work force, sized to requirements that can 
respond more flexibly to the dynamic and demanding world in which we 
live. We need to continue it.
    USAID has begun a similar effort to address gaps in staffing in 
technical skills, calling it the Development Readiness Initiative. 
USAID plans to hire approximately 40 Foreign Service Officers in FY2004 
under this initiative. This Budget Request includes authority for USAID 
to hire up to 50 additional Foreign Service Officers in FY2005, in 
order to fill critical skill gaps identified through a comprehensive 
workforce analysis.
    Mr. Chairman, I have focussed your attention for long enough. There 
is more in the President's Budget Request for FY2005; but what I have 
outlined above represents the top priorities for the State Department. 
I will be pleased to answer any questions you have about these 
priorities or about any other portion of the budget request in which 
you are interested. If I cannot answer the question myself, I have a 
Department full of great people who can; and I will get you an answer 
for the record.
    Thank you.

    The Chairman. Thank you very much, Mr. Secretary.
    Let me suggest that for our first round of questioning we 
have an 8-minute limit. I will begin the questioning.
    Secretary Powell, you have addressed the decision to go to 
war in Iraq and some of the issues that have been discussed by 
others. Let me simply say that Senator Biden as chairman of 
this committee conducted some extensive hearings in the summer 
of 2002. This committee was privileged to hear from a number of 
sophisticated Iraqis, scholars about Iraq, as well as officials 
of our government both past and present. I believe that we 
developed a very good idea, prior to any decisionmaking phase, 
of the complexity of the situation, and the gravity of the 
problem facing the world, as well as the United States 
specifically, and the credibility with regard to the lack of 
cooperation of Saddam Hussein.
    Now, following the July and August recesses in both of our 
branches of government, the President called a meeting on 
September the 5th that I remember vividly. Senator Biden and I 
were invited to be a part of that. As I recall, you were there, 
and leaders of Congress, leaders of the administration. The 
President said: We are going to the U.N. He detailed leaders he 
was going to call. He commissioned you, as you have said today 
and, very modestly, after arduous negotiation, obtained 
Resolution 1441.
    He also said that he was going to coopt the Congress. He 
was going to ask us for a vote giving authority for military 
action in the event that Iraq continued to be uncooperative and 
defied the world, both as a measure to help you in your 
negotiations, but likewise as a marker of the credibility of 
our country.
    I remember asking him: How soon do you want it? And he 
said: Some time in this calendar year. The committee, under 
Senator Biden's leadership, crafted a resolution.
    I mention this because the Biden-Lugar resolution has been 
bandied about a good bit by many who found it satisfying, 
others who did not. Leaving that aside, it was a serious 
attempt in a bipartisan way on the part of this committee to 
indicate our support for the fact that our country needed to be 
credible in the world and likewise supportive of the President.
    Now, our specific resolution did not find favor with White 
House counsel, I would say quite frankly. I regret that was the 
case, but I simply note that for the record. In due course 
other arrangements were made. Senator Biden and I both voted 
for the resolution as it finally came before the Senate, as did 
a fair number of our colleagues on this committee. And I say 
this for myself, as a member of the Intelligence Committee, I 
believed that in front of me was all of the intelligence that 
was in front of you. We had access if we were diligent in 
wanting to pursue it.
    So it was not a question of being misled, misguided. We had 
to make judgments as public servants, and we did. Now, I 
mention all of that because there was one thing that we also 
drew to the attention of the administration, and that was the 
lack of preparation as we saw it, in the event we came into 
conflict, for the day after the conflict ended. If we were 
confident in our Armed Forces, confident in the battle plan, we 
were not confident the day after, literally.
    We expressed that again as the new chairman came, namely 
myself. We had hearings, and sometimes we had lack of 
cooperation from Pentagon witnesses and from others who might 
have been informed, but who also might not have been. There may 
not have been that much of a plan. It is alleged that you had 
plans. It is alleged that somehow or other the administration 
did not have all the best planning there.
    However it may be, this is a serious matter. Jerry Bremer 
and his group have been doing, in a pragmatic fashion, very 
well. The mission of Kofi Annan and the U.N. now is very 
important. The President embraced it, and so have we as leaders 
in the Congress.
    I get to this point: simply that we really need to work 
together to think through what this country does in nation-
building. That used to be a bad term. It is not now. I heard 
General Jones at the Wehrkunde conference in Munich saying 
again, as he told our committee: We are going to be there, we 
are going to stay, we are going to have a successful 
Afghanistan, we are going to build the nation. That may not 
have gotten through to everybody in America, but it certainly 
has with this administration and those of us in Congress who 
support the thought that there ought to be in your shop, in 
Defense, the National Security Council, somewhere, a group of 
people who are prepared to build nations as a part of our 
foreign policy.
    Not that we want to do this every day, but we have at least 
two instances now that are very big in scale and that must be 
very successful.
    I have mentioned our Policy Advisory Group and we have 
discussed this a bit, as well as Mr. Grossman's participation. 
Is it my understanding that you or members of the 
administration, quite apart from what we are discussing over 
here, are discussing these issues, and that you may come 
forward with either an administrative order or legislation that 
you want us to act upon?
    If the latter, I would just say that we are eager to be 
helpful. We are not trying to rearrange the administration, but 
we really are trying, as we did before, to spur the kind of 
thinking that we think is important on behalf of our country. I 
think you are resolved to do the same thing. Can you make any 
general comment about this preparation of the hereafter? 
Granted that we have two tough issues ahead of us, but we may 
have many more down the trail?
    Secretary Powell. Mr. Chairman, first of all I am very 
pleased that you have created this Policy Advisory Group and 
very pleased that Under Secretary Grossman is working with you. 
We are thinking and considering different alternatives within 
the administration and working with colleagues in the Defense 
Department, the National Security Council, and elsewhere. I 
have written you a letter which came up last night describing 
some of the things we are working on: creating a reserve corps 
of people within the Department that I can reach out and grab. 
The very fact that you have allowed me to increase staffing 
over the last few years allows me to start to put in place that 
kind of reserve corps of people that I can call upon.
    In a conflict situation--and I have been involved in a few 
over the years, from Panama through Desert Storm through 
Afghanistan and now this current gulf war--it has to be of 
necessity, the military, the Department of Defense, in the 
first instance after the conflict. They are there, they have 
the capacity, they have the resources that are not available in 
any other branch of government.
    It does not mean that the other branches of government do 
not have a role to play. We do. But initially and 
traditionally, if you look at Japan and Germany and elsewhere, 
it is the military that has the organizational ability and the 
resources to take charge of a place.
    For those in the room who may be old soldiers, sailors, 
airmen, or marines, there is an old general order: Take charge 
of this post and all government property in view. That is what 
the military does well, and that is what was done in this 
instance of Operation Iraqi Freedom.
    Now Don Rumsfeld and I are going through the transition 
period with Ambassador Bremer and I am starting to stand up a 
very large mission that will take over from the CPA when 
sovereignty is transferred to the Iraqi people. But we are 
looking as to how we can do this better, because there has 
always been not the smoothest meshing of gears in every one of 
these operations I have been involved in. The Pentagon does it, 
takes over quickly, and then they look around for who takes it 
over from them, and we are usually doing a little too much ad 
hoc-ism at that point. I think we do have to do a better job of 
this.
    I look forward to working with the committee on this 
matter. I have to be a little careful about buying into 
anything yet because I think ultimately the President has to 
have the flexibility to decide what he wants the administration 
to do in any particular circumstance, and to put it in as a 
matter of law, this is something we should discuss at 
considerable length, Mr. Chairman, and make sure we do not do 
something that binds a future President.
    The Chairman. Well, I would agree, but at the same time the 
urgency is there. I hope and I pray that the President sees 
that as you do, as we do. That is one reason for raising this 
question publicly in this forum today.
    Secretary Powell. Thank you, Mr. Chairman.
    The Chairman. I would just add one footnote and that is 
that still there lies the problem of the day after, quite apart 
from the turnover from the military to you. This may be an 
issue that has to be addressed by our military, and perhaps by 
the President again. In other words, if the forces that are 
lean and mean eliminate the military elements of a Saddam 
Hussein or the Taliban or whoever, who polices? Who keeps the 
ministries open, the oil fields sound, the rest of the 
situation in order? Maybe military police, but if so then, even 
with the lean and mean fighters, there need to be a lot of 
police who come in.
    I am not trying to revisit the whole strategy. This is your 
job and that of the President, the Secretary of Defense, and 
others. But there is a gap here and we are concerned about it. 
You are concerned about it. The country is concerned about it, 
because it just did not work very well. In fact, there were 
semi-disastrous elements in what otherwise was a remarkable 
military operation.
    So that we do not see repetition of this, it seems to me 
that we need some confidence-building in our own public policy. 
That is the purpose of raising these questions. If not you and 
the State Department, who? And hopefully you are a 
participant--obviously you are--in those conversations and it 
would be preferable for us to try to legislate and not to get 
into an argument with the administration.
    The preferred course would be for the administration to 
suggest a program, in which legislation may be a part, and in 
which administrative adjustments could be made quickly.
    I yield now to my distinguished friend Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    I cannot think of anything that this committee can do that 
is of greater organizational and structural consequence than to 
engage this question. You put together an incredibly impressive 
bipartisan panel of experts that served in many administrations 
to help us understand the needs and come up with organizational 
structures to deal with it and I think it would be a 
significant contribution if, working together, we were able to 
deal with this in a structural way.
    Let me pursue part of the chronology that the chairman 
pursued about our hearings and our meetings on September 5, et 
cetera. Throughout this period we were having these meetings 
and these discussions and these hearings and our meetings at 
the White House, and the President was available to me and to 
others, ranking members, senior members, during this period, I 
spent hours with him, cumulative with him, more than 5 hours, 
maybe less than 10, but hours, discussing these subjects.
    One of the constant--I should not say debates--
intersections of disagreement he and I had during this period 
was whether or not Saddam was an imminent threat. You said in 
your testimony today in stating the case why what we did was 
the correct thing to do that we acted on good, solid 
information. I do not doubt for a minute you acted on 
information. I do not think it was good and solid. We thought 
it was good and solid. I think it has proven not to be so good 
and so solid.
    I am not trying to quibble. I am not in any way questioning 
your integrity. I believe you acted and stated what you thought 
to be the facts, and they may turn out still to be the facts, 
some of them.
    But one of the things, I might say--and you were the only 
one during this period--and I am going to ask to have submitted 
to the record a cursory gleaning of the statements made by 
senior administration officials about whether this was an 
imminent threat. No one used the word ``imminent,'' but they 
did use ``immediate,'' ``moral,'' ``urgent,'' ``grave,'' 
``serious and mounting,'' ``unique,'' ``there is a desire to 
strike America with weapons of mass destruction now.``
    I would note the only thing we could find in the record 
other than the statement that Secretary Powell made at the 
United Nations in February was Secretary Powell admitted, 
quote, ``Iraq threatens not the United States.'' That is what 
you said during--in terms of whether there was an immediate 
threat. Your quote was that you admitted that Iraq threatens, 
``threatens not the United States.''
    Now, that was before February. Again, the reason I am 
raising this is to go to this larger issue of what we knew and 
what we did not know and what we prepared for and what we did 
not prepare for.
    I would ask unanimous consent that these statements, that I 
do not suggest are dispositive or include all statements 
relevant, but the ones we honestly tried to find what people 
were saying at the time to characterize the threat, be 
submitted for the record at this time.
    The Chairman. The submission will be published in full.
    [The statements referred to follows:]

           IMMENINT vs. GATHERING--ADMINISTRATION STATEMENTS

    Although President Bush did not use the words ``imminent threat'' 
directly, his spokesman did and the President and other high ranking 
officials used synonymous phrases: ``immediate threat'', ``mortal 
threat,'' ``urgent threat,'' ``grave threat,'' ``serious and mounting 
threat,'' ``unique threat,'' and claimed that Iraq was actively seeking 
to ``strike the United States with weapons of mass destruction''--all 
just months after Secretary of State Colin Powell admitted that Iraq 
``threatens not the United States.''

TIMELINE

March 20, 2003: The U.S. launches its first strikes against Iraq.

May 1, 2003: President Bush declares an end to major combat operations 
        in Iraq.

  How President Bush and His Administration Described the Iraq Threat 
                             BEFORE The War

    ``This is an American issue, a uniquely American issue. And it's--
as I reminded the members, that--I say uniquely American issue because 
I truly believe that now that the war has changed, now that we're a 
battlefield, this man poses a much graver threat than anybody could 
have possibly imagined. Other countries, of course, bear the same risk. 
But there's no doubt his hatred is mainly directed at us. There's no 
doubt he can't stand us. After all, this is a guy that tried to kill my 
dad at one time.''--President Bush in Houston, September 26, 2002.

    ``On its present course, the Iraqi regime is a threat of unique 
urgency.''--President Bush, October 2, 2002, after reaching agreement 
with House leaders on Iraq resolution.

    ``This is about imminent threat.''--White House spokesman Scott 
McClellan, February 10, 2003.

    ``No terrorist state poses a greater or more immediate threat to 
the security of our people and the stability of the world than the 
regime of Saddam Hussein in Iraq.''--Secretary of Defense Donald 
Rumsfeld in testimony to the House Armed Services Committee, September 
19, 2002.

    ``Some have argued that the nuclear threat from Iraq is not 
imminent--that Saddam is at least 5-7 years away from having nuclear 
weapons. I would not be so certain. And we should be just as concerned 
about the immediate threat from biological weapons. Iraq has these 
weapons.''--Secretary of Defense Donald Rumsfeld, September 18, 2002.

    ``There are many dangers in the world, the threat from Iraq stands 
alone because it gathers the most serious dangers of our age in one 
place. Iraq could decide on any given day to provide a biological or 
chemical weapon to a terrorist group or individual terrorists.''--
President Bush, October 7, 2002.

    ``There is real threat, in my judgment, a real and dangerous threat 
to America in Iraq in the form of Saddam Hussein.''--President Bush, 
October 28, 2002.

    ``I see a significant threat to the security of the United States 
in Iraq.''--President Bush, November 1, 2002.

    ``The Iraqi regime is a serious and growing threat to peace.''--
President Bush, October 16, 2002.

    ``The Iraqi regime is a threat of unique urgency.''--President 
Bush, October 2, 2002.

    ``There's a grave threat in Iraq. There just is.''--President Bush, 
October 2, 2002.

    ``The history, the logic, and the facts lead to one conclusion: 
Saddam Hussein's regime is a grave and gathering danger. To suggest 
otherwise is to hope against the evidence.''--President Bush, September 
12, 2002, speaking at the United Nations.

    ``Saddam Hussein possesses chemical and biological weapons. Iraq 
poses a threat to the security of our people and to the stability of 
the world that is distinct from any other. It's a danger to its 
neighbors, to the United States, to the Middle East and to the 
international peace and stability. It's a danger we cannot ignore. Iraq 
and North Korea are both repressive dictatorships to be sure and both 
pose threats. But Iraq is unique. In both word and deed, Iraq has 
demonstrated that it is seeking the means to strike the United States 
and our friends and allies with weapons of mass destruction.''--
Secretary of Defense Donald Rumsfeld, January 20, 2003.

    ``He's a threat that we must deal with as quickly as possible.''--
President Bush, September 13, 2002, remarks to press.

    ``In the attacks on America a year ago, we saw the destructive 
intentions of our enemies. This threat hides within many nations, 
including my own. In cells and camps, terrorists are plotting further 
destruction, and building new bases for their war against civilization. 
And our greatest fear is that terrorists will find a shortcut to their 
mad ambitions when an outlaw regime supplies them with the technologies 
to kill on a massive scale . . .

    The conduct of the Iraqi regime is a threat to the authority of the 
United Nations, and a threat to peace. Iraq has answered a decade of 
U.N. demands with a decade of defiance.''--President Bush before the UN 
on September 12, 2002.

    Iraq is ``a serious threat to our country, to our friends and to 
our allies.''--Vice President Dick Cheney, January 31, 2003.

    ``Iraq poses a serious and mounting threat to our country. His 
regime has the design for a nuclear weapon, was working on several 
different methods of enriching uranium, and recently was discovered 
seeking significant quantities of uranium from Africa.''--Secretary of 
Defense Donald Rumsfeld, January 29, 2003.

    ``Well, of course he is.''--White House Communications Director Dan 
Bartlett responding to the question ``is Saddam an imminent threat to 
U.S. interests, either in that part of the world or to Americans right 
here at home?'' January 26, 2003.

    ``The danger is already significant and it only grows worse with 
time. If we know Saddam Hussein has dangerous weapons today--and we 
do--does it make any sense for the world to wait to confront him as he 
grows even stronger and develops even more dangerous weapons?''--
President Bush, September 7, 2002, speech in Cincinnati.

    ``The world is also uniting to answer the unique and urgent threat 
posed by Iraq, whose dictator has already used weapons of mass 
destruction to kill thousands.''--President Bush, November 23, 2002, 
radio address.

    ``The gravity of this moment is matched by the gravity of the 
threat that Iraq's weapons of mass destruction pose to the world. Let 
me now turn to those deadly weapons programs and describe why they are 
real and present dangers to the region and to the world.''--Secretary 
of State Colin Powell, February 5, 2003, at United Nations.

    Iraq was ``the most dangerous threat of our time.''--White House 
spokesman Scott McClellan, July 17, 2003.

    ``I would look you in the eye and I would say, go back before 
September 11 and ask yourself this question: Was the attack that took 
place on September 11 an imminent threat the month before or two months 
before or three months before or six months before? When did the attack 
on September 11 become an imminent threat? Now, transport yourself 
forward a year, two years or a week or a month . . . So the question 
is, when is it such an immediate threat that you must do something?''--
Secretary of Defense Donald Rumsfeld, November 14, 2002.

    ``Iraq is busy enhancing its capabilities in the field of chemical 
and biological agents, and they continue to pursue an aggressive 
nuclear weapons program. These are offensive weapons for the purpose of 
inflicting death on a massive scale, developed so that Saddam Hussein 
can hold the threat over the head of any one he chooses. What we must 
not do in the face of this mortal threat is to give in to wishful 
thinking or to willful blindness.''--Vice President Dick Cheney, August 
29, 2002 speaking to veterans of the Korean War in San Antonio, Texas.

    ``The message I plan to give all the leaders I speak to and to the 
Arab public is that the cause of this problem that we have is in 
Baghdad. It is Saddam Hussein who refuses to abandon his pursuit of 
weapons of mass destruction. The United Nations has an obligation and, 
as part of the United Nations, the United States has an obligation to 
do everything we can to cause him to come into compliance with the 
agreements he made at the end of the Gulf War. He threatens not the 
United States. He threatens this region. He threatens Arab people. He 
threatens the children of Egypt, the children of Saudi Arabia, the 
children of Kuwait with these weapons. He has used them before, so I 
think we all have a solemn obligation to keep him in check.''--
Secretary of State Colin L. Powell at press briefing in Cairo, Egypt on 
February 24, 2001.

    Senator Biden. Now, again the reason I raise this is in 
discussions during this period with the President the question 
was twofold always: one, not whether Saddam was a bad guy. I 
voted for this resolution. I think the resolution that Dick and 
I put together was a much more sound and substantive and 
rational way to approach this, but that is obviously, we 
authored it so we think it is better.
    But, having said that, I nonetheless voted for the 
resolution because I thought it was very important you have the 
power to go and negotiate at the United Nations knowing that 
you could say: The Congress is behind us; if you do not move 
with us, we may have to move ourselves.
    Now, but during this period in my discussions with the 
President it always was, my discussion, how immediate this 
threat was, how urgent this threat was, how much time we had to 
wait, how much time could we wait, how much time did we have to 
build a coalition, how much more time were you to be given in 
your effort to build a coalition? That is the place where I 
found myself always at odds with the President's point of view.
    Now, here we are at a time when things are better than they 
were several months ago, in my view, but at a critical point 
about what we do now, what we do now in terms of the November 
agreement we made and in face of the comments and insistence by 
Sistani, Grand Ayatollah Sistani, that there be immediate, full 
and popular elections, which you and I both know is not 
possible. I mean, even if we agreed to it there is not the 
voter rolls, there is not the mechanism, there is not the 
means.
    You have asked Secretary Annan to play a significant role 
in Iraq by trying to mediate a resolution to the political 
standoff with Sistani and others. As you have pointed out, 
Brahimi is meeting today or has met and will be soon reporting.
    Is there in your view any possibility of the Secretary 
General staking out a strong and definitive proposal for a U.N. 
role in Iraq absent his knowledge, foregone knowledge, that you 
have worked out with the Perm Five what we would all be willing 
to do? I kind of see this as putting the cart before the horse. 
We definitely want the U.N. and Kofi and Brahimi to negotiate 
this. I am not speaking about any conversation I have had with 
Annan, but my impression is, speaking with U.N. officials, is 
that they are not at all sure whether they are willing to take 
a strong stand and what to recommend, absent knowing that at 
least the Perm Five in the Security Council are all on the same 
page.
    Am I missing something here?
    Secretary Powell. I have had many conversations with the 
Secretary General and with Mr. Brahimi and the President has 
met with the Secretary General on this subject as well. The 
Secretary General's role right now and Mr. Brahimi's work is 
for the purpose of assessing the situation and coming back with 
advice to the Secretary General and through the Secretary 
General to the rest of us as to what might be possible with 
respect to elections and what might be possible with respect to 
the political process in general.
    I do not think that Ayatollah Sistani has insisted on 
immediate elections.
    Senator Biden. No, he has not.
    Secretary Powell. He said elections, and who can argue 
against elections? But what is possible in the immediate future 
with respect to putting an election together? We are anxious to 
hear what Mr. Brahimi and the Secretary General will have to 
say about that. I would not want to prejudge the outcome of Mr. 
Brahimi's mission. He will be back soon enough and then we can 
make a judgment.
    What I said to the Secretary General in our conversations 
is that: I think you have a vital role to play. You have a role 
to play now before sovereignty is transferred, in helping us 
understand what is possible, what can get all of the Iraqis 
together behind a particular approach. And you have an even 
more important role to play after sovereignty is transferred, 
when I think the U.N. will be required to be there in 
considerable strength, with considerable authority, to help 
write the final constitution and to help organize full 
elections throughout the whole country for a totally 
representative national assembly, and from that national 
assembly to come up with a government, an executive branch that 
will be representative of the people's wishes.
    So I see it in two phases: the current phase, where the 
U.N. is engaging again and will provide us advice based on 
their experience and based on the work of Ambassador Brahimi; 
and when we get to the transfer of sovereignty, then the U.N. 
will have an even more important role to play.
    I think that the current Resolution 1511 is adequate for 
the moment; no need for another U.N. resolution. But once we 
reach that point where sovereignty is transferred, it might be 
quite appropriate at that time to have a U.N. resolution that 
captures the situation at that moment and gives the Secretary 
General whatever additional authority or instructions the 
Secretary General believes he needs to carry out the work with 
the new transitional government of Iraq.
    I think at that point it will not be a difficult task to 
get not only the Perm Five behind such a resolution, but to get 
the whole Security Council behind such a resolution. The last 
three resolutions on Iraq dealing with the situation we are in 
now were all passed unanimously by the Security Council.
    Senator Biden. If I may, Mr. Chairman, just follow this up 
and then I will cede.
    I do not doubt what you just said. My problem with it is 
this: Since all the parties--and you have been talking with the 
parties; I have not talked with all the parties. I talked with 
the Kurdish leadership. I have had a chance to meet with some, 
Shia leadership and not any Sunni leadership, quite frankly.
    What I think is happening is we are in the mean time 
supposed to--they are in the mean time supposed to come up with 
this interim law. Everyone, without knowing what is going to 
follow on to Bremer, is laying down their absolute demands. The 
Kurds think we made a deal on federalism. The Shia are 
insisting on popular elections. The Sunnis have a different 
deal.
    I really think we are making a mistake, for what it is 
worth, not having these discussions with the Perm Five now as 
to what specifically the follow-on entity to Bremer will be, so 
that the parties who are now negotiating, from their 
perspective, the best deal they can get into the initial piece 
of legislation that is going to be the basis upon defining the 
future country, where they will not have to figure they have to 
play their hole card all the way through. I think we are making 
a mistake, just for the record, of not having these 
negotiations privately with our Security Council friends now 
about what that entity will be--in no way undercutting the 
President's position that Bremer stays in charge until 
sovereignty is turned over, in no way embarrassing the 
administration for a change of position or anyone else.
    But it just seems to me that, absent that, you may find the 
three major entities in Iraq so committed to extreme positions 
that we end up in a circumstance not being able to put this 
puzzle together. But that is just one man's view and I will 
come back to that. That is the reason I asked the question.
    The Chairman. Thank you, Senator Biden.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I think Senator Biden's line of 
questioning was good, but I do want to change tacks a little 
bit. I will just say on the whole discussion of weapons of mass 
destruction there are 23 of us in the Senate that did not think 
there was an immediate threat, and I even went so far as to say 
a year ago: I do not think we are going to find any weapons of 
mass destruction. I just did not see the proof. We wanted to 
see real hard cold proof. I never saw that.
    But what I would like to ask is that--at the end of last 
year the Bush administration commissioned a study of the Arab 
Muslim world, the Derijian study, and they traveled extensively 
throughout the world and issued their report: ``Changing Minds 
and Winning the Peace.'' I do not think there is any doubt 
that, with foreign fighters coming into Iraq, that the problem 
extends beyond just Iraq and goes throughout the Muslim world.
    What Mr. Derijian and his people said as they issued the 
report is that: ``Hostility toward America has reached shocking 
levels.'' They also said: ``Large majorities in the Arab Muslim 
world view U.S. policy through the prism of the Arab-Israeli 
conflict.'' Now, you might argue with that, but that is what 
their study said. Whether that is right or wrong, that is what 
their study said, the Bush administration's own study.
    In the President's hour-long State of the Union, he did not 
mention once, not one syllable, of the Arab-Israeli conflict, 
and here today in your statement you did not mention that 
either, although you did run down, of course, Iraq, 
Afghanistan, Korea, Libya, Sudan, Liberia, and other 
countries--not one mention of what is happening between the 
Palestinians and the Israelis.
    You might deduce from the Derijian report that our success 
in Iraq depends on at least some progress, not necessarily 
significant, but some effort, of which I do not think there is 
any visible display of that, not even any effort, not a mention 
in the State of the Union, not a mention here.
    So my question, Mr. Secretary: Can you tell me what we are 
doing, just straight facts? Shoot straight with the committee, 
Mr. Secretary. What are we doing on this conflict?
    Secretary Powell. Well, first of all on the Derijian 
report. We appreciate the work of Ambassador Derijian and his 
team and we are taking the report to heart and doing whatever 
we can to fix our public diplomacy and outreach efforts to deal 
with the problems that he saw.
    With respect to the conflict, we are doing a great deal. We 
are in touch with both of the parties. We are following closely 
Mr. Sharon's proposals of recent weeks about evacuating the 
settlements in Gaza. What we have said to the Israelis: That is 
interesting; we want the settlements closed, but we want to 
know exactly how that is going to be done and where will those 
settlers go and how does it affect settlement activity in the 
West Bank. We have to understand the total picture.
    We have been pressing and I spent a good part of yesterday 
pressing the Palestinian side, through the various Foreign 
Ministers that I spoke to yesterday, to come forward with a 
security plan to start taking action against terrorists in a 
very significant and decisive way. Only when that happens, only 
when Prime Minister Abu Ala can wrest more control away from 
Chairman Arafat, will the security forces that are in the 
Palestinian community, in the Palestinian Authority, and direct 
them against these terrorist organizations, not to start a 
civil war tomorrow morning, but to go after these terrorist 
organizations. Unless that is done, we are going to be 
frustrated in seeing the two sides start to march together down 
the road map.
    The Israelis are now making some unilateral moves. We do 
not want to see a solution that is so unilateral that it does 
not really provide the kind of stability that we are looking 
for. But the Palestinians must move and we made that clear to 
them.
    Two weeks ago, Ambassador Wolf, who is in charge of our 
monitoring group, was sent out to talk to the parties. We will 
have another team going out within the next week or so to 
followup on some of the ideas that Prime Minister Sharon has 
put forward to make sure we understand them and how we can use 
those ideas and hopefully movement on the Palestinian side on 
security to get this process moving.
    We also have been in touch with our European Union 
colleagues. I spoke to the Foreign Minister of Ireland 
yesterday, who is the current President of the European Union. 
He met with the Prime Minister of the Palestinian Authority to 
convey the same kind of message to him.
    So even though it was not highlighted in the State of the 
Union Address and not in my shorthand presentation this 
morning, I can assure you that it is a matter of utmost urgency 
for us, because we fully understand that this conflict between 
the Palestinians and the Israelis is the source of a great deal 
of the anti-American feelings that exist in that part of the 
world and does affect what we are doing in Iraq and that part 
of the world.
    I would do anything to find a magic bullet to solve this 
one. But the problem is the same problem that has been there 
for the 3 years that I have been working this account, and that 
is terrorism, terrorism that still emanates from Hamas, 
Palestinian Islamic Jihad, and other organizations that are not 
interested in peace, not interested in a state for the 
Palestinian people. They are interested in the destruction of 
Israel.
    Until the Palestinian leadership and Authority says no, 
stop, will not happen, we are not going to tolerate it and we 
are going to go after those organizations that feel that way, 
it will be difficult to get the kind of progress we need moving 
down the road map. The road map is still in place, still 
supported by the President. We are ready to act on it.
    The immediate goal that I have is to get Prime Minister 
Sharon to meet with Prime Minister Abu Ala. Contacts are taking 
place and we are working that, and I hope that that meeting 
will happen soon and that may give us a basis to engage more 
fully if the two sides will begin to engage one another.
    Senator Chafee. How would you comment on extraneous 
initiatives that are taking place, the Geneva Accords, that 
seem to be--that seem to exist because of the leadership vacuum 
that many accuse this administration of having?
    Secretary Powell. The Geneva Accord, as it is called, the 
proposal that was put forward, really is consistent with the 
third phase of the road map. It is a way to move through the 
third phase of the road map, and so I was quite pleased to 
receive the authors of that in my office and talk to them about 
it. But it is not an alternative to the road map.
    There was a bit of a controversy when I decided to receive 
those individuals and the other individuals who put forward 
another idea. But we are open to all ideas. No reason we should 
not listen to the various ideas out there to see how they might 
complement the road map.
    Senator Chafee. Do you think that in the end we are going 
to end up where Geneva suggests we end up?
    Secretary Powell. There are many approaches to getting to a 
final solution. There are many ideas out there as to what one 
does with Jerusalem, many ideas with respect to what a 
Palestinian state might look like living side by side in peace 
with Israel. So the Geneva authors had one idea. There are many 
other ideas out there.
    But what we have to do is get started down phase one of the 
road map, and that begins with ending terror. Once you end 
terror and once you get the parties moving forward, then there 
are all sorts of ideas for phase twos and phase threes, phase 
two and phase three, to bring into being a Palestinian state 
with interim features associated with it and then ultimately to 
get to a final Palestinian state living in peace side by side 
with Israel.
    My focus is on getting this started, and if we can get into 
phase three there are lots of ways to look at phase three 
solutions. But we have got to get started with phase one.
    Senator Chafee. Thank you, Mr. Secretary. I will just say 
that I could not agree with you more and condemn and deplore 
the suicide attacks. However, you might argue that ever since 
Cain killed Abel there are going to be criminals and to suggest 
that until these suicide attacks are ceased we cannot engage 
ourselves I just think is unrealistic. There are always going 
to be criminals, unfortunately.
    Secretary Powell. I agree, there will always be somebody, 
no matter what the Palestinian side does, there will always be 
somebody who will want to come forward and try to blow it all 
up with a suicide attack. But what we are not yet seeing is 
determined effort on the part of the Palestinian Authority, 
with the security forces available to them, to go after these 
perpetrators in a systemic, definitive way.
    I put the blame squarely on Chairman Arafat for his 
unwillingness to speak out, use the moral authority as a leader 
that everybody says he has, not just to occasionally give a 
statement condemning this, not only to condemn this kind of 
activity, but take action against those organizations that he 
knows are committing these acts. If he would show that kind of 
effort and that kind of commitment, then we could stand the 
occasional attack that takes place because we know that the 
Palestinians have become a partner in going after the 
perpetrators of these attacks.
    We have not seen that yet and that is what is frustrating 
this effort.
    Senator Chafee. If I could just take one more second, Mr. 
Chairman?
    The Chairman. Just one more.
    Senator Chafee. Thank you, Mr. Chairman.
    From the other side, they would certainly say: How about 
the route, not the existence of the barrier, the route of the 
barrier, the holding of prisoners without charges, and of 
course the existence of the settlements? Those are the big 
issues----
    Secretary Powell. They are the big issues.
    Senator Chafee [continuing]. That they would say we are not 
addressing.
    Secretary Powell. Those are issues that have to be dealt 
with. Settlements, detentions, the fence, all of these are 
problems. We know how to talk about and deal with these 
problems with the Israeli side and we know the frustration it 
causes for the Palestinian people. But we cannot allow these 
problems to serve as an excuse for suicide attacks or the use 
of terror to try to find a solution.
    Senator Chafee. I agree with that.
    The Chairman. Thank you very much, Senator Chafee.
    A rollcall vote is proceeding on the Senate floor. Senator 
Feingold has been patient and if it is your preference, 
Senator, we will proceed with your questioning. Members may 
feel free to go to the floor while Senator Feingold is 
questioning. We will try to return to hear his questions.
    But the committee will recess at the end of your period if 
we are not back. I hope the members will come back because we 
still have the Law of the Sea ahead of us in addition to 
Secretary Powell.
    Please proceed, Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I thank you very 
much, Mr. Chairman, Secretary Powell.
    Let me first commend the administration and the Government 
of Great Britain for the careful diplomatic efforts that have 
resulted in a significantly less threatening Libya than we have 
known in recent times. The Libyan Government's abandonment of 
weapons of mass destruction programs and their willingness to 
submit to verification are obviously tremendously positive 
developments.
    But as we reconsider the nature of our relationship with 
Libya, I am concerned that we not overlook Libya and its 
history of destabilizing activities, particularly in sub-
Saharan Africa. Do you believe that the era in which these 
activities were the norm has come to an end and what evidence 
supports such a conclusion?
    Secretary Powell. It has not yet come to an end. Libya over 
the years has shifted its attention and focus to different 
parts of Africa. When it sort of fails in one part of Africa, 
it sort of pops up somewhere else fomenting difficulty.
    As part of our political approach to Libya, we have made 
sure that one of the agenda items to be discussed is their 
activities in Africa, which must cease to be destabilizing, 
cease to fund despotic regimes, and cease to cause trouble. We 
have had a real breakthrough with Libya over this weapons of 
mass destruction issue, but we are not unmindful of the nature 
of that regime still and we are not unmindful of some of the 
unhelpful activities they have participated in over the years, 
to include unhelpful activities in all parts of Africa.
    Senator Feingold. I appreciate that answer, especially 
since I have watched some of this with regard to Zimbabwe and 
Sierra Leone and Liberia and the like.
    Secretary Powell. Yes.
    Senator Feingold. Mr. Secretary, we have all been told to 
prepare for another supplemental request relating to Iraq some 
time after the election. I have made my views very clear on the 
wisdom of financing foreseeable expenses through off-the-books 
emergency supplementals that treat these needs as if they come 
as some sort of surprise.
    But I want to ask you if we should also anticipate a 
supplemental request for Sudan if the administration's laudable 
peace initiative comes to fruition. I see that this budget 
request includes significant increases for Sudan, but I wonder 
if this will be sufficient if a peace agreement is achieved. 
What about the potential peacekeeping effort in Sudan that we 
have heard about? How will that be paid for? I certainly hope 
that the answer is not that other existing African accounts 
will be squeezed to find those resources.
    Secretary Powell. I hope I am faced with the problem of 
finding money for peacekeeping activities in the Sudan and in 
Cote d'Ivoire and other places all at the same time, because we 
need peace in those regions of the world. But there was just so 
much we were able to budget for with the knowledge that we have 
now about the demands that are going to be placed on us. 
Liberia, $200 million in the last supplemental, $245 million 
for U.N. peacekeeping activities.
    If Sudan goes the way I hope it goes and we do find a 
comprehensive peace agreement before us, this might require 8 
to 10,000 United Nations monitors, and not all of that is 
programmed for and we would have to consider how to generate 
additional resources for it. I do not know when we would need 
those resources. But I would not want to find those resources 
in other parts of my African accounts, because they all are 
needed. We need more overall.
    Whether this will result in an 2005 supplemental, there are 
no plans right now for a second supplemental for 2004 or how it 
will be dealt with, I cannot answer at the moment. I do not 
have the requirement at the moment, either.
    Senator Feingold. Thank you, Mr. Secretary. I will ask one 
more before we recess.
    What can you tell me about the administration's plans to 
engage the people of Somalia in the year ahead? I see that the 
child survival request includes nothing for Somalia this year 
and the development assistance request represents roughly a 65 
percent decrease from the requested fiscal year 2003 level.
    I do of course applaud the administration's East African 
counterterrorism initiative, but that initiative recognizes 
that there are real threats in Somalia, and we know that some 
of the most troubling actors on the international scene are the 
only ones involved in providing basic services to some people 
in parts of Somalia, such that parents can send children to an 
extremist school or to no school at all.
    Should not our strategy include a Somalia component, rather 
than just focusing on states around Somalia?
    Secretary Powell. Senator, I would have to go into the 
accounts to see what the change has been over time. I do not 
have that immediately at hand.
    Somalia has been a political basket case for many years. We 
have seen a little progress recently and hopefully we are now 
starting to put in place a government that we can work with and 
an ability to deliver assistance in a comprehensive way, with 
certain knowledge that it will be used properly. But I would 
prefer to give you an answer for the record as to what the 
trend has been.
    [The following response was subsequently received:]

                                  U.S. Department of State,
                                     Washington, DC, March 1, 2004.

The Honorable Russell Feingold,
United States Senate.

    Dear Senator Feingold:

    I am writing in response to your question to Secretary Powell on 
February 12, 2004 regarding funding levels and political engagement in 
Somalia.
    United States policy objectives in Somalia are reducing the threat 
of Somalia-based terrorism and establishing stable, representative 
governance acceptable to the Somali people. United States assistance to 
Somalia, including Somaliland, has largely consisted of humanitarian 
aid, including food. In 2003, the United States provided: approximately 
$4 million in child survival and health (CSH), development assistance 
(DA) and demining funding; $1.25 million in Economic Support Funds 
(ESF) for education and democracy and governance programs; and $19.2 
million in P.L.-480, Title II food aid. FY 2004 estimates include about 
$1 million in CSH and DA and $10 million in P.L.-480 Title II 
assistance. The FY 2005 request includes about $1 million in DA, and no 
funding for CSH or demining funding. P.L.-480 Title II emergency food 
aid is not planned or budgeted by country in advance of the current 
Fiscal Year. Food for Peace (FFP) figures are based upon the assessment 
of the severity of food insecurity and the corresponding levels of 
need, and as a result, P.L.-480 Title II assistance for Somalia is 
expected to continue at present levels.
    Our capacity to engage Somalia has been limited since 1991 as a 
result of the lack of stability and accepted governance institutions in 
Somalia, including Somaliland. To advance the goal of increased 
stability and governance in Somalia, the United States provided 
$250,000 in financial support to the Somalia reconciliation conference 
that began in Kenya in October 2002. The conference involves Somali 
entities in southern Somalia, but not Somaliland in the northwest, 
which has chosen not to participate in the reconciliation process.
    Although the reconciliation conference has often been delayed by 
factional feuds, semi-breakdowns and administrative problems, 
participants in the conference recently reached an agreement regarding 
the structure of a future central Somali government. We continue to 
support the Somali reconciliation process and encourage participants to 
continue their efforts towards resolving their remaining differences.
    The Department of State continues to evaluate appropriate means for 
further engagement with Somalia, including Somaliland, recognizing that 
our ability to engage is limited by security concerns and the absence 
of internationally accepted governance. The Department of State 
believes that funding levels for FY 2004 and requested amounts for FY 
2005 are adequate to support country programs at the present engagement 
level, which we are carrying out through non-governmental organizations 
throughout the country. At current levels, assistance programs for 
Somalia are alleviating suffering and promoting stability while helping 
Somalis develop a more self-sufficient population as they address 
peace, transition and development problems.
    We hope to continue working closely with Somali participants, 
regional actors and our international partners to resolve remaining 
issues and towards a peaceful solution to the Somali conflict.
    Please do not hesitate to contact us if we can be of further 
assistance.

            Sincerely,
                                             Paul V. Kelly,
                          Assistant Secretary, Legislative Affairs.

    Senator Feingold. Mr. Secretary, I look forward to 
following up with you on that.
    The committee will stand in recess.
    [Recess.]
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to thank Chairman Lugar and Senator Biden for their 
continuing active and energized leadership on this committee. And of 
course I want to thank Secretary Powell for being here today. It is 
always a pleasure to have the Secretary before the committee. My 
constituents and I have great respect and admiration for his long 
record of service to this country.
    I hold listening sessions in each of Wisconsin's 72 counties every 
year. These meetings give me an opportunity to hear from my 
constituents about what is on their minds, about their priorities and 
their ideas. More than ever before, I am hearing from my constituents 
about international affairs. The people of Wisconsin are concerned 
about our national security, as am I. They are committed, as am I, to 
our first national security priority, the fight against terrorism. They 
are concerned, as am I, about the situation in which we find ourselves 
in Iraq. And the people of Wisconsin are concerned about what some have 
called our soft power--our nation's stature and our power to persuade 
and inspire--which is a source of tremendous pride for many Americans. 
It is a part of our identity. And when they believe that this element 
of our national power is diminished, my constituents are dismayed, as 
am I.
    And so in the year ahead, we must remain clearly focused on 
combating the forces that attacked this country on September 11, 2001. 
This means nurturing relationships around the world to ensure that 
critical intelligence-sharing and coordination are sustained and 
strengthened. It means cutting off terrorists' access to financing and 
helping to bring order to weak and chaotic states where international 
criminals thrive. And it means resisting the temptation to conflate 
this issue with others for the sake of political convenience. And we 
must resist deluding ourselves into believing that even the best 
possible outcome in Iraq will somehow magically transform the Middle 
East or the entire Muslim world.
    At the same time, I believe that we must ensure that our country is 
not associated--mistakenly, but unfortunately widely--with intolerance 
or bullying or hypocrisy around the world. We must continue to support 
those working to enhance respect for human rights and the rule of law, 
we must empower those working to combat corruption, we must assist 
those responsibly working to address the crushing poverty and 
devastating health crises that cloud the future of far too many around 
the world.
    I look forward to hearing more from the Secretary today, and to 
working with my colleagues and the administration on these issues in 
the year ahead.

    The Chairman. The meeting is called to order again and the 
Chair recognizes Senator Voinovich for his questions of 
Secretary Powell.
    Senator Voinovich. Thank you, Mr. Chairman.
    Mr. Secretary, I want to say thank you very much for your 
service to our country. I am very happy that you are continuing 
to, with all the other things on your plate, pay attention to 
the management of the State Department. From what I am getting 
back from the people in the Department, you are doing an 
outstanding job. They have never been happier because you have 
been paying attention to your internal customers so they can 
take care of their external customers.
    Now, the issue of Iraq. I would hope that as often as 
possible you can get on national media and explain what we are 
doing over there. I really think that we are not underscoring 
enough to the American people the importance of democratizing 
Iraq and the greater Middle East to the national security of 
the United States and peace in the world. I like to put it that 
we want those millions of Muslims chanting ``freedom and 
democracy'' and not ``jihad'' against the United States and 
against the world.
    That being said, as you know, I am very interested in 
southeast Europe. I am interested in terror, and in organized 
crime and corruption, which I think in that part of the world 
is a greater threat than terrorism, and last but not least, I 
am spending a lot of time on trying to do what we can to give a 
higher profile to the issue of anti-Semitism that is growing in 
the world today, which is of grave concern to me and I know to 
you.
    In terms of southeast Europe, we put a lot of money there. 
It is very fragile yet. We still do not know, for example, if 
we are going to have a government in Serbia-Montenegro. Things 
are a little bit unstable in Macedonia. And Kosovo--and this is 
kind of important because UNMIK, a U.N. operation, has been 
there for 5 years and from the information that I have gotten 
back from the OSCE and from the U.N. High Commission on Human 
Rights, the resolution has not been implemented.
    I met with Michael Steiner, 2 years ago and said: You set 
these benchmark goals, but how are you going to implement those 
goals? It is 2 years later and now they are starting to put 
some specificity to them. I would really like to know what the 
State Department is doing to see if we cannot get some action 
there, because I think if we do not get on it we could have a 
destabilized southeast Europe, with Kosovo perhaps being the 
match that will ignite it.
    Also, the USAID over there has been cut back some $211 
million in the SEED account since FY 2002 and I think we still 
need to put some more money into that area if we expect to be 
successful.
    Could you respond?
    Secretary Powell. Thank you very much, Senator Voinovich. 
We follow events in southeast Europe very closely. I met with 
Prime Minister Rexhepi of Kosovo recently and discussed with 
him the importance of sticking to the plan that has been put 
forward on meeting the standards by early 2005 before trying to 
go any faster than the traffic will bear.
    I will have to look at the specific dollar amounts that 
have been allocated to USAID. It is always a matter, as you 
know, Senator, of trying to balance across a large number of 
countries with finite resources.
    With respect to anti-Semitism----
    Senator Voinovich. Pardon me. It is not $21 million. It is 
$211 million.
    Secretary Powell. I am sorry. It is a difference.
    And with respect to anti-Semitism, it is an issue that I 
have discussed with my European Union colleagues quite a bit. 
As you know, we have been participating actively in the anti-
Semitism conferences that the OSCE has been sponsoring. Mayor 
Rudy Giuliani represented us last year and we are putting 
together another strong, high-power delegation to represent our 
interests at the conference this coming spring, the end of 
March.
    We pledged, with respect to our efforts in Kosovo and other 
parts of the Balkans, that we would go in together and out 
together with our allies. That remains our policy. When we took 
office we had some 10,000 U.S. troops in the region. We are now 
moving down to about 3,300. In Kosovo the success is that Serb 
forces no longer threaten the ethnic populace, institutions of 
limited self-government are functioning.
    More work remains to be done. We and our allies, as you 
know, together with the U.N. have launched a process to help 
Kosovo achieve the eight international standards in democratic 
governance and inter-ethnic reconciliation that are needed to 
benefit the people, and hopefully they will do that----
    Senator Voinovich. Mr. Secretary, I would like to say that 
the benchmark standards were set 2 years ago and since that 
time we are now talking about having groups that are going to 
look at how do you specifically achieve those eight goals. I 
know you told Rexhepi, the Prime Minister, that our policy now 
is standards and not status.
    Secretary Powell. Right.
    Senator Voinovich. But there is no way, no way, when you 
look at the report from the U.N. High Commission on Refugees, 
that they are going to ever have a chance of being at a place 
where you look at granting status next July, because they are 
so far behind in terms of achieving the goals that have been 
set.
    I am really concerned that it is not getting the attention 
it needs. I tried to get somebody from the U.S. to head up that 
operation because I figured that was the only way that we could 
maybe get something happening there. But it is not getting 
done. Every time it gets to a point where there is a little 
tension, we back off from them.
    I think that some of them feel that it is inevitable and 
they are going to do what they can. I mean, there are less 
people coming back into the country than are leaving. There is 
an attempt to just cleanse the whole place from anybody else 
but the Kosovar. They continue to destroy churches and 
monasteries. People have no freedom of movement.
    It is very, very bad, and I think somebody in your shop 
should really get on that and really ride it, get in the saddle 
and ride it hard, or it may just get out from under us.
    Secretary Powell. Thank you, Senator. I think we have been 
following it and riding it hard. But let me go back and review 
the whole policy. We believe that the way we have come together 
on the standards before status solution was the way to move 
forward. But in light of what you have just said, I need to 
review that again to see whether or not we are right or wrong 
on this and whether or not there is not time enough to achieve 
the standards by next year.
    You say there is not and they will not be achieved, and if 
that is the case then we have to be looking at other 
alternatives. So I need the time to go review that.
    Senator Voinovich. I really would appreciate your doing 
that. So often, it is the revolving door. For example, the KFOR 
over there, every 6 months they change command. It is like 
dotting the i's and crossing the t's and just staying with it 
and staying with it to get something done, and I do not think 
we have made that kind of commitment there.
    I would like to get a response from you about what it is 
that you see and maybe how you can improve the situation.
    I would be interested also in the issue of USAID in terms 
of the money that is being spent there and why has it been 
reallocated to someplace else when I think we continue to need 
the money in that area.
    Secretary Powell. The data my staff has just given me says 
that in FY 2005 it is $72 million and in FY 2004 it was $72.5 
million. But let me get the exact figures and provide them to 
you for the record, Senator.
    [The following response was subsequently received:]

                                  U.S. Department of State,
                                     Washington, DC, March 3, 2004.

The Honorable George V. Voinovich,
United States Senate.

    Dear Senator Voinovich:

    During Secretary Powell's February 12 testimony before the Senate 
Foreign Relations Committee, you raised concerns about assistance 
funding levels for Southeast Europe, particularly Kosovo.
    The United States provides assistance to Southeast Europe primarily 
under the Support for East European Democracy (SEED) Act. For Kosovo, 
our assistance focuses on democratization, rights for and integration 
of minorities, and market economic reforms and law enforcement 
assistance to help establish a secure environment--all of which are 
embodied in the ``Standards for Kosovo'' document that the United 
Nations Security Council endorsed last December.
    Overall SEED assistance totaled $621 million in FY 2002 and, as you 
noted, our FY 2005 budget request is $410 million, a decline of $211 
million. As you also noted during the hearing, the FY 2005 request for 
Kosovo is $72 million, compared to nearly $79 million in the current 
year. As the region has progressed in building stability and advanced 
in Euro-Atlantic integration, we have been able to reduce our 
appropriation requests accordingly. In Kosovo, the decline is primarily 
due to the reduction in the numbers of police that we provide to the 
UNMIK International Police force. As UNMIK gradually transfers more 
police responsibilities to the local Kosovo Police Service (KPS), we 
have been asked to contribute fewer U.S. police officers. The 
proportion and levels of development assistance, implemented by USAID, 
have remained relatively stable.
    Thank you for your support for the Administration's commitment to 
peace and stability in Kosovo and the wider region. U.S. assistance and 
leadership are key to establishing and maintaining security, promoting 
inter-ethnic dialogue, addressing humanitarian needs and strengthening 
democratic forces both in Kosovo and the wider region. Please let us 
know if we may be of further assistance in any way.

            Sincerely,
                                             Paul V. Kelly,
                          Assistant Secretary, Legislative Affairs.

    Senator Voinovich. The last thing is in terms of the anti-
Semitism. I applaud what you have done. I applaud what Marc 
Grossman has done. But we are going to have this meeting in 
Berlin this year and I would hope that we get into some 
specificity of what the OSCE is going to be doing, that we are 
going to really monitor what those countries are doing, and 
that we hold their feet to the fire, so that this issue just is 
not talked about and that we get some action, because I am 
afraid that if we do not stay on top of this it is going to get 
away from us, and God help us if that happens.
    Secretary Powell. We will stay on top of it, Senator. It is 
a major issue, and I am pleased that more and more of my 
European colleagues, rather than just saying it is not a 
problem, realize it is a problem and do participate rather 
fully and extensively in the OSCE process of conferences. But 
the conference in and of itself is not enough; it has to have 
an action plan coming out of the conference.
    Senator Voinovich. Thank you very much.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Boxer.
    Senator Boxer. Thank you.
    Mr. Secretary, welcome. It is good to see you back so 
strongly and your same feisty self. I am happy to see that.
    I want to say that I also thank you for conveying the 
spirit to your employees that public service matters and that 
it is an honor really to serve in public life, whether you are 
appointed in the Cabinet or working as a Federal employee 
making lives better for our people or being elected as we are. 
What a great honor it is for all of us.
    But I want to say that our credibility is so important in 
public service, because when we lose our credibility we really 
take a hit. So I do worry about our credibility in a number of 
areas, and I am going to run through that with you.
    Mr. Secretary, we all make mistakes. We are all human. Not 
to make mistakes is not to be human. So this has nothing to do 
with the fact that we have made mistakes, and I have made 
mistakes and you have and we all will. But the question is how 
do we respond when those mistakes are learned. That is what I 
really want to talk about.
    In your testimony you say the top priority is winning the 
war against terrorism. I am glad because I think that should 
have been the top priority for a long time since 9-11. Some of 
us believe, and others disagree, that we got a bit diverted 
from that. But one of the things that worries me about our 
credibility is that--the first thing you said after in your 
oral testimony was the top priority is the war on terror, that 
is why winning in Iraq is so important, it is about the war on 
terror, and the President says that Iraq is the heart and soul 
of the war on terror.
    But here is the point. There is no question in my mind--and 
I have been briefed privately as part of this committee and 
also there is no secret here--that terrorists are moving into 
Iraq. What is wrong with, I think, some of the statements I 
believe that you have made even here today is that the 
impression is that the terrorists were already in Iraq before 
we went in.
    I want to say for the record, I want to put in--I ask 
unanimous consent--a page from a publication that is actually 
signed by George Bush right after 9-11, a month after, a list 
of the countries where al-Qaeda operated. This is, mind you, 
right after 9-11, and it lists 45 countries and Iraq is not in 
here.
    [The information referred to follows:]

    Albania, Algeria, Afghanistan, Azerbaijan, Australia, Austria, 
Bahrain, Bangladesh, Belgium, Bosnia, Egypt, Eritrea, France, Germany, 
India, Iran, Ireland, Italy, Jordan, Kenya, Kosovo, Lebanon, Libya, 
Malaysia, Mauritania, Netherlands, Pakistan, Philippines, Qatar, 
Russia, Saudi Arabia, Somalia, South Africa, Sudan, Switzerland, 
Tajikistan, Tanzania, Tunisia, Turkey, Uganda, United Arab Emirates, 
United Kingdom, United States, Uzbekistan, and Yemen.

    Senator Boxer. So we all know now that it is the Baathists 
who want back in power, it is the fundamentalists who want in 
power, and it is the terrorists who have moved in to fill a 
void. I just would hope that, instead of trying to rewrite 
history, we remember what history was in the words of our own 
President in this document, and in clear language al-Qaeda was 
not there.
    Now they are moving into a void. We got rid of a heinous 
terrorist, which we are all happy he is gone or at least he is 
not in power, glad. And we now have what the terrorists hope to 
be a haven and because of the bravery of so many people is 
turning into a fight.
    But I think it is just important not to be loose with the 
facts. I think it hurts us worldwide, if you read some of the 
comments being made about us worldwide from our friends who 
love us just saying that they do not know what they can trust 
and who they can believe.
    For me, as someone who believed there were WMD there, which 
is why I voted for the Levin resolution to keep up the 
inspections, I never believed it was an imminent threat, I 
believed it was a long-term threat. I got the same briefings as 
everyone else. Some of us felt it was a long-term threat and we 
voted to continue inspections and keep our eye on Saddam and 
hopefully grab him and bring him before a tribunal for war 
crimes.
    But the point is, that is past history. I think now what we 
hopefully have learned is that, since he was not an imminent 
threat, we would have had more time to build a coalition. At 
this point my understanding is we have picked up more than 90 
percent of the costs of the war itself. That is a huge burden 
on our people, and the deaths keep on flowing. So I think being 
very cautious with the facts are important.
    I want to ask you a question. When you were here the last 
time you and I got into a give and take, as we normally do, and 
I asked you at that time--it was right after Iraq--if you felt 
we were going to find the WMD and you said absolutely we were 
going to find them. To give you your words back, you said on 
this date, and the date was April 29, 2003: ``Thank you very 
much, Senator Boxer. Thank you. On the first question of WMD, 
they will be found. The presentation I made before the U.N. on 
the 5th of February was at the end of 4 straight days of living 
with the entire intelligence community, in going over every 
single thing we knew. Every day, every night leading up to the 
5th of February, I was closeted with our very best experts, and 
what I presented on that day was information that was all-
sourced and that had other backup to it and not just what you 
saw in the presentation. Everything we had there had backup and 
double sourcing and triple sourcing.''
    Well, I want to know today if you could please tell us--you 
said you had three sources, your original source, your double, 
and your triple--who were these sources that were giving you 
this information which turned out to be incorrect?
    Secretary Powell. It is not entirely clear that it is all 
incorrect.
    Senator Boxer. Well, OK. Who were the sources that gave you 
the information?
    Secretary Powell. The sources were the sources of the 
Central Intelligence Agency and I cannot name all of their 
sources, nor would I in an open session, Senator.
    Senator Boxer. No, CIA is enough. That is one source.
    Secretary Powell. That is the source. I mean, it is the 
Director of Central Intelligence who has the responsibility----
    Senator Boxer. So what did you mean by ``double sourcing'' 
and ``triple sourcing''?
    Secretary Powell. I meant--well, let me give you one 
example, without blowing anything. On one of the items I 
presented to the U.N. on that day there were four different 
sources, human and non-human sources, that verified that 
particular item. And every item that I spoke of had one, two, 
three, or more sources saying that was the case.
    Senator Boxer. Now I understand. Now I understand. I am 
sorry. What you said double source and triple source, when I 
looked at it I thought maybe there were others outside of our 
own CIA. So it was double and triple sourced within the Agency 
itself?
    Secretary Powell. No. Double, triple sources from outside 
the agency that the agency relied upon to make the judgment.
    Senator Boxer. Right, but all done through the CIA, rubric 
of the CIA?
    Secretary Powell. Not just the CIA. Through all the 
intelligence agencies of government that play in this--CIA, my 
own INR Bureau----
    Senator Boxer. I understand.
    Secretary Powell [continuing]. DIA and all the others. And 
there is not always total agreement, and when there were 
differences of opinion we thrashed out those differences of 
opinion. And the Director of Central Intelligence, who is also 
the Director of the CIA, has to make a call as to what the 
preponderance of the evidence is.
    Senator Boxer. Thank you. I am interrupting only because of 
time and now you answered my question, that the sources came in 
through the door.
    Well, the New York Times recently quoted an Asian Foreign 
Minister, a friend of ours, as saying, quote: ``The whole world 
was operating on the theory that Iraq had these weapons. One 
would not want to conclude that the U.S. was wrong in every 
respect, but clearly the U.S. now has to face the fact that as 
long as its actions are unilateral it will have a credibility 
problem around the world.'' And this is a friend, and this is a 
gentle criticism in my opinion.
    But I think it is really important when we talk now, 
because now we know, at least--I guess you are not agreeing 
with this, but most of us believe there will not be anything 
like the amounts of weapons that you predicted. Maybe they will 
find something, but not anything like, and I will not go 
through, that is in the record, what you predicted in front of 
the United Nations.
    So I think we have to be careful then not to talk about al-
Qaeda as if they were there before the war, because your own 
words said they were not.
    I also was very interested on the trade promotion authority 
and I am a little troubled by this and I want to talk to you 
about it: ``President Bush recognizes that the fastest, surest 
way to move from poverty to prosperity is through expanded and 
freer trade.'' Now, I am assuming he means for other nations, 
because it is not working here. ``America and the world benefit 
from free trade. For this reason, one of the first actions upon 
taking office in 2001 was to seek trade promotion authority 
allowing the President to negotiate market opening agreements 
with other countries. The President aims to continue vigorously 
the pursuit of his free trade agenda in order to lift 
developing countries out of poverty.''
    I just hope you will take a message back and I just give it 
to you, that a free trade agenda without a fair trade agenda, 
without an agenda that talks about wage and labor standards, 
environmental standards, is working to push our wages down 
here, and it is hurting our people. So I hope while we pursue 
our foreign policy we will not forget what we do impacts our 
own people.
    I think that the wording in your testimony here is very 
strong and is not particularly mindful of the fact that even 
today we had an increase in jobless claims. We have seen more 
jobs lost in the last 3 years than we have seen under any 
Presidency since Herbert Hoover. When I read this blatant free 
trade talk here, although I believe and I voted for half the 
trade agreements in front of me and voted against the other 
half, I think we need to be mindful of what we are doing for 
foreign policy reasons, how it impacts on working people in our 
own country, and I hope you could take that message back just 
from one Senator. I only speak for myself.
    I thank you.
    Secretary Powell. Thank you, Senator.
    The Chairman. Thank you very much, Senator Boxer.
    Following precedent, I would recognize now Senator 
Sarbanes. I note Senator Nelson has been here for a while, but 
this is a judgment call. I recognize Senator Sarbanes.
    Senator Sarbanes. I will yield to Senator Nelson.
    The Chairman. Senator Nelson.
    Senator Nelson. For a senior Senator to yield to a junior 
Senator, I am honored. I am forever in your debt.
    Senator Biden. I am surprised.
    Senator Sarbanes. I may bring it to your attention on some 
future occasion.
    Senator Nelson. I am sure you will.
    Mr. Secretary, I would reflect the comments that Senator 
Biden had said. I personally think that you and your Deputy are 
two of the finest appointments in this administration.
    The world is full of problems and there is a problem only a 
few hundred miles from my State of Florida. Haiti is spiraling 
out of control. When I met with Assistant Secretary Noriega I 
got the distinct impression that the policy of this government 
is regime change, but in the mean time there could be enormous 
devastation of property and of life, of which the consequences 
to us could be people getting on these rickety boats, having an 
enormous economic impact on my State of Florida, not even to 
speak of the immigration headache for the United States.
    In responding to my concern the Assistant Secretary 
indicated, well, we are going to work with the Bahamas and 
Jamaica to stop the exodus. You can see I am troubled. Can you 
bring some clarity on the policy of the administration?
    Secretary Powell. The policy of the administration is not 
regime change. President Aristide is the elected President of 
Haiti. I have more than a passing interest in this matter since 
I went down there 10 years ago in 1994 with former President 
Carter and your former colleague Senator Sam Nunn and talked 
the generals out of power so that our troops could come in and 
peacefully allow President Aristide to reassume control of the 
office of President.
    I must say I have been disappointed in his efforts over the 
subsequent 10 years in building a functioning, stable 
democracy. But nevertheless he is the President. We have made 
it clear to the opposition, and Assistant Secretary Noriega had 
a long conversation with one of the opposition leaders 
yesterday, that we are standing behind the CARICOM proposal, 
which both sides are now examining and finding ways to move 
forward on, to find a political solution to this current 
crisis, and not a political solution that says President 
Aristide is illegal and he has to go or he has to go, there is 
no political solution.
    He is the President. We are only interested in a democratic 
solution, a constitutional solution, and we will continue to 
work to that end. Tomorrow we will be participating in a 
meeting here in Washington with my Canadian colleague, Foreign 
Minister Bill Graham, and with others who are coming in from 
CARICOM. The President met with CARICOM leaders in Monterey 
last year, with me in attendance, with CARICOM leaders and with 
President Aristide, and we told President Aristide that we had 
to find a democratic political solution to move forward.
    The legislature on that very day had gone out of existence 
because of this impasse. We have been following very carefully 
the disturbances that have been taking place on the island. We 
are concerned about the demonstrations that will be taking 
place today. It is a difficult situation and I have spent a bit 
of time over the last 24 to 48 hours with my staff, as well as 
with intelligence officials, watching what may be going on on 
the north coast, because what we do not want to see is an 
exodus of Haitians heading anywhere. At the moment we do not 
see that.
    We are hoping that the demonstrations will resolve 
themselves in a peaceful way today. I hope that is the case, 
and we hope that the CARICOM proposal will form the basis of a 
political solution moving forward. We will be discussing with 
the Canadians and with the CARICOM nations whether or not they 
are in a position to provide police support to the government 
in order to bring these disturbing situations under control.
    Senator Nelson. Well, I would just offer as a Senator from 
the State with the greatest number of Haitian Americans, who 
are quite concerned about this, from the standpoint of our 
committee being concerned about the violence and the tumult 
that is spiraling out of control, I think it is almost akin to 
the Middle East. Unless the United States actually is a 
convener, a leader in trying to stop the violence and start 
bringing some kind of negotiated resolution, the place is going 
to be chaos.
    That happened to us in the Middle East until you started 
getting more active over there, I might say at your urging, and 
it is going to happen here in Haiti if we keep a hands-off 
policy. So what I would urge is that you get in with all force 
trying to bring about, No. 1, stopping of the violence, and 
then No. 2 a reworking toward peaceful democracy.
    Mr. Chairman, just in closing I would say what I have been 
saying as a broken record. I have spoken directly to Deputy 
Secretary Armitage. I have spoken to every Ambassador in the 
region of Syria about my recent meeting with President Assad. 
The one thing, despite all of the contentiousness of a 
disagreement that we had in the conversation about specifics, 
such as him harboring terrorists and so forth, the one little 
cause of note was after I asked him, why do you not seal the 
border to stop the jihadists going in and killing our American 
men and women in Iraq, and his response was: I cannot control 
the border; you cannot control your borders. Then he talked 
about a long history of smuggling across the border.
    But then he said, and this is what is worth noting, that: 
``I want to talk to the American government about cooperating 
in closing that border.''
    Now, when I reported this to Secretary Rumsfeld originally 
he was dismissive of that idea. Your Ambassadors in the region 
were not dismissive. Whether or not Assad is in fact sincere or 
not, in the judgment of this Senator it is worth exploring if 
it is in any way to help our men and women to be better 
protected by stopping jihadists coming across that Syrian 
border. I offer that to you.
    Secretary Powell. Thank you. I will convey it to both our 
military authorities in the region as well as to our new 
Ambassador who has just arrived.
    Senator Nelson. I have spoken to General Abizaid as well as 
General Jones, who debriefed me immediately after I came back 
from Syria. So they are well aware of this.
    Secretary Powell. It is a very difficult piece of terrain, 
as you know, with thousands of years of experience of 
smuggling, all kinds of things going back and forth.
    On Haiti, just back for a moment, sir, we are not 
indifferent or not engaged. The President met with President 
Aristide and with the CARICOM leaders in Monterey and gave 
encouragement and launched the latest CARICOM effort building 
on the bishops' effort. The Ambassador down there is deeply 
engaged, Roger Noriega is engaged on a daily basis, I have been 
engaged on a daily basis, working with CARICOM leaders and with 
our Canadian colleagues.
    We will see where we are tomorrow, and hopefully we might 
have some additional ideas that we can put into the mix after 
our meeting tomorrow.
    Senator Nelson. Thank you, Mr. Chairman. And thank you, 
Senator Sarbanes.
    [The following letter was submitted for the record by 
Senator Nelson:]

                                      United States Senate,
                                 Washington, DC, February 10, 2004.

President George W. Bush,
The White House,
1600 Pennsylvania Ave., NW,
Washington, DC.

    Dear Mr. President:

    The deteriorating conditions in Hispaniola are of great concern to 
the people of the state of Florida and must be immediately addressed by 
the U.S. government. The worsening violence, subversion of 
constitutional processes and absence of rule of law threaten the 
stability of the Caribbean region, and democracy itself. Urgent and 
sustained attention must be given by the administration.
    Of utmost concern is the situation in Haiti, a country for which 
the United States has no discernible plan because our bilateral 
relations are adrift. Since the disputed parliamentary elections of May 
2000, there has been a political stalemate which has ground the 
government to a halt, and has deprived the Haitian people of critical 
services. I had the privilege to join a Congressional delegation led by 
Sen. Mike DeWine in January 2003, and carry with me the images of the 
suffering population.
    The Organization of American States (OAS), with U.S. facilitation, 
passed Resolutions 822 and 1959 calling for support from the 
international community, ``to maintain its support for the OAS Special 
Mission and provide urgent additional funds,'' for assistance. However, 
the United States has taken only meager steps to assist the people of 
Haiti. I appreciate the efforts of the administration to provide some 
assistance through nongovernment organizations and to advance economic 
ties between Haiti and the international financial institutions. But 
this is simply not enough.
    First, we must stop the killings, gang activity and subversions of 
law in Haiti. The United States should rally the OAS Special Mission 
and OAS member nations to provide resources for a contingent of 
international civilian police to be deployed throughout the country. 
The U.S. should work specifically with France and Canada in an effort 
to stabilize the situation and, over the medium term, reorganize and 
restructure the Haitian National Police. When the Haitian people may 
live and assemble in peace, we may reasonably consider moving ahead 
with the necessary democratic election process, perhaps with the 
assistance of former President Jimmy Carter and the Carter Center. 
President Carter has had a positive impact previously intervening in 
Haiti.
    Long-range planning should include increased U.S. assistance to 
Haiti from USAID, specifically to assist small business and industry 
development, microenterprises, and democracy building efforts. These 
efforts should also include action on S. 489, the Haiti Recovery and 
Opportunity Act, which would create tens of thousands of new jobs in 
Haiti. Your administration has not taken a position on this 
legislation.
    This situation in the Dominican Republic also is of great concern. 
Protests, demonstrations, and general strikes threaten law and order. 
The OAS is well-suited to assist with such problems there, and U.S. 
assistance should be commensurately bolstered for such efforts. Taking 
these steps now is far preferable than reaping the possible 
consequences we may face later, as elections approach in that country 
in May of this year.
    Mr. President, we can, neither ill-afford to fail in our efforts to 
build democracy and the rule of law in our own hemisphere. I applauded, 
and agreed with, your Jan. 12, 2004 statement at the Summit of the 
Americas when you said, ``The essential foundations of prosperity and 
progress remain democracy and the rule of law . . . At past summits, we 
resolved that democracy is the only legitimate form of government in 
this hemisphere, and that the peoples of the Americas have an 
obligation to promote it and defend it. Those governments in our 
hemisphere that have responded by supporting democracy can be proud. 
Our unity and support of democratic institutions, constitutional 
processes and basic liberties gives hope and strength to those 
struggling to preserve their God-given rights, whether in Venezuela, or 
Haiti, or Bolivia.''
    It is now time to act, and I look forward to working with you.

            Sincerely,
                                               Bill Nelson.

    The Chairman. Thank you, Senator Nelson.
    Let me do one housekeeping chore. The Chair wants to 
recognize the request of Senator Boxer that the chart that she 
introduced earlier be made a part of the record. It will be 
made a part of the record as a part of her testimony.
    The Chair wants to acknowledge that Senator Nelson has 
brought to the attention of the committee in our oversight 
capacity that we should be very much interested in the 
questions on Haiti which he has raised. His colleague Senator 
Graham of Florida has also approached the committee. It was not 
possible for us, given the schedule of the committee's 
hearings, to have an immediate hearing on Haiti. So I very much 
appreciate Senator Nelson's raising these issues now. I 
appreciate your responses, and likewise I would hope that as 
you receive further news through the activities of our 
diplomacy, that you would convey that to our committee, because 
all of our members are deeply interested, as you can gather.
    Secretary Powell. I will, Mr. Chairman, and we have been in 
touch with both Senator Nelson and with Senator Graham on this 
matter. I have been through a boat situation in the past, 
Senator, and I can assure you we will do everything we can to 
not put ourselves in that situation again.
    The Chairman. Thank you.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Mr. Secretary, I join my colleagues in welcoming you before 
the committee. Last night I attended a concert at the Peabody 
Institute of the Johns Hopkins University in Baltimore. That is 
of course one of our Nation's leading music conservatories. And 
they had the world premier of a symphony by David Gaines, who 
is a contemporary composer, entitled ``The Lion of Panjshir.'' 
It was in memory of Ahmed Shah Massoud.
    It was a very moving performance, involving narration as 
well as the playing of the music and recounting the life of 
Massoud, who as we know, two terrorists came in disguised as 
journalists and blew themselves and him up. And of course, he 
had a very illustrious record in Afghanistan of both resisting 
the Soviets and then the Taliban.
    I only mention that because it, of course, puts in front of 
us again and brings to mind the situation in Afghanistan. This 
committee actually, I think, and its leadership have 
consistently, and its members, have consistently tried to keep 
a focus on Afghanistan to make sure that we did not lose sight 
of its importance as a priority item. I think it is extremely 
important.
    So I am concerned about these press reports that--well, 
just let me read one from the Knight-Ridder newspaper: ``While 
attention is focused on Iraq, the United States and its 
international partners are struggling to overcome worsening 
violence, voter registration problems, and other difficulties 
that threaten to delay Afghanistan's first election since the 
U.S.-backed overthrow of the Taliban.''
    A hearing actually was held, in which of course NATO--the 
problem is they cannot get security out across the countryside 
in order to do the registration to ensure the validity of the 
elections, which are scheduled to take place I think in less 
than 4 months from now.
    NATO, of course, has authorized an expansion--I am quoting 
from the article--``of its force to the interior areas and is 
racing to accomplish the deployments in time to boost security 
for the June elections. But the alliance has been seriously 
hamstrung by a lack of contributions of troops and equipment, 
failing to obtain even enough helicopters for its operations in 
Kabul. Testifying with Taylor, Marine General James Jones, 
NATO's top commander, conceded that coming up with enough 
troops and equipment for the expanded mission will test NATO's 
ability to stage operations beyond its traditional 
boundaries.''
    Now, some have raised the question about postponing the 
elections or delaying the elections. But apparently President 
Karzai and his allies are pressing still to have the early 
elections. His Finance Minister was quoted as saying: ``We need 
elections in order to have legitimacy and a mandate for changes 
the country needs.''
    How do you see this problem and what can we do, we being 
the United States in this particular instance, to help keep us 
on track and ensure the validity and the integrity of these 
elections? I guess, do we have some helicopters we can give 
General Jones, and all the other questions that flow out of 
these quotes that I have read from this article.
    Secretary Powell. With respect to fleshing out the force, 
principally the NATO force that has gone in, there have been 
deficiencies. My new Dutch colleague was in town last week and 
confirmed that the Dutch would be providing Apache helicopters 
to assist in this effort. The new Secretary General of NATO was 
also in town and said that Afghanistan would be his first 
priority with respect to making sure that NATO can support this 
mission in the manner that it needs to be supported and fill 
any equipment deficiencies that are there and also see if we 
can get more of the Provisional Reconstruction Teams in country 
and out into the field to start to bring the kind of security 
that we need.
    Registration continues. It is our goal, as well as the goal 
of the U.N. and the goal of President Karzai, to have elections 
in June. An open question is whether or not they will be ready 
to have elections both for the President and for legislature or 
they will only be able to handle the Presidential election.
    There is a security problem, particularly in the southeast 
portion of the country. We are working on the United States 
task force there. It is trying to restore security, and we are 
also trying to encourage and get our Pakistani friends on the 
other side of the border to do more, and the Pakistanis have 
started to do more, to try to bring a sense of security that 
will permit the registration to continue and the elections to 
be held in June.
    Senator Sarbanes. This article says the problem is 
especially, on the security question as an obstacle to the 
elections, ``the problem is especially serious in southern and 
eastern regions bordering Pakistan, where the Taliban and their 
al-Qaeda allies are staging a comeback.'' Do you think they are 
staging a comeback? What is your view of that?
    Secretary Powell. I think they are trying to stage a 
comeback. They have been active, and our forces are targeting 
them and going after them and our military commanders are 
confident that it will be an unsuccessful comeback. But it has 
created a higher level of instability in that part of the 
country than in other parts of the country.
    Senator Sarbanes. Well, let me stay with Afghanistan for 
the moment, because I think it is--I am very worried that we 
are sort of shifting our attention away from it. I mean, there 
is virtual unanimity in the country about the necessity to go 
into Afghanistan. I think that was clearly seen as a war of 
necessity. I think it was handled well by the administration 
and certainly in the early stages.
    But I think some of us have a concern that attention has 
shifted away from us and that a situation that appeared to be 
on its way toward resolution is becoming difficult again. I 
think we are very fortunate there to have a leadership, a 
national leadership, selected through the loya jirga, which 
gives a legitimacy, at least for a period, although the 
elections are needed now to cement that, and which is also 
trying to move the nation on a good course in terms of the 
constitution now that they have evolved and so forth and so on.
    Last year we provided just under $1.6 billion U.S. 
assistance to Afghanistan. Well, for the fiscal year 2004. The 
budget request for fiscal 2005 actually drops the figure to 
$1.2 billion. There is a line of thinking that I subscribe to 
that, first of all, this reconstruction is important to 
solidifying stability in the regime; and second, as you obtain 
some stability in the short to medium run you probably need, 
you need more resources rather than less, because then they are 
in a position to move ahead with the reconstruction which 
previously they were being thwarted from doing because of the 
unstable situation.
    So in a way, at least for a time, it seems to me, even if 
we achieve stability, it really calls for more resources and 
not less. Therefore I am very concerned that the budget request 
that has come to us has about a 25 percent drop in the 
resources being committed for this purpose.
    Would you respond to that.
    Secretary Powell. I will verify all of the numbers. We have 
a total of $3.7 billion that we put in and now the $1.2 billion 
that is part of the FY 2005 budget request. It is a question of 
balance, Senator, with all the demands that we have on the 
assets that are made available to the Department for foreign 
operations.
    [The following response was subsequently received:]

                                  U.S. Department of State,
                                     Washington, DC, March 3, 2004.

The Honorable Paul Sarbanes,
United States Senate.

    Dear Senator Sarbanes:

    On behalf of Secretary Powell, I would like to respond to your 
question about the FY 2005 budget request for Afghanistan that was 
raised during the February 12, 2004 congressional hearing.
    In Afghanistan, we are committed to a successful end state, not an 
end date. For this reason, in FY 2004 we are providing approximately 
$2.2 billion in reconstruction assistance to Afghanistan. This includes 
over $400 million in regular foreign operations appropriations, plus 
supplemental funding, DOD drawdown assistance, and other reprogrammings 
totaling almost $1.8 billion. This level of funding responds to the 
need to jump-start reconstruction efforts in Afghanistan, particularly 
in advance of the 2004 elections and in the face of flagging donor 
interest. The enhanced assistance program represents the first step in 
a multi-year plan to accelerate reconstruction efforts, reduce long-
term costs, and consolidate gains made to-date.
    We are confident, therefore, that our FY 2005 funding request for 
roughly $1.2 billion in assistance to Afghanistan--over $600 million 
above the budget request made in FY 2004--will be adequate to sustain 
the momentum that has already been achieved. Our plan is to continue to 
request funding at these levels for the next several years, with the 
goal of helping Afghanistan move more quickly down the road to 
stability, economic recovery, and self-sufficiency.
    The bipartisan support shown by Congress for Afghan Reconstruction 
has been tremendous, and has engendered much goodwill among Afghans who 
see the U.S. commitment to their country as more than just rhetoric. 
Such continued support will ensure that Afghanistan never again plays 
host to the forces of violence, intolerance, and instability.
    I hope that this information has been helpful to you. Please do not 
hesitate to contact us if we can be of further assistance.

            Sincerely,
                                             Paul V. Kelly,
                          Assistant Secretary, Legislative Affairs.

    Secretary Powell. We have done a heck of a lot with the 
money that we have put in there. We finished the road. We have 
gotten a lot of hospitals built and schools built, a lot of 
things under way. So the reconstruction effort is going 
forward.
    The needs of the country are so great, though, that it 
could take two, three, four, five times the amount that the 
international community has provided. But there is just a 
finite amount of money available from the international 
community.
    I think everybody recognizes the need to do more. We are 
not in any way ignoring Afghanistan. The very fact that you 
heard from General Jones and others about the needs, the fact 
that the Secretary General of NATO when he was here last week 
listed that as his No. 1 priority to get done and get done 
well, the fact that NATO is there I think shows that we have 
worked hard to get the international community more involved. 
The fact that we were able to pull off a successful loya jirga 
blessing the constitution is evidence of what we are trying to 
do. We have a plan now to expand out 1,000 miles of additional 
secondary roads off the main road in order to connect the 
country in part of our next year effort.
    So we are fully engaged, but there are limits in the amount 
of financial resources available to us to deal with the needs 
of the Afghan people.
    Senator Sarbanes. Well, I understand that and I think you 
are right to bring to our attention a number of positive 
accomplishments that have happened. But one of the problems, of 
course, is trying to get the other donor countries to come 
through with their pledges, and it seems to me it does not send 
a very good message if the U.S. is allowing its commitment to 
drop by 25 percent from this year to next year. I would hope 
the administration would be willing, working with the Congress, 
to find a way to up that commitment so there is no question 
about how important this priority is to us.
    This is where al-Qaeda had taken over a state, in effect, 
in conjunction with the Taliban and had a safe haven, their 
training camps and everything else. They are not completely out 
of there yet, as we well know, and I think it behooves us to 
keep this first and foremost in our attention.
    It is a matter on which you have developed unity, not only 
within the country but across the world, I think, for this 
effort and I would hope that the U.S. does not send some 
countersignal that impedes what needs to be done in 
Afghanistan.
    Secretary Powell. We also benefited previously from 
supplemental funding in FY 2003 and FY 2004, and as we get into 
FY 2005 it may be something that would compete for supplemental 
funding in FY 2005.
    Senator Sarbanes. I see my time is up. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Sarbanes.
    The chair would observe that we had one round, 8 minutes. 
On average members took about 11 minutes, which was fine 
because additional questions were asked. But let me now just 
suggest maybe a shorter second round, in case members have 
supplemental questions, of 5 minutes each. If the Secretary can 
stay with us during that period we would appreciate it.
    Let me begin by saying that the President in his speech at 
the National Defense University called for the IAEA Special 
Protocol very specifically, and he asked the Congress to pass 
this immediately. He looked in my direction, and I acknowledged 
that I heard him loud and clear. We have discussed this 
privately, but the President hopefully is advised that this 
committee is desperately attempting to fulfill his will. There 
have been--from some source in the administration that will 
remain nameless--questions and objections raised. I ask that 
you inform the President that we are eager. Perhaps he can 
inform the rest of his administration to work with us, because 
we really would like to move on with this rapidly.
    Second, the umbrella agreement or, to state it another way, 
the liability provisions that the United States needs, that 
other countries need in the so-called 10 plus 10 over 10 
program with Russia, has run into snags in the Duma. I know 
that Secretary Abraham and his shop in the Department of Energy 
are working very hard on this.
    Specifically, it has delayed destruction--within the scope 
of a program to destroy 34 tons of plutonium on the part of the 
Russians and 34 tons of plutonium on our part. This is a great 
breakthrough for your diplomacy, to move the Russians on to the 
thought of destruction of plutonium as opposed to infinite 
storage or various other problematic options. These huge stores 
out there are at the heart of the proliferation difficulty.
    Clearly, the world has to see that this is a place that we 
and the Russians ought to be moving. But we are not moving. In 
large part this is because these negotiations have not been 
successful. I do not want to cast judgment about this, but I 
would just say it is so important this not be dead in the 
water, and that we get on with these programs and as swiftly as 
possible.
    Likewise, although we theoretically have the idea of the G-
8 and their billion dollars a year supplementing Nunn-Lugar and 
so forth, in fact this is not moving very swiftly, given the 
lack of liability assurances they have.
    All of this is important, because the public has the 
general impression, and the President certainly gave impetus to 
this yesterday, that a good number of these programs are 
moving. I have an impression they are not. So diligently we 
want to bird dog this.
    Likewise, David Sanger--this is his view in the New York 
Times today--said, and I quote him: ``One of the vaguer 
proposals the President called for boosting is the Nunn-Lugar 
program.'' My colleague Sam Nunn, when asked for a quote by 
another paper, indicated that he saw no new resources. Indeed 
cooperative threat reduction specifically has less money 
requested in the budget than last year.
    One reason given for this is that the Russians have not 
been as forthcoming as perhaps they could be with projects. 
Maybe so, maybe not. In any event, obviously Sam and I are 
interested in this. During his recent speech, the President 
nodded in my direction with that also, and I applauded the 
thought. I appreciate his mention of the program. Nevertheless 
I ask you, just as a part of this hearing, to take this back.
    Finally, let me just say that I appreciate specifically 
your mention of the State Department and its budget. We have 
noted that additional jobs are going to go into the Afghanistan 
and into the Iraq situations, because the State Department will 
be assuming vastly new responsibilities, which you have 
recognized and which hopefully the Congress will recognize as 
well. I just want to highlight that this was not just a 
gratuitous addition, that you have specified the missions that 
have been preoccupying our committee today and trying to find 
able persons who are ready for those tasks. That is why we have 
some urgency, I would hope, in this committee, and in the other 
committees, to deal with the request favorably.
    I thank you again for coming today.
    Secretary Powell. Thank you, Mr. Chairman, and I know that 
this committee is committed to the additional protocol, and I 
thank you for your support of that.
    Nunn-Lugar, a tremendous program and I would like to 
enhance it with additional funds and have the flexibility to 
use it in other countries as well as in Russia. With respect to 
the additional people we have requested, in previous years it 
was to fill out vacancies and to give it a little more 
flexibility. Now I have got to have those people. The mission 
in Iraq is going to be the largest mission we have in the 
world. It is going to be an unaccompanied mission, which means 
we not only have to get the people for it now, we have got to 
get the next tranche of people to go in when the first tranche 
goes out after 6 months or a year. So I share your 
encouragement that Congress act to give me those additional 
personnel resources.
    The Chairman. Thank you for that testimony. I thank the 
President for the speech yesterday. It really was remarkable. I 
had the privilege of having former Secretary Schultz and 
Charlotte Schultz with me. The President was delighted that 
they could likewise imbibe in that experience, which we all 
enjoyed.
    In my own conversations, as Senator Biden has been 
mentioning his, the President is very supportive of these 
programs. My point in raising the situation today is that down 
in the weeds sometimes the President's enthusiasm is not 
followed through. So that is our job in this committee, and 
yours with others, that you can work to make certain that they 
are, and that the general themes are fleshed out.
    Senator Sarbanes. That is not to suggest that you are the 
weeds. The weeds are down below you, I think, as well, Mr. 
Secretary.
    The Chairman. Way down below.
    Senator Biden. I think there is one weed above you, a big 
weed. His name is Cheney.
    I am not nearly the diplomat that my colleague is. I do not 
think--and I mean this without any reservation. The single most 
important nonproliferation tool available to us is here now. It 
is Nunn-Lugar, Nunn-Lugar. It has not been funded fully. When 
it has been funded there have been roadblocks thrown up. My 
friend is being very diplomatic. I agree with him, the 
President's enthusiasm--I have only been at one extensive 
meeting with the Senator and the President on this issue--his 
enthusiasm was real. But the enthusiasm of others in the room 
was not only not real, it was in opposition, in opposition.
    This notion of fungible money is bizarre. You do not agree 
with that notion, but it is a bizarre concept, that if we go 
ahead and, assuming the roadblocks are out of the way, and 
provide moneys to buy U.S. contractors, to send U.S. 
contractors over to Russia to destroy stockpiles of weapons 
which are vulnerable to theft, vulnerable to sale, vulnerable 
to terror now, that somehow if we do that the argument is still 
made with some in the administration, including one person in 
the State Department, not you, that the Russians will not 
therefore spend the money they would have spent to destroy 
these weapons and they will go do something bad.
    It is bizarre, but it is real, it exists. There are people 
in this administration--you are not one, I know that. I do not 
think you can solve this problem, quite frankly. I think the 
only way we can solve this problem is to keep harping on it. In 
my case, I am prepared to, unlike my friend, name names who 
have told me that, no, no, we cannot go forward this way 
because of these particular obstacles.
    But I cannot imagine, I cannot imagine how we do not 
understand that there are facilities throughout just Russia 
that are so unguarded. I mean, everybody talks about Russia. I 
know you know this. I apologize for doing this with you here 
because you are the last person who has to hear this from me. 
But the entire Russian military budget is somewhere around $10 
billion, military budget, the entire budget. And we are talking 
about if we spend $200 million to build a facility near 
Shchuchye to take out a couple--how many are there, 19,000?
    The Chairman. It is 1.9 million.
    Senator Biden. OK, the 1.9 million missiles that are 
chemical-tipped, that somehow those dirty old Russians, man, 
they are going to take $200 million they would have spent and 
do something really bad with it to us. This is mindless. It is 
ideological idiocy.
    You can tell I do not feel strongly about this. But it 
really is frustrating, and I believe, as Dick does, that the 
President supports this. But some of the questions the 
President asks startle me.
    Senator Sarbanes. He supports----
    Senator Biden. He supports Nunn-Lugar. He support Nunn-
Lugar.
    Senator Sarbanes [continuing]. Nunn-Lugar, not the 
ideological idiocy.
    Senator Biden. No, he supports Nunn-Lugar, but he is 
whipsawed by the ideological idiocy, in my view. But at any 
rate, I am getting myself in trouble here. But that is not 
unusual. That is not unusual.
    But I cannot tell you how strongly I feel about this, and I 
do not think we fund this nearly enough. I would rather the 
President have said we are going to make the single priority in 
the next few months on nonproliferation dealing with liability, 
dealing with my own administration, and tripling the amount of 
money for Nunn-Lugar and expanding it, which they have resisted 
to do, expanding it beyond Russia, and that is a priority. We 
will get more done in that than this speech and 20 more like 
it. But at any rate, the speech is a good speech.
    I hope you will continue to weigh in, which leads me to 
this next question. The President wants to stop new countries 
from accessing fissile material. There is a fissile material 
cutoff treaty that would help us do that. Now, for 8 years the 
United States has pursued the objective of the fissile material 
cutoff ban at the Conference on Disarmament. Such a treaty 
would establish a global verification ban on the production of 
highly enriched uranium and weapons grade plutonium. In my view 
it is an essential supplement to the proposals the President 
outlined yesterday.
    It seems to me this is a win-win proposition for the United 
States because we have more than enough fissile material 
ourselves while countries of concern continue to seek it. For 
over 2 years the administration has castigated, rightly, other 
countries for preventing negotiations from starting. Now there 
is a chance of success, however, the administration announced 
that our policy is under review.
    Why is the United States advocating so strongly for a 
fissile material cutoff treaty, including during the initial 
years of this administration, only now to step back that the 
negotiations may finally start? Do you think this makes any 
sense? Is there something that happened that they did not know, 
that you did not know for the first couple years, that you now 
have found out that requires us to step back?
    Secretary Powell. We have supported the fissile material 
cutoff treaty and some questions have been raised about it. A 
review is under way and we will get the review dealt with 
rather promptly, I hope.
    Senator Biden. Tell Mr. Bolton that is a good idea for him 
to go on vacation, because----
    Secretary Powell. I beg your pardon?
    Senator Biden. I know I should not do that. But this is 
Bolton. Bolton is the guy who thinks this is a bad idea, along 
with Mr. Feith and a few others.
    Secretary Powell. Do not worry about Mr. Bolton. He works 
for me and we will work it out with respect to our position.
    Senator Biden. My mother would say: No purgatory for you, 
straight to heaven. God bless you.
    Can you provide us an update on the status of the review, 
Mr. Secretary?
    Secretary Powell. The review is ongoing. Some questions 
have been raised. We have been supportive of the treaty and I 
have to work out with the interagency process what the 
differences of view are and we will be back to you as quickly 
as I can.
    [The following response was subsequently received:]

                                  U.S. Department of State,
                                 Washington, DC, February 27, 2004.

The Honorable Joseph R. Biden, Jr.,
Committee on Foreign Relations,
United States Senate.

    Dear Senator Biden:

    I am writing on behalf of Secretary Powell in response to a 
question that you posed during his testimony before the Senate Foreign 
Relations Committee on February 12. You asked the Secretary about the 
status of the Administration's review of U.S. policy toward a Fissile 
Material Cutoff Treaty.
    Secretary Powell replied at that time that the review is proceeding 
and that some questions had been raised about an FMCT. He also noted 
that we have been supportive of the treaty, and that he has to work out 
through the interagency process what the differences of view are. 
Finally, he promised to be back to you as quickly as possible.
    We cannot at this time predict exactly when the review will be 
completed, or what the conclusions of the interagency review will be. 
We shall, however, communicate the conclusions of the review to the 
Committee at the earliest possible date.
    I hope that you will find this information useful.

            Sincerely,
                                             Paul V. Kelly,
                          Assistant Secretary, Legislative Affairs.

    Senator Biden. I really hope you will, because I hope we 
can move forward with negotiations on the first part of the 
2004 session. I think it would be--see, this is my problem, and 
I will cease with this. Sometimes I feel like I am preaching to 
the choir or talking to the wrong guy. But the President made a 
very good speech and some of the things he suggested, the basic 
premise that he laid down was absolutely accurate in my view. 
But I do not know how you negotiate, which would be required, 
this new regime the President is talking about at the same time 
we are appropriating money for purposes of providing a new 
nuclear weapon, while we are setting out a policy for the first 
time I am aware of--that is not true--setting out, articulating 
a policy that we contemplate the use of nuclear weapons against 
states that are non-nuclear states, and while we have pulled 
back from the Comprehensive Test Ban Treaty.
    I mean, the signals are so counterintuitive that we send to 
the rest of the world, that I think it is going to be very 
difficult to negotiate the regime the President has outlined in 
a very thoughtful speech without some real change in our 
overall policy. I welcome your comment on it. I am not asking 
you to comment on that. I am expressing the degree of my 
frustration here.
    Secretary Powell. A few quick points to capture 
observations made by you and Senator Lugar. Secretary Abraham 
is working hard on the liability issue with the Russians. I 
raised it also when I was in Moscow a few weeks ago.
    Senator Biden. I believe that is true.
    Secretary Powell. With respect to Nunn-Lugar, I speak for 
my Department. We are fully supportive and we have increased 
the amount of money we are requesting in FY 2005 for these 
kinds of disarmament purposes.
    CTBT, we will maintain our test prohibition. There will be 
no testing on our side. CTBT was not approved some years ago. 
We have no plans to resubmit it, however, as you well know.
    With respect to the use of weapons against non-nuclear 
states, whatever contemplation may be given to this, it is my 
own personal judgment that this would not be a sensible policy.
    Senator Biden. Well, I know you think it is not sensible.
    Secretary Powell. And I will argue for that position, and 
our position has not changed.
    So I am a solid supporter of Nunn-Lugar and similar 
efforts. Of course money is fungible, but in this case we have 
ways of making sure that this fungible money is serving our 
interests, not serving the interests of the Russians alone, it 
is serving interests of ours and serving the interests of world 
peace and stability by getting rid of these kinds of weapons.
    Senator Biden. I agree, but that is not the argument. I 
mean, when I sat with the President to discuss this there were 
those--again I will not say who--who were making the argument 
about fungibility. There are Senators right here in this body 
who continue to make that argument, that this is fungible 
money, therefore we should not be doing this. And there are 
those--I believe the chairman has raised the possibility of 
amending Nunn-Lugar to take out the language that was put in 
there by Senator Helms that requires the President to--gives 
the President a waiver, which other Presidents have exercised 
in the past, relating to whether or not there can be a 
certification as to the absolute verifiability that every 
agreement we have with the Russians is being kept to the letter 
of the law.
    As my mother might say in other circumstances, we should 
not bite our nose off to spite our face. How it could be not in 
our interest to get rid of almost 2 million chemical-tipped 
weapons is beyond my comprehension.
    By the way, the reach, search and development money I was 
referring to is for low-yield nuclear weapons, bunkerbuster 
weapons. My only regret is that you are not Secretary of State 
and Secretary of Defense.
    But anyway, I will conclude by one other point that my 
colleague and buddy Senator Boxer raised here, because I think 
she is onto something important. I suspect you know better than 
anyone in this administration how important, how our 
credibility is the coin of the realm when you go and interface 
with other Foreign Ministers and heads of state. I am sure you 
have heard a number of times what I was introduced to a couple 
of years ago by one of my staff members in a speech prepared 
for me, of the exchange that took place between former 
Secretary of State Acheson and Charles DeGaulle during the 
Cuban missile crisis.
    I might add that I have not met a single world leader who 
does not hold you in personally high esteem. I mean that 
sincerely.
    The story goes that Kennedy sent former Secretary Acheson 
to inform DeGaulle of the urgency and the danger of the pending 
conflict over Cuba missile, the Cuban missile crisis with 
Russia, to seek the support of the French and DeGaulle in 
particular. At one point, after he made his case he said he was 
authorized--and I am paraphrasing--authorized by President 
Kennedy to show President DeGaulle the proof that we had of the 
assertions made by Acheson on Kennedy's behalf, including 
satellite photos, et cetera.
    DeGaulle said, so history records: There is no need to show 
me the proof. I know the President of the United States. I know 
he would never ask this of me were it not true.
    I may be mistaken, but I doubt whether there is a single 
world leader who would say that today. Maybe they would not 
have said it for a Democratic President, but we are not there 
today.
    It takes me to the point that my friend from California 
raised about these investigations. The President has set up a 
commission and the commission is to investigate the quality of 
the intelligence that was gathered in the prelude and workup to 
moving into Iraq, and that is worth doing and it is necessary 
to do. But I am of the view, Mr. Secretary, that an equally 
compelling issue that must be looked at is not only whether or 
not there were attempts, which I have no idea whether there 
were, attempts to intimidate the intelligence community to come 
up with different answers--and I am inclined to think that 
probably did not happen.
    But I am inclined to believe that, not out of motives that 
were anything other than totally patriotic and well intended, 
that a number of people in the administration portrayed the 
intelligence data in ways that did not contain any nuance and 
implied by the way it was stated that there was no real 
disagreement in the intelligence community.
    I have had access to the intelligence data. I am no longer 
on the committee, but I have served on the committee longer 
than anyone in the U.S. Senate, over 10 years. And I did not 
find the representations made which were put in the record by 
administration officials to reflect much more than a judgment 
that they have made that, since the world has changed, we must 
lower the bar so much lower because the damage that could be 
done to us is so grave that we can take fewer and fewer 
chances.
    So you have the Vice President of the United States saying 
on Meet the Press: ``He reconstituted his nuclear capability.'' 
I never saw a shred of evidence to suggest that, not one shred 
of evidence to suggest that. I saw shreds of evidence 
suggesting he may be attempting to, he may have the capacity 
to, but not one shred of evidence to sustain that he has 
reconstituted his nuclear capability.
    The judgment made about the nuclear--excuse me--about the 
aluminum tubes, whether they were for gas centrifuge or they 
were for artillery. The community was split on that. It was 
split, and I suspect if we go back and look a majority thought 
it was for artillery. But yet the way it was phrased by 
leading--not you and not your deputy, who sat before me and my 
colleagues when we asked about that--was to lead the American 
public to believe that there was some sort of unanimity among 
the intelligence community that this is what the purpose was.
    It may be that is what the purpose was. The 40 percent or 
50 percent of the community who thought it was for gas 
centrifuge may have been right. But it was not phrased or put 
forward to the Congress or the American people in terms of 
there is a question.
    So I think unless this commission looks at the use of the 
intelligence, the use of the intelligence, as well as the 
quality of the intelligence, we will never be able to 
reestablish in the minds of other world leaders--there will not 
be in the near future in a Democratic or a Republican 
administration a Secretary of State who can go abroad and say: 
The President has sent me because we believe North Korea has A, 
B, C, D, and is about to do Y, or Iran is about to do. It is 
going to be a cold day in hell until we have a real discussion 
about this and a real investigation, before any of our friends 
say: You need not show me the proof, Mr. Secretary; I know the 
President would not say this were it not true.
    So I hope there is a reconsideration of the scope of the 
inquiry of the commission set up by the President, not because 
I believe that any member of this administration deliberately 
tried to lie about or manipulate, but because I believe they 
believed that the threshold was so low, the chance that they 
were willing to take was so de minimis, the bar so lowered, 
that even if there was a 2 percent chance, a 5 percent chance, 
a 10 percent chance that he might have this capacity or 
distribute it, we could not take that chance.
    I think that is totally consistent with the neoconservative 
notion, and I have great respect for them, the neoconservative 
notion about how this is a Hobbesian world and the rules have 
changed. But I think we better look at it, because if we do not 
I think our ability to reestablish our credibility will be 
very, very difficult to do.
    I apologize for going over. You know me too well, Mr. 
Secretary. None, none, n-o-n-e, none of this is directed at 
you. I have great faith in you and I think you were as 
judicious as you possibly could be in your presentation. I do 
not think that is the case throughout the administration in the 
impression communicated to the American people.
    So I have said my piece. I thank the chair and I appreciate 
you listening. I welcome a comment.
    Secretary Powell. I just have to respond on one point, 
without belaboring the hearing. But the assertion that the 
President of the United States would not be received with 
credibility by a world leader, not one I think you said, and 
that simply is not the case, Senator. I was sitting here 
jotting. I do not want to go down a list of names because I 
will probably leave somebody off who would like to be included. 
But when I think of all the meetings I have sat in with the 
President in recent months, before the war, after the war, and 
when I think of the world leaders who have supported him, they 
believe in the President, they believe in this country, they 
believe in the rightness of our cause and what we have done, 
and they have stepped forward to provide troops to support our 
efforts, whether it is from Japan or South Korea, or have 
provided other kinds of support in so many ways.
    There are dozens of countries that have put their troops on 
the line because they support the United States, they think we 
have gone the right way, and they believe in the President of 
the United States.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    In 5 minutes I am going to try to make a couple of 
comments, ask you three quick questions, and hopefully this 
will be it for you, you can have lunch and relax.
    First of all, Nunn-Lugar, count me in. It is everything my 
two esteemed colleagues said it is. I think we believe this 
across the board on this committee, at least I hope so.
    Also with Senator Biden count me in on expanding the role 
of this commission to look at the use of the intelligence. It 
is not just to answer our questions here, but I think the 
American people's questions. So if you could pass that on for 
what it is worth.
    Mr. Secretary, I think you have been far too kind to the 
intelligence community. I am just going to speak as a friend 
here. I thought to myself, what if I was given the role to go 
before the United Nations and be very specific about all kinds 
of, actually specific about how many tons and how many pounds 
and how many planes and how many mobile vans, et cetera, and 
then I found out that basically almost all of it was not true. 
I honestly think I would respond in a little bit of a different 
way than the President has. But that is what makes life 
interesting, because people are different.
    And frankly, the way you have responded, I think you have 
been very kind. For example, we have the New York Times: 
``Agency alert about Iraqi not heeded, officials say.'' This is 
February 6: ``An Iraqi military defector identified as 
unreliable by the Defense Intelligence Agency provided some of 
the information that went into U.S. intelligence estimates that 
Iraq had stockpiles of biological weapons at the time of the 
American invasion. Because the warning went unheeded, the 
official said, the defector's claims that Iraq had built mobile 
research labs to produce biological weapons''--and I remember 
your showing those--``were mistakenly included in, among other 
findings, the National Intelligence Estimate of October 2002 
that concluded that Iraq had significant biological 
stockpiles.'' It says: ``Nevertheless, the defector was among 
four sources cited by Secretary Powell in his presentation to 
the U.N.''
    So I ask unanimous consent to place this into the record.
    The Chairman. It will be published in full.
    [The New York Times article referred to follows:]

   [The New York Times, Feb. 7, 2004, Saturday, Late Edition--Final]

   The Struggle for Iraq: Intelligence; Agency Alert About Iraqi Not 
                         Heeded, Officials Say

                           (By Douglas Jehl)

    Washington, Feb. 6--An Iraqi military defector identified as 
unreliable by the Defense Intelligence Agency provided some of the 
information that went into United States intelligence estimates that 
Iraq had stockpiles of biological weapons at the time of the American 
invasion last March, senior government officials said Friday.
    A classified ``fabrication notification'' about the defector, a 
former Iraqi major, was issued by the D.I.A. to other American 
intelligence agencies in May 2002, but it was then repeatedly 
overlooked, three senior intelligence officials said. Intelligence 
agencies use such notifications to alert other agencies to information 
they consider unreliable because its source is suspected of making up 
or embellishing information.
    Because the warning went unheeded, the officials said, the 
defector's claims that Iraq had built mobile research laboratories to 
produce biological weapons were mistakenly included in, among other 
findings, the National Intelligence Estimate of October 2002, which 
concluded that Iraq most likely had significant biological stockpiles.
    Intelligence officers from the D.I.A. interviewed the defector 
twice in early 2002 and circulated reports based on those debriefings. 
They concluded he had no firsthand information and might have been 
coached by the Iraqi National Congress, the officials said. That group, 
headed by Ahmad Chalabi, who had close ties to the Pentagon and Vice 
President Dick Cheney, had introduced the defector to American 
intelligence, the officials said.
    Nevertheless, because of what the officials described as a mistake, 
the defector was among four sources cited by Secretary of State Colin 
L. Powell in his presentation to the United Nations Security Council 
last February as having provided ``eyewitness accounts'' about mobile 
biological weapons facilities in Iraq, the officials said. The defector 
had described mobile biological research laboratories, as distinct from 
the mobile biological production factories mounted on trailers that 
were described by other sources.
    The intelligence about the mobile facilities was central to the 
prewar conclusion that Iraq was producing biological arms, senior 
intelligence officials have said. No such arms or production facilities 
have been found in Iraq since the war, and David A. Kay, the former 
chief weapons inspector, has said he believes that Iraq never produced 
large stockpiles of the weapons during the 1990's.
    Soon after the invasion, American troops in Iraq discovered 
suspicious trailers that were initially described by the Central 
Intelligence Agency as having been designed as factories for biological 
weapons. But most analysts have since concluded that they were used to 
make hydrogen for military weather balloons.
    Dr. Kay reported in October that American inspectors had found ``a 
network of laboratories and safe houses controlled by Iraqi 
intelligence and security services'' that contained equipment for 
chemical and biological research. But American officials have not 
described any discovery of the mobile laboratories described by the 
Iraqi major.
    In his speech at Georgetown University on Thursday, George J. 
Tenet, the director of central intelligence, provided the first hint 
that the prewar intelligence on Iraq had been tainted by evidence 
previously identified as unreliable.
    Apparently alluding to the Iraqi military defector, Mr. Tenet said 
intelligence agencies had ``recently discovered that relevant analysts 
in the community missed a notice that identified a source we had cited 
as providing information that, in some cases was unreliable, and in 
other cases was fabricated.'' Mr. Tenet went to say, ``We have 
acknowledged this mistake.''
    In interviews on Friday, intelligence officials described the 
episode as a significant embarrassment. They said the information 
provided by the defector had contributed significantly not only to the 
National Intelligence Estimate but to Mr. Powell's presentation to the 
United Nations last Feb. 5.
    ``He was either making it up or he heard somebody else talking 
about it,'' one intelligence official said of the information the 
defector had provided, ``but he didn't know what he was talking 
about.'' The official said the notification circulated by the D.I.A. 
had advised other agencies ``that the information that this guy 
provided was unreliable.''
    In a related matter, the intelligence officials acknowledged that 
the United States still had not been able to interview two other people 
with access to senior Iraqi officials, and whose claims that Iraq 
possessed chemical and biological stockpiles were relayed to American 
officials in September 2002 by two foreign intelligence services.

    Senator Boxer. Thank you.
    It just seems to me that--I mean, I am sure that you make 
comments in private and I am encouraging you to get to the 
bottom of this----
    Secretary Powell. I am working on the bottom of that one.
    Senator Boxer [continuing]. Because you are--because it is 
important for our country and it is important for you and it is 
important for all of us who believed that there were WMD there.
    I have a couple of questions. They are interesting, I 
think. Secretary Powell, there was a report in the Chicago 
Tribune stating that the U.S. military is planning a spring 
offensive designed to capture Osama bin Laden. ``A U.S. 
military spokesman has been quoted as saying: `We have a 
variety of intelligence and we are sure we are going to capture 
Osama bin Laden and Mullah Omar this year.' The American 
commander of coalition forces in Afghanistan, Lieutenant 
General David Barnow, told the BBC he expects bin Laden to be 
brought to justice by year's end.''
    This is good as far as I am concerned, if this comes true. 
Senator Grassley predicted this would happen before the 
election. So my question is--I do not know what briefings he 
has had, but that was an interesting comment.
    My first question, then I will ask the other two so we get 
them out of the way: Do you share this optimism?
    Secretary Powell. I do not know the basis for the general's 
assessment. When I was a general I tended not to give such 
assessments.
    Senator Boxer. Then on Syria. Secretary Powell, you visited 
Syria, raised the issue of its ongoing support for terrorism, 
for which we are very grateful. As you know, with your changing 
your views on our bill, the Boxer-Santorum bill--it is hard for 
me to even put those two names together, given that we are 
never in agreement, but we were on this. With the help of 
Senators Lugar and Biden, we passed that bill and now you have 
at your disposal the ability to increase sanctions on Syria.
    Why is this important? It looks to us that, while some of 
the terrorist offices were shut down for a few days, we believe 
that there has not any action been taken to close the 
headquarters of Hezbollah, Hamas, Palestinian Islamic Jihad, 
the Popular Front for the Liberation of Palestine. There are 
also reports that Syrian aircraft that flew--this is very 
serious--humanitarian cargo to Iran following the earthquake 
returned to Damascus full of weapons for terrorist groups.
    So my question to you is: Do you intend to begin 
implementation of the Syria Accountability Act some time in the 
near future?
    Secretary Powell. Yes, we are examining now what sections 
of the act we want to use.
    Senator Boxer. Excellent.
    Secretary Powell. I agree with your assessment that Syria 
has not done what we demanded of it with respect to the closing 
permanently of those offices and getting those individuals out 
of Damascus. On the airplane story, I cannot confirm it or deny 
it.
    Senator Boxer. Well, thank you for that.
    The last question. Secretary Powell, last month Senators 
Landrieu, Mikulski and I sent a letter to Ambassador Bremer 
about an Iraqi Governing Council ruling that essentially 
eliminates the rights of women under Iraqi family law and 
replaced it with sharia law. Now, Ambassador Bremer sent us a 
very strong letter saying that he totally disagreed with this, 
of course, and that he was going to do everything he could to 
ensure that in the interim constitution the rights of women 
will be protected.
    I have been visited by women from Iraq who are just 
absolutely terrified because even under Saddam, although their 
life in many ways was hell on wheels, and although they are 
very happy he is not there, they had more freedom than they may 
have now. This is frightening to them.
    So I do not know if you have taken a really hard look at 
this or whether you have discussed this with Ambassador Bremer, 
but are you confident that we will be able to use our influence 
to protect the rights of women when Iraq gets to control its 
own?
    Secretary Powell. We are following this very carefully. 
Under Secretary of State Dobriansky wrote me a memo on all of 
these issues. We are conveying them to Ambassador Bremer to 
reinforce his efforts. We would not have succeeded in our 
mission if we found that after we set up a new government in 
Iraq women in any way are not allowed to participate fully in 
the society, with the same rights as anyone else in the 
society.
    Senator Boxer. Thank you very much.
    The Chairman. Thank you, Senator Boxer.
    Senator Voinovich, do you have further questions?
    Senator Voinovich. Any time you want to wrap it up. I just 
have one short one.
    The Chairman. As soon as you have concluded. We have a 5-
minute round.
    Senator Voinovich. If you have answered it--when we 
supported the President on his $87 billion request there was a 
lot of debate in the Senate about whether it ought to be a loan 
or a grant, and many of us thought it should be a grant because 
we felt that it would be difficult for you to sit down with 
other countries and talk about their waiving their loans, or 
the Paris Club and so forth. Could you tell us, where are we in 
terms of these other nations in terms of their debt with Iraq, 
and are any of them--are we getting any real help from other 
people in terms of rebuilding the infrastructure?
    Secretary Powell. We are getting expressions of support. 
Former Secretary Baker visited a number of these countries in 
Europe and Asia and in the Middle East and Gulf region and came 
back with expressions of support for substantial reduction, 
words like that--not all countries used the same term--within 
the Paris Club and also bilateral considerations.
    Now that he has finished his first round of visits, 
Secretary Snowe and I are working with Secretary Baker to put 
meaning to these words and get exact amounts worked out so that 
we can get the debt of the Iraqi people reduced as much as 
possible this summer.
    Senator Voinovich. So the point is that Baker's visit 
stimulated conversations about it----
    Secretary Powell. Yes.
    Senator Voinovich [continuing]. But as yet none of them 
have waived any of the loans?
    Secretary Powell. Not converted into dollars yet, but that 
is the next step in the process. We think we are on track with 
the process.
    Senator Voinovich. When do you think that will happen?
    Secretary Powell. We are hoping to get as much done by 
early summer as possible with respect to actual debt reduction.
    Senator Voinovich. I hope they do better than their 
contributions to the stability back in southeast Europe.
    Secretary Powell. Thank you very much.
    The Chairman. Thank you, Senator Voinovich.
    Thank you again, Secretary Powell, for being so forthcoming 
in answering our questions, and for listening to our additional 
concerns.
    Secretary Powell. Thank you, Mr. Chairman. It is always a 
pleasure, and I will pass on the compliment that I heard 
directed toward my Deputy Secretary Rich Armitage, which will 
make him even more insufferable to live with than he is now.
    The Chairman. Thank you, and the hearing is adjourned.
    [Whereupon, at 12:32 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


            Responses to Additional Questions for the Record


 Responses of Hon. Colin L. Powell, Secretary of State, to Additional 
   Questions for the Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1. The Government of Pakistan claims that Dr. A.Q. Khan's 
nuclear proliferation activities were a rogue operation, conducted 
without the knowledge, consent, or involvement of senior officials in 
the government or military. Do you believe this to be the case?

    Answer. As the White House has said, we value the assurances given 
by President Musharraf that the Government of Pakistan is not involved.

    Question 2. In the fall of 2002, General Musharraf made a solemn 
promise to you: he vowed that Pakistan's nuclear facilities were 
completely under his control, and that there would be absolutely no 
proliferation in the future. Nearly one year later (according to public 
reports), U.S. intelligence tracked Dr. A.Q. Khan's network 
transporting five cargo containers of equipment for a nuclear 
centrifuge to Libya.
          a. What does this incident, and other incidents of 
        proliferation by Dr. A.Q. Khan subsequent to General Musharrafs 
        2002 pledge, indicate about the degree of control that 
        Musharraf has over Pakistan's nuclear assets?
          b. Do you believe that General Musharrafs current pledges to 
        control nuclear proliferation are more credible than his 2002 
        pledge? If so, why?

    Answer. As the President said in his February 11 speech at NDU, 
American and British intelligence identified, and German and Italian 
authorities intercepted, a shipment of advanced centrifuge parts 
manufactured at a Malaysian facility en route from the manufacturer to 
Libya via Dubai. The parts in question were neither produced in, nor 
shipped from, Pakistan; and we have no reason to believe that the 
Pakistani government was aware of this shipment.
    President Musharraf has committed to work with the United States 
and international efforts to roll up the A.Q. Khan network and has 
pledged to take steps to ensure that Pakistan will not be a source for 
proliferation in the future. We are pleased with the action that 
President Musharraf has taken in response to his recognition of the 
danger presented by this network. Actions taken by the Government of 
Pakistan will be instrumental in rolling up the A.Q. Khan network.
    President Musharraf has made clear his intention to protect 
Pakistan's sensitive nuclear facilities. We value his assurances that 
Pakistan's nuclear facilities and sensitive technologies will remain 
under the tight control of the National Command Authority.

    Question 3. What is the total number of troops currently deployed 
in Provincial Reconstruction Teams in Afghanistan? How many of these 
troops are U.S. soldiers?

    Answer. There are 581 soldiers assigned to the 11 U.S. and 
Coalition Provincial Reconstruction Teams. 405 of these soldiers are 
U.S.; the remainder are British and New Zealanders. These numbers do 
not include the German Provincial Reconstruction Team (PRT) in Kunduz, 
which falls under the International Security Assistance Force, or any 
U.S. or Coalition soldiers providing support to PRTs, but not actually 
assigned and working as a member of a team. The number of military 
personnel supporting PRTs in Bagram and Kabul is around 100. We 
understand that there are 250 German military personnel on PRT Kunduz.

    Question 4. The President's budget request for assessed 
peacekeeping contributions falls from an anticipated $695 million to 
$650 million. This amount assumes reductions in the scope of missions 
in Kosovo, Ethiopia, and the Democratic Republic of Congo, as well as 
the completion of missions in Sierra Leone and Timor Leste. But we know 
that these conflicts may not stabilize, and the requirements may not 
decrease. In addition, we know that conflict and instability is growing 
in several other areas--yet the request for peacekeeping does not 
appear to include a reserve for new peacekeeping operations.
          How likely is it that we will see Security Council mandates 
        for these new missions? How will we pay for them?

    Answer. The Administration wants UN peacekeeping missions to end 
when they have achieved their objectives and for those currently on the 
ground to be as lean and effective as possible. In Sierra Leone and 
Timor Leste, we are working with the UN and interested nations to 
reduce the UN missions in those countries, and to end them as soon as 
possible.
    In other countries, UN missions offer the hope of solidifying peace 
processes underway. We voted to establish a new UN peacekeeping mission 
in Cote d'Ivoire on February 27. The Administration has announced its 
intention to support authorization of a peacekeeping mission in Haiti 
to replace the current multinational interim force, in which U.S. 
troops participate. We expect the UN peacekeeping Haiti mission will be 
created within the next two months. This month, the UN Secretary 
General recommended establishment of a new UN peacekeeping mission in 
Burundi. We are currently studying that recommendation. In addition, as 
we have reported in the past, we continue to monitor the situation in 
Sudan. If a comprehensive peace agreement is reached in Sudan, we 
expect to support establishment of a UN peacekeeping mission there to 
monitor the parties' compliance with their commitments.
    The Administration does not request contingency funds in the CIPA 
budget for possible new UN peacekeeping missions. Of necessity, the 
budget request for each year is put together long in advance of world 
events that may lead to a need for new UN peacekeeping missions. Events 
may occur rapidly which lead to new peacekeeping missions not 
anticipated in the President's Budget Request. Liberia is an example. 
When Charles Taylor left Liberia (an event that was not predicted just 
months before) it created conditions for the U.S. to support UN 
peacekeeping in that country. We appreciate your appropriation of 
supplemental funds to pay for both peacekeeping and development needs 
in Liberia.
    As to how we will pay for the new missions in Cote d'Ivoire and 
Haiti and possible missions in Sudan and Burundi, we recognize the 
problem. As the Secretary indicated in testimony before the House 
Appropriations Committee, the CIPA account is under considerable 
stress. But, it is too early to be definitive on the specific approach 
we will take to address this problem and resolve it.

    Question 5a. It's going to take a long time to replace or renovate 
our facilities. In the meantime, what can we do to provide protection 
at overseas facilities that still do not meet these minimum security 
requirements?

    Answer. During Secretary Powell's tenure, the Department's Bureau 
of Overseas Buildings Operations (OBO), working with the Bureau of 
Diplomatic Security (DS), has increased security through the following 
measures:
  <bullet> Completing construction of 12 new secure facilities.
  <bullet> Since March 2001, OBO capital construction projects have 
        been completed or begun at 37 posts that will provide safer, 
        more secure facilities for almost 11% of U.S. personnel 
        overseas.
  <bullet> OBO and DS continue to provide both interim and permanent 
        security upgrades to the extent possible at existing 
        facilities. Since 2001, security enhancements have been made to 
        most U.S. diplomatic missions with $396 M (in OBO funds). These 
        upgrades include major perimeter upgrade projects at 70 posts, 
        construction of reinforced perimeter walls and compound 
        screening facilities, emergency egress upgrades, installation 
        of forced-entry/ballistic resistant doors and windows, and 
        other security upgrades at the majority of overseas posts. 
        Shatter-resistant window film (SRWF) has been installed at all 
        our overseas posts. Other funding has been used to acquire 
        property that will increase setback at facilities.
  <bullet> DS is upgrading technical security systems (such as closed 
        circuit TV systems and intrusion detection systems) at 156 
        facilities. DS has installed 700 explosives detectors, added 
        200 new metal detectors and 490 x-ray machines at our posts. An 
        aggressive surveillance detection program and well-trained 
        local guards give us early warning of possible terrorist 
        activity directed at our posts. Every post has an active 
        Emergency Action Committee addressing near and long-term 
        security issues. Our Regional Security Officers (RSOs) work 
        closely with senior host country law enforcement and security 
        officials to make sure threat information is shared quickly and 
        thoroughly and to ensure the host country provides appropriate 
        security for our posts and personnel. A Weapons of Mass 
        Destruction First Responders program was developed and is 
        operational at our posts overseas.
    The FY 05 budget request includes $100 million for OBO to continue 
providing interim protection to our facilities until security-deficient 
office buildings can be replaced with New Embassy Compounds. This 
includes compound security upgrades, installation of forced entry/
ballistic resistant doors and windows, maintenance of SRWF, minor 
security upgrades, and environmental security protection.

    Question 5b. You stated that the total cost of constructing 150 new 
embassies is $17.5 billion over the next fourteen years. What 
proportion of this total will be funded through the cost-sharing 
program? Without cost-sharing, how much longer would it take to get the 
embassies built?

    Answer. The Capital Security Cost Sharing (CSCS) Program will 
generate $17.5 billion over 14 years (FY 05 through FY 18; 
contributions by State and other agencies will be phased in over 5 
years beginning in FY 05). After the 5-year phase-in period, annual 
funding will be $1.4 billion, all from the CSCS Program.
    The CSCS Program will ensure that all agencies with an overseas 
presence pay their fair share of urgent, security-driven capital 
projects. State has identified 150 embassies and consulates that do not 
meet minimum security standards and need to be replaced. Even assuming 
moderate growth in State's construction budget, without CSCS, it would 
take until 2030 (26 years) to fund the construction of these new 
embassies and consulates.

    Question 5c. Have all relevant agencies, including the Department 
of Defense, agreed to contribute to the cost-sharing plan?

    Answer. The Office of Management and Budget convened two meetings 
during the period that the Capital Security Cost Sharing (CSCS) Program 
was being developed. These meetings provided opportunities for all 
agencies with an overseas presence to offer suggestions for improvement 
in the proposed methodology for sharing the costs of meeting the 
objectives of secure, safe, and functional facilities overseas and to 
address the President's Management Agenda of Rightsizing. In addition, 
both OMB and the State Department conducted numerous briefings and 
individual discussions with affected agencies. The CSCS Program was 
revised in several respects to take account of the concerns of other 
agencies.
    Under the Administration's CSCS Program, agencies with an overseas 
presence under the authority of the Chief of Mission (COM) will be 
required to pay their fair share of the program. Contributing agencies 
have participated and will continue to take part in the process for 
allocating cost shares. State conducted a comprehensive survey to 
identify the number and type of cost-sharing overseas positions at each 
post in Spring 2003; after this, agencies were given the opportunity to 
reduce their position count by abolishing unfilled positions, and 
certain types of positions were exempted, e.g., those in host 
government space. State will repeat the survey every 2 years, and in 
the future, adjustments will be made between surveys if an agency 
documents reductions in positions.
    DOD participated in the process for allocating cost shares. DOD's 
share is 11% of the total, whereas State's is 66%.
  <bullet> Only DOD positions under COM authority are counted for CSCS.
  <bullet> Marine Security Guard positions are not counted.
    In a January 7, 2004, letter to the Secretary from Deputy Secretary 
of Defense Paul Wolfowitz, DOD expressed support for the Department's 
efforts to improve embassy security, but noted its inability to 
contribute to the CSCS Program because of the FY 04 legislative 
prohibitions and lack of support from DOD oversight committees. The 
letter concluded that DOD would fully comply with the Administration's 
position.
    The Administration's FY 05 budget includes a provision authorizing 
the Department to charge and collect CSCS costs, without offsets. It 
also includes a provision to repeal the DOD exclusions from cost 
sharing in the FY 04 Defense Authorization bill (Sec. 1007) and the FY 
04 Defense Appropriations bill (Sec. 8137).
  <bullet> Section 1007 of the FY 04 Defense Authorization Act provided 
        that DOD's appropriated funds may be transferred to State for 
        the maintenance or construction of U.S. diplomatic facilities 
        only if the amount charged by State is greater than the 
        unreimbursed costs incurred by DOD during that year providing 
        goods and services to State.
  <bullet> Section 8137 of the FY 04 DOD Appropriations Act prohibits 
        DOD from paying any fee charged by the State Department to 
        construct new diplomatic facilities.

    Question 6. As you may be aware, last November I introduced a 
resolution in support of the establishment of a Democracy Caucus at the 
United Nations. This is an idea that has gained a good deal of support 
over the past few years from a broad-based coalition, as well as 
endorsement from Secretary Albright and Ambassador Kirkpatrick. I also 
note that Assistant Secretary Holmes recently called the creation of a 
UN Democracy Caucus ``an idea whose time has arrived''.
          What is your view on the establishment of such a caucus? What 
        efforts have we been making on this front? Are we encouraging 
        other nations to take a leading role, as well?

    Answer. The United States has strongly supported the Community of 
Democracies, which brings together over one hundred democratic nations 
to strengthen democratic principles around the world. And now we are 
building on the Community of Democracies to form a democracy caucus 
within the United Nations system. The caucus would be based on the 
Warsaw Declaration of the Community of Democracies, signed in June 
2000, which calls for democracies to ``collaborate on democracy-related 
issues in existing international and regional institutions.'' The 
Community of Democracies reiterated this pledge in Seoul, Korea in 2002 
when it charged the Convening Group with ``encouraging the formation of 
coalitions and caucuses to support democracy.''
    Such a grouping, united by its members' shared ideals and 
democratic practices, will help the entire UN system live up to its 
founding principles. We envision a coalition of democratic countries 
consulting and cooperating in how they will vote in the UN, and uniting 
our voices to promote democratic ideals worldwide.
    We do not envision a democracy caucus supplanting regional groups 
or coalitions such as the NAM or G-77; instead, it would provide 
democratic nations an alternate network with which to align its voting 
practices and support. Ultimately a democracy caucus would become an 
accepted UN bloc like other blocs. We want all countries to be able to 
freely associate themselves with the ideals of freedom that will carry 
their peoples to security, prosperity and peace in the 21st century.
Efforts
    In June 2000, the United States, in cooperation with Poland, Chile, 
Mali and other democratic states, convened the first meeting of the 
Community of Democracies to ``collaborate on democratic-related issues 
in existing international and regional institutions . . . aimed at the 
promotion of democratic government.'' More than one hundred countries 
participated, since some nations were included that at Seoul two years 
later would be moved to ``observer'' level, like Egypt.
    A second such meeting took place in Seoul in November 2002, where 
participants reaffirmed the need to create a U.N. Caucus of Democratic 
States (or, Democracy Caucus). A third meeting of the CD is scheduled 
for Chile in 2005.
    We are extremely excited about the emergence of the Democracy 
Caucus at the Sixtieth Commission on Human Rights (CHR) in Geneva, 
Switzerland, March 15--April 23, 2004. At the high-level segment of 
this year's CHR, Under Secretary Dobriansky spoke about the Democracy 
Caucus and the relevance of the Community of Democracies to the 
credibility and effectiveness of the CHR. Of the 53 member states of 
the current UN Commission on Human Rights, 32 are members of the 
Community of Democracies. This means that countries with shared 
democratic practices represent a clear majority of states on the 
Commission. Members of the Democracy Caucus are coordinating on a 
resolution proposed by Romania, Peru, and the United States on 
Consolidating Democracy. This is a wonderful first step toward 
reclaiming the only global body charged specifically with human rights 
from tyrannies seeking to hide behind its credibility.
    The State Department has been hosting lunches in Washington and New 
York leading up to this year's elections for CHR membership to urge 
democracies to recruit--and vote for--good candidates.
    Furthermore, Ambassador Moley has hosted lunches in Geneva for the 
Permanent Representatives of regional groups on the relevance of the 
Community of Democracies to the Commission on Human Rights.
    Under Secretary for Global Affairs Paula Dobriansky and Assistant 
Secretary for International Organization Affairs Kim Holmes have 
recently hosted four lunches in Washington, DC, with fifty-two 
democracies to discuss UN issues and reforms, hear attendees' views, 
and promote dialogue among countries with shared democratic values.
    The Department of State has also been engaging in public diplomacy 
efforts. Secretary Powell discussed the Community of Democracies in his 
Freedom House speech on March 11, 2003. Assistant Secretary Holmes 
addressed the Council on Foreign Relations in New York, and Under 
Secretary Dobriansky and others have held briefings in Washington, DC, 
in order to keep the NGO community informed on this issue.
Encouraging Other Nations
    The United States has also been encouraging other nations to take 
the lead on this initiative.
    Chile has played a leading role as the host of the next Community 
of Democracies ministerial conference.
    In New York since 2003, the Convening Group of the Community of 
Democracies, as well as individual missions, have held meetings and 
brainstorming sessions in support of the democracy caucus.
    In April 2003, the Republic of Korea hosted a reception for Seoul 
participants of the Community of Democracies, which featured a strong 
speech by the Polish Permanent Representative.
    The Polish Ambassador hosted lunches last September, in conjunction 
with the Permanent Representatives from the United States, the Republic 
of Korea, Chile, and Italy, to discuss the democracy caucus.
    These steps by others give us hope that this will be much more than 
an American effort--it will be the joint effort of countries around the 
globe that share democratic principles, working together to bring the 
UN into ever closer alignment with its noble founding principles.

                                 ______
                                 

Response of Hon. Colin L. Powell, Secretary of State, to an Additional 
    Question for the Record Submitted by Senator George V. Voinovich

    Question 1. The President's budget request includes a significant 
increase--nearly 30 percent--in funding for the Peace Corps. This is 
consistent with the goal of doubling the number of Peace Corps 
Volunteers by 2007. While the Peace Corps is a significant part of our 
presence aboard, it is essential that we do all that we can to provide 
for the safety of our Peace Corps Volunteers. As we work to increase 
the number of Peace Corps Volunteers, what is being done to ensure 
their highest possible level of safety while serving abroad? What 
recommendations would you make to enhance the security of Peace Corps 
Volunteers? How will this additional, funding be used to improve 
security for Peace Corps Volunteers? For instance, will, any of these 
funds be spent on initiative to enhance the safety of housing for 
volunteers, or to improve means for volunteers to communicate with 
country directors or security officers in time of emergency?

    Answer. The Department of State has no greater responsibility than 
the protection of Americans overseas. The Department's ``no double 
standard'' requires the Department to share any threat information to 
both the official and non-official Americans community overseas.
    Peace Corps Volunteers are not considered U.S. Government employees 
and are not under Chief of Mission authority while serving overseas. 
According to Department of State regulations ``for all relevant 
purposes, volunteers are not considered U.S. Government employees. They 
are not official members of the mission and do not have diplomatic 
immunity.'' The Peace Corps country directors and staff are considered 
official government employees. The Peace Corps has its own Safety and 
Security Officers who are assigned overseas with regional 
responsibility for different PC missions.
    In country, Regional Security Officers provide in-country briefings 
to PCVS and coordinate with Regional Peace Corps Safety and Security 
Officers. In Washington, the first ever ``Peace Corps Security Officer 
Course'' was offered by the Department of State's Bureau of Diplomatic 
Security (DS) Training Division in 2003. In addition, DS personnel 
liaisons with Peace Corps at a headquarters level, ensuring cables and 
investigative findings from RSOs are shared on all incidents involving 
Peace Corps Volunteers.

                                 ______
                                 

 Responses of Hon. Colin L. Powell, Secretary of State, to Additional 
   Questions for the Record Submitted by Senator Russell D. Feingold

    Question 1. Is it your view that the Indonesian military has made 
significant progress in its reform efforts over the past two years? On 
what do you base your assessment? Will the Department link military 
assistance to our demand for cooperation and accountability in the 
investigation of the murder of American citizens in West Papua as 
required by the omnibus appropriations bill passed earlier this year?

    Answer. The Indonesian military has made only limited progress in 
its reform efforts over the past two years. One visible sign of 
consolidated civilian control over the military will be the 
elimination, after the coming April 5 legislative elections, of 
positions in the House of Representatives (DPR) and the People's 
Consultative Assembly (MPR) that were previously reserved for the 
military. This will accomplish a key measure sought by the civil 
society groups that led Indonesia's reform movement after the fall of 
President Suharto in 1998.
    There has been little progress on pursuing accountability for past 
human rights abuses, however. There also have been reports of human 
rights abuses occurring during the current state of emergency in Aceh. 
To the best of our knowledge, the scale of these abuses in the current 
state of emergency appears to be less than in past conflicts in both 
Aceh and East Timor. Reliable information from Aceh, however, has been 
sparse because the Indonesian Government has severely restricted access 
to the province.
    The FBI team investigating the Papua attack reported after its last 
visit to Indonesia, in December, 2003, that cooperation by the 
Indonesian military had improved from an initially low level. The 
investigation remains ongoing--the FBI team will return to Indonesia on 
February 25 for a follow-on visit. The State Department continues to 
emphasize to senior Indonesian leaders that failure to resolve this 
matter will seriously affect our overall bilateral relationship. The 
State Department will of course fully comply with language in the 
omnibus appropriations bill that links military assistance to full 
cooperation and accountability from the Indonesian military in this 
investigation.

    Question 2. One of Africa's serious crises continues in Zimbabwe, 
and you, Secretary Powell, have spoken out admirably and honestly about 
that situation, in which a repressive regime appears to be willing to 
destroy the entire country, from judicial institutions to civil society 
to the economy, in what amounts to a fit of pique. When I think about 
budget priorities in Africa, I am always aware that eventually, we will 
need to provide meaningful reconstruction and recovery assistance to 
Zimbabwe, and I was proud to be one of the original sponsors of the 
Zimbabwe Democracy Act, which formalizes that commitment in law. But I 
continue to wonder, when will we get to that recovery stage? Can you 
talk a bit about the kind of engagement that you envision with South 
Africa, which of course has tremendous influence in Zimbabwe, aimed at 
moving this crisis toward resolution?

    Answer. We fully share your concerns regarding Zimbabwe's 
devastation at the hands of President Mugabe, and greatly value your 
engagement and contributions on this urgent problem. Our ultimate goal 
is a democratic, economically sound, stable, and peaceful Zimbabwe. Our 
immediate objective is commencement of constructive dialogue between 
the ruling ZANU-PF and opposition MDC parties that focuses on restoring 
the rule of law, leveling the political playing field, and laying the 
groundwork for free and internationally monitored elections that would 
yield a democratically legitimate government.
    Though Zimbabweans themselves will decide the details leading to 
this outcome, the international community has an important role to play 
in helping to bring about conditions that will allow the Zimbabwean 
people to pursue their own solutions. U.S. sanctions and isolation of 
the Zimbabwean regime have brought useful but insufficient pressure to 
bear. African nations, and South Africa in particular, have the 
greatest capacity to press the Zimbabwean Government to reverse course.
    Last July President Bush discussed the Zimbabwe crisis with 
President Mbeki in Pretoria and asked him to be the ``point man'' on 
Zimbabwe. This was a realistic acknowledgement that South Africa not 
only is best positioned to influence developments in Zimbabwe but is 
directly affected by a neighbor in political, economic and social 
crisis. In the months since, the United States has maintained its 
pressure and sanctions on the Zimbabwean Government while giving 
President Mbeki an opportunity to pursue his strategies for addressing 
the crisis. President Mbeki has recently voiced his hope that dialogue 
between Mr. Mugabe's regime and the opposition would commence soon. 
Unfortunately, we see no signs that serious and constructive 
negotiations are in sight. The crisis persists and President Mugabe's 
abuse of his country for narrow political ends remains unchecked.
    We are conferring very actively with South Africa, as well as with 
other African leaders and elements of civil society, on additional 
steps we might take to build consensus for greater African engagement 
and appropriate responses to continued intransigence on the part of Mr. 
Mugabe's regime. Should the Zimbabwean Government continue to resist 
forthright pursuit of political solutions, we are prepared in the near 
future to broaden the range of individuals within the ruling elite, its 
supporters, and beneficiaries subject to our targeted financial and 
visa sanctions.
    Although a political solution does not appear imminent, we share 
your views on the importance of planning for meaningful reconstruction 
and recovery assistance when conditions allow. In line with the 
Zimbabwe Democracy and Economic Recovery Act, we are developing 
strategies and identifying priorities to help support Zimbabwe's 
eventual recovery.

    Question 3. I noted with interest that the Department is proposing 
a new $7.5 million activity within the NADR account to combat terrorist 
financing. Will some of these resources be directed toward helping 
countries dependent on hawala networks to regulate those networks and 
make those systems more accountable and transparent?

    Answer. Yes, our FY 2005 request for $7.5 million in NADR funds 
includes training and technical assistance programs to combat the abuse 
of alternative remittance systems (ARS) by terrorist financiers. Such 
programs will heighten awareness of possible abuse of ARS to launder 
funds or fund terrorism and encourage the formal regulation and 
supervision of alternative remittance systems in counterterrorism 
frontline states.

    Question 4. What kind of diplomatic fall-out do you anticipate in 
the months ahead if indeed David Kay is correct and we are not going to 
find any weapons of mass destruction in Iraq? What does this do to U.S. 
credibility around the world? Doesn't damaged credibility on 
intelligence matters have the potential to undermine crucial 
cooperation in fighting terrorism?

    Answer. Saddam's regime clearly had the intent and the capacity to 
produce WMD, and Saddam had used WMD in the past, against other 
countries and against his own people. Iraq continued to have the 
technical infrastructure, labs, and dual-use facilities that lent 
themselves to the production of weapons of mass destruction. The 
assumption to make, based on what the intelligence community gave to us 
was that there were stockpiles present. To know that Saddam had the 
intent and capacity to produce WMD and not to act was no longer 
acceptable after September 11, 2001. Pre-war intelligence assessments 
reflected the best judgments of all of the intelligence agencies. There 
is absolutely no doubt in my mind that if Iraq had gotten free of 
sanctions and the focus of the international community had dimmed with 
regard to its WMD programs, Iraq would have gone to the next level and 
produced stockpiles of these weapons. David Kay has even said that ``at 
the end of the inspection process, we'll paint a picture of Iraq that 
was far more dangerous than even we thought it was before the war.''

                                 ______
                                 

 Responses of Hon. Colin L. Powell, Secretary of State, to Additional 
       Questions for the Record Submitted by Senator Norm Coleman

    Question 1. A big concern I consistently hear from my constituents 
involves the dire humanitarian needs of the Hmong who remain in Laos. 
Amnesty International has alleged that the Lao Government is using 
starvation as a weapon of war against these individuals. Can you tell 
me what specifically the U.S. and the international community are doing 
to bring humanitarian aid to the Hmong people in Laos?.

    Answer. We remain concerned about Laos' poor human rights record, 
including the treatment of ethnic minorities. Our Embassy in Vientiane 
actively monitors the situation, investigating reports of abuses and 
pressing the Lao Government to adhere to international standards for 
the protection of human rights. We are aware of continued fighting 
between insurgent groups and government forces but are not aware of 
large-scale attacks against the Hmong people or any coordinated 
government policy of starvation. We have approached the Lao Government 
on numerous occasions to urge that it resolve the humanitarian problem 
facing the Forest Hmong quickly and peacefully, preferably with the 
involvement of credible international organizations. We understand that 
the Lao Government has an amnesty program for groups to peacefully come 
out of the forest and resettle, but we lack details about this program 
and have requested additional information from the government. The GoL 
has been unresponsive to our requests thus far.
    The USG does not provide specifically targeted assistance to Hmong 
in Laos, but does provide assistance through NGOs for humanitarian 
demining, developing economic alternatives to opium cultivation, and 
preventing HIV/AIDs and trafficking in persons. Overall, bilateral aid 
to Laos is minimal. In FY05, the State Department and AID plan to 
provide one million dollars in child survival and health funds 
(primarily HIV/AIDS related), to carry over one million dollars to 
continue funding an economic assistance/alternative development silk 
production and weaving program, and approximately 2.5 million dollars 
to support humanitarian demining. Through NGOs and UN agencies we will 
provide more than three million dollars in counternarcotics assistance 
(including alternative development, demand reduction and law 
enforcement training). Additional program funds may be used for 
regional programs designed to prevent trafficking in persons and other 
health-related assistance. The Bureau of Democracy, Human Rights and 
Labor plans to fund an IRI democracy-building project related to 
village elections this year.

    Question 2. Like others, I have been watching with great concern 
the changing situation in Haiti. What specific actions is the U.S. 
doing to prevent loss of life in Haiti during this difficult time? Are 
there any good ways out of Haiti's political crisis?

    Answer. The best way out of Haiti's political crisis is for all 
parties to agree to the settlement plan proposed by the Caribbean 
Community. Under the plan, President Aristide remains in office until 
his term expires but agrees to the formation of a new government under 
a new Prime Minister. This government would serve until elections were 
held in 2005. I am meeting on February 13 with Caribbean Community 
leaders, Canadian Foreign Minister William Graham, and OAS Secretary 
General Gaviria to discuss how we can best put the Caribbean Community 
plan into effect. President Aristide agreed to the plan on January 31 
in Kingston; now our diplomatic efforts must concentrate on obtaining 
agreement of opposition and civil society elements.
    The Administration is also very concerned about the attacks in the 
northern part of Haiti, and about the loss of life those attacks have 
caused.
    President Aristide is deploying units of the Haitian National 
Police to restore order. Our assistance to the Haitian National Police 
is limited because of corruption and credible allegations of 
involvement in narcotics trafficking, but part of the Caribbean 
Community plan addresses police reform by requiring new leadership, a 
professionalization plan, and deployment of international police 
officers to assist in reform efforts. Agreement of all sides to the 
Caribbean Community plan, on which our efforts are now concentrated, 
depends in part on immediate Haitian Government implementation of some 
of these measures to build confidence in other political actors.

    Question 3. The change of government that occurred in Bolivia last 
year was a source of great concern and sadness for the loss of life. I 
believe the stakes in Bolivia are very high. We must do what we can to 
support the current government, to help prevent Bolivia from becoming 
an undemocratic narco-state. I am concerned that our lack of support 
for Sanchez de Lozada, while not the cause of his downfall, 
nevertheless added to his woes. Can you please tell me what the U.S. is 
doing to support the Mesa government, specifically budget support?

    Answer. We are working closely with President Mesa and his 
government to help them address Bolivia's daunting fiscal, socio-
economic, and political challenges.
    In November, we allocated $8 million in ESF funds to provide the 
Bolivian Government with direct budget support. USAID dropped $16 
million in counterpart funding requirements for FY 2004, freeing funds 
for the GOB to use elsewhere.
    We are also working multilaterally to help the GOB meet is fiscal 
needs. On January 16 we co-hosted with Mexico the Bolivia Support Group 
meeting, which succeeded in increasing diplomatic support for the GOB. 
In mid-March, we will co-host a meeting of the Bolivia Support Group 
Steering Committee to follow up financial commitments made at the 
Support Group meeting and to identify new sources of direct budget 
support from bilateral donors and international financial institutions. 
In December 2003, we worked closely with Treasury to secure $96 million 
from IFIs to close the 2003 fiscal gap.
    In addition to helping Bolivia meet its immediate budget needs, we 
are also working with President Mesa to support social, security and 
counter-narcotics programs. USAID has redirected $12 million in aid to 
Bolivia from long-term projects to fast-disbursing aid in conflict-
prone areas. In December, State provided, approximately $4 million in 
FY 2004 Foreign Military Financing (FMF) to the Bolivian government. 
INL has notified Congress of its intent to reprogram from Ecuador to 
Bolivia $1.5 million in ACL funds to bolster counter-narcotics efforts.

    Question 4. One of our biggest challenges in Latin America is the 
current negative impression they tend to have of us. A poll last fall 
by the University of Miami and Zogby International found that only 12 
percent of those questioned rated President Bush's performance on Latin 
America as positive. Ninety-eight percent of Brazilians gave the 
President negative marks. While the intensity of our image problem in 
Latin America pales in comparison to the situation in the Middle East, 
I am concerned that negative Latin perceptions of the United States 
could impede hemispheric cooperation. I believe this Administration is 
sincere in its goodwill toward Latin America, but somehow that message 
is being lost. Can you please tell me what activities we have done, and 
which we might consider, to improve U.S. public diplomacy in Latin 
America?

    Answer. The Senator's concerns about public diplomacy and the image 
of the United States in Latin America are well taken, and we share 
them. It does appear, however, that the public view of the U.S. may not 
be as dire as the University of Miami/Zogby International polling 
reported.
    Overall, we have seen a decline in favorable attitudes toward the 
U.S. in Latin America as a result of the opposition voiced by various 
publics to U.S. military action in Iraq, and more generally since late 
2001, because of a dislike for the perceived ``heavy-handedness'' of 
U.S. policy. Nonetheless, opinion of the U.S. remained positive through 
last summer (on average, 60% were favorable--majorities in 11 of 17 
countries polled in the 2003 Latinobarometer--Argentina, Uruguay and 
Bolivia were the exceptions). Some have pointed to divergent values as 
a cause for anti-Americanism around the world, but this is most 
certainly not the case in the Western Hemisphere. Latin Americans 
believe people in the U.S. share many values with them--especially the 
premium both place on individual freedom and living under a democracy.
    Within that context, however, we are determined to do more and to 
do what we are already doing better. Our missions in Latin America are 
increasing their innovative efforts to help our neighbors understand 
our policies. We are pumping almost $15 million each year into the 
Fulbright Program, with over 1000 scholars participating. About 450 of 
our posts' key interlocutors participated in the International Visitors 
program last year. Our ambassadors have been particularly active in 
speaking to their respective media. Positive stories about Iraq, for 
instance, are fed to the Public Affairs Sections of our embassies on a 
more than daily frequency. Under the direction of the Department's new 
Under Secretary for Public Diplomacy and Public Affairs, the embassies 
are looking to engage broader, younger audiences, to reach out beyond 
the elites with whom we've most often worked in the recent past.
    I would be happy to provide the Senator with more details of our 
enormous Public Diplomacy efforts in the hemisphere (for instance, we 
have collated data regarding outreach by senior Administration 
officials to the hemisphere) or to have my senior staff in the Under 
Secretary's office and in the office of Western Hemisphere Affairs 
brief the Senator's staff.

    Question 5. A recent article in the Wall Street Journal discusses 
the manipulation of human rights statistics by NGOs in Colombia. This 
information was based on a report from the U.S. Embassy in Bogota. Does 
this information suggest that congressionally-mandated human rights 
requirements for Colombia as part of our assistance program should be 
revisited?

    Answer. The U.S. Embassy report mentioned in the Wall Street 
Journal article does not suggest that congressionally-mandated human 
rights requirements for Colombia should be revisited, but rather 
discusses the variance in human rights statistics produced by the 
Government of Colombia and Colombian NGOs. This report explains that 
many of these discrepancies can be attributed to differences in 
terminology and methodology used by different organizations, and do not 
reflect major differences concerning the underlying facts. While the 
aforementioned report and the 2003 Country Report on Human Rights for 
Colombia note that human rights indicators (i.e. numbers of murders, 
kidnappings, displaced, and other major human rights violations) showed 
significant improvements in 2003, both reports acknowledge that more 
remains to be done.
    The Secretary takes the Colombia human rights certification process 
very seriously and will continue to review all evidence pertaining to 
the human rights conditions when deciding whether conditions found in 
Section 563(a) of P.L. 108-199 of the Consolidated Appropriation for 
the Fiscal Year 2004 have been met. As in the past, the Department will 
solicit input from available sources, including the Government of 
Colombia and NGOs. Further, the Secretary will continue to insist on 
full compliance with all human rights conditions prior to making his 
determination and certification.

    Question 6. Is now the time for engagement with the Iranian regime? 
What sort of aid are we providing to independent Iranian-American media 
outlets that, with satellite technology, have the means and the desire 
to broadcast free media inside Iran?

    Answer. The U.S. continues to have serious concerns regarding 
several aspects of Iranian behavior, including its support for 
terrorist groups opposed to the peace process; its repression of its 
citizens at home; its potential for negative interference in Iraq; and 
its continuing pursuit of weapons of mass destruction. We continue to 
encourage the international community to recognize the threat posed by 
Iran's state sponsorship of terror and its continuing pursuit of WMD. 
We have worked extensively to build support in the international 
community for tough inspections and investigations by the International 
Atomic Energy Agency. We continue to press our allies to recognize the 
consistent efforts of the Iranian government to undermine peace in the 
Middle East. We have taken all appropriate opportunities to highlight 
Iranian human rights abuses. We maintain a rigorous sanctions regime in 
our efforts to encourage more cooperative behavior.
    However, we distinguish between the Iranian Government and the 
people of Iran, who consistently have demonstrated their desire for a 
government based on democratic values and a fundamental respect for 
human rights. The 2003 Foreign Operations bill gave us special 
congressional approval to fund projects to support democracy in Iran 
through our already-existing Middle East Partnership Initiative (MEPI) 
as well as to use funds assigned to the Bureau of Democracy, Rights, 
and Labor to promote Human Rights in Iran.
    As Deputy Secretary of State Armitage said before the Senate 
Foreign Relations Committee on October 29, 2003 we may consider 
specific MEPI projects on a case-to-case basis.
    Currently, the Broadcasting Board of Governors run the Persian 
language VOA radio and TV programs, as well as Radio Farda. The State 
Department has also launched a Persian language Web site where we post 
key policy statements on Iran.

    Question 7. As I stated in a letter to the President on March 27, 
2003, I have great concerns about the lack of funds for broadcasting in 
Iraq and the State Department's reluctance to release funds to the 
Iraqi National Congress for that purpose, as stipulated in P.L. 105-
174. One consequence was a lack of understanding among Iraqis about the 
nature of the U.S. invasion. Today the vacuum left after the fall of 
Saddam Hussein's regime has been filled by foreign media supported by 
Iran and other entities hostile to freedom and secularism. I am told 
that Iraq continues to lack a credible media sector, and that the Iraqi 
Media Network (IMN) has serious credibility problems. What does the 
Administration plan to do to correct the lack of credibility of the 
IMN? What role do we anticipate the media will play in Iraq's political 
future?

    Answer. The State Department has supported the broadcasting 
operations of the Iraqi National Congress and Liberty TV. For the 
period from November 2002 to July 2003, for example, funding in excess 
of $4 million was authorized to the INC for broadcasting. Following the 
war, the Iraq Media Network faced daunting challenges in rebuilding 
Iraq's TV and radio networks, training new media professionals and 
developing credible local programming. While security issues slowed 
initial progress, CPA has been successful in creating a new countrywide 
television network, Al-Iraqiyya, which is now providing high quality 
programming and news to Iraqis. In February, Harris Corporation took 
over as the new DAN contractor as part of a long-term commitment to 
increase the level of professionalism and expertise of the operation. 
CPA has drafted plans to turn IMN into a public broadcasting operation 
by establishing the Iraqi Public Broadcasting Corporation (IPBC), which 
would be an institution independent of government or political 
influence.
    Iraqis have access to other U.S. media outlets. Radio Sawa has been 
broadcasting into Iraq since well before the war, and is the number one 
radio station across Iraq. In April, pan-Arab al-Hurra satellite TV 
plans to open an Iraqi affiliate to broadcast international and local 
news and views to Iraqis.
    Polling shows that Iraqis want to have a free and open media. This 
has translated into an explosion of local media with over two hundred 
local newspapers and periodicals published and avidly read. Local radio 
and television stations are flourishing in northern Iraq and are 
starting up in other regions of the country. To encourage the growth of 
independent and objective media, CPA, USAID and State have been 
carrying out training programs for Iraqi journalists and media 
professionals.

    Question 8a. It has been my experience that faith based groups are 
one of our best assets in combating AIDS world wide. The Global AIDS 
bill was very explicit about the need to involve faith-based 
organizations. But I have been hearing quite a bit from faith-based 
organizations about their difficulties in accessing funding for AIDS 
work. Could you tell me how much of this assistance is currently being 
administered through faith based groups?

    Answer. In launching the Emergency Plan for AIDS Relief, President 
Bush made clear that a wide array of partners will help us implement 
the Plan, including non-governmental organizations such as faith- and 
community-based groups, private corporations, and, in some 
circumstances, international organizations. Faith-based organizations 
have often been the first responders to the global AIDS pandemic and 
have a wealth of expertise and experience to offer in implementing the 
Emergency Plan.
    The U.S. Global AIDS Coordinator, Ambassador Randall L. Tobias, has 
met with a number of faith-based organizations as he and his office 
have begun to implement the Emergency Plan.
    As of last December 2003, the Administration had announced several 
initial central funding mechanisms to implement key topical areas of 
the Emergency Plan, pending the availability of funds. These areas 
included activities for orphans and vulnerable children, behavior 
change through abstinence and faithfulness, care and anti-retroviral 
therapy for HIV-infected persons, prevention through safe blood 
programs, and twinning and volunteer activities to build capacity and 
human resources. Additional proposal solicitation announcements are 
expected to be made throughout the year.
    On February 23, 2004, the first $350 million in awards will be 
announced under the program areas noted above. Examples of faith-based 
partners that will receive awards in this first round of funding are 
Catholic Relief Services, World Relief, the Salvation Army, Habitat for 
Humanity, and Opportunity International.
    The Office of the U.S. Global AIDS Coordinator will endeavor to 
ensure that all groups, including faith-based organizations, interested 
in competing for funding under the President's Emergency Plan for AIDS 
Relief are made aware of opportunities as they arise. Faith-based 
organizations have large networks on the ground that are already 
responding to the HIV/AIDS crisis, a good number of which will be 
included in the unified U.S. Government plans submitted by the U.S. 
Ambassador in the 14 focus countries of the President's Emergency Plan 
for review by Ambassador Tobias' office in the spring.

    Question 8b. The Global AIDS bill listed 14 countries to receive 
intense funding. While I fully support a targeted effort, AIDS is 
obviously not limited by geography. Can you tell me whether this 
targeting has led to decreases in AIDS funding for other countries 
coping with the AIDS crisis?

    Answer. President Bush's Emergency Plan for AIDS Relief is a 5-
year, $15 billion initiative that virtually triples the U.S. commitment 
to international HIV/AIDS assistance.
    The $9 billion under the Emergency Plan intended to boost 
prevention, treatment and care activities in 14 (soon to be 15) of the 
most affected countries in the world is additional to the base budgets 
of U.S. Government agencies, totaling $5 billion over five years, that 
will continue bilateral U.S. HIV/AIDS programs currently active in more 
than 100 countries around the world. The remaining $1 billion is an 
additional pledge by the United States to the Global Fund to Fight 
AIDS, Tuberculosis and Malaria.

    Question 8c. In November I had the opportunity to meet with the 
President of Congo, Joseph Kabila. Here's a man who has made some 
really historic choices, who has put his country on the path to 
reconciliation, whose country has so many needs its difficult to even 
begin to list them. President Kabila's one request of me was for more 
assistance for Congo in our Global AIDS efforts. Congo had a stable 
AIDS infection rate for many years, at 5 percent. But there are 
disturbing signs that this rate has increased, particularly in the 
eastern part of that country, where AIDS rates may be as high as 22 
percent, with 36 percent of pregnant women HIV-positive. Following that 
meeting, I wrote to the State Department, making the case for Congo. In 
the response I received, I was told that Congo was to receive $6.2 
million in FY2003. Can you tell me how much we expect to spend in Congo 
this year or in 2005? Is $6 million enough to make a dent in a country 
as large as Congo?

    Answer. Specific HIV/AIDS allocations for non-focus countries have 
not yet been determined for Fiscal Year 2004, although they are 
expected to remain similar to Fiscal Year 2003 allocations. Fiscal Year 
2005 allocations will be dependent on the final Fiscal Year 2005 
appropriations, the process for which has only recently begun; however, 
request levels for non-focus countries will be reviewed in 2005.
    As you note, the Democratic Republic of the Congo (DRC) has been 
undergoing a war since 1996, which has had significant implications for 
efforts to address the HIV/AIDS epidemic. For example, the eastern part 
of the country is under the rule of rebels, making it difficult if not 
impossible for the National HIV/AIDS Control Program to operate there. 
However, a national consultation for reconciliation is underway which 
may improve the situation.
    The DRC conducted a review of the national HIV/AIDS plan that 
resulted in an improved, integrated HIV/AIDS, tuberculosis and malaria 
plan. The United Nations has prepared its HIV/AIDS work plan, which it 
estimated at $19 million, of which it has $16 million available. The 
Board of the Global Fund to Fight AIDS, Tuberculosis and Malaria has 
approved a five-year, nearly $114 million grant for combating HIV/AIDS 
in the DRC, with the first two years of funding estimated at 
approximately $35 million.

    Question 8d. I've also been considering the AIDS problem for India. 
Infection rates do not yet reach those we find in sub-Saharan Africa, 
but the sheer size of India means that there are already 4.5 million 
people who are living with HIV/AIDS in India. If HIV continues to 
spread at its current rate, an estimated 20 to 25 million Indians or 
more are likely to be infected by 2010. According to a Center for 
Strategic and International Studies (CSIS) Task Force, India faces a 
strategic opportunity in the next 6-12 months to reverse the trend. 
Given India's strategic location, and the values of democracy our two 
countries share, I believe it is in our interest to begin thinking 
about how to tackle AIDS in India before the disease undermines India's 
progress of the past 50 years. Can you shed some light on the State 
Department's thinking regarding AIDS in India?

    Answer. The Administration shares your concern about the growing 
HIV/AIDS epidemic in ``next wave'' countries such as India. As such, as 
noted above, the President's Emergency Plan includes nearly $5 billion 
to support ongoing bilateral HIV/AIDS programs in approximately 100 
countries worldwide--including in India.
    India is a participating country in the U.S. Department of Health 
and Human Services' (HHS) Global AIDS Program; HHS allocated $2.3 
million for HIV/AIDS programs in India in Fiscal Year 2002, and was 
expected to spend $3.6 million in Fiscal Year 2003. Also within HHS, 
the National Institutes of Health (NIH) provided $9.4 million on HIV/
AIDS biomedical and behavioral research projects in India in Fiscal 
Year 2002 through collaborations with both U.S.-based and Indian 
institutions. The U.S. Agency for International Development (USAID) 
allocated $12.2 million to HIV/AIDS prevention and care activities in 
India in Fiscal Year 2002, and an estimated $13.5 million in Fiscal 
Year 2003. Additionally, both the U.S. Departments of Defense and Labor 
have HIV/AIDS programs underway in India. Numerous other donors, 
including the Global Fund to Fight AIDS, Tuberculosis and Malaria; 
governments; the private sector; multilateral organizations; and 
foundations also fund HIV/AIDS programs in India. For example, the Bill 
and Melinda Gates Foundation has committed $200 million to fight HIV/
AIDS in India.

                      MILLENNIUM CHALLENGE ACCOUNT

    Question 9. I read with interest of the recent launching of the 
Millennium Challenge Corporation. This is an issue that many of my 
constituents have taken a great deal of interest in. My question deals 
with eligibility. The MCC board of directors released a list of some 63 
countries that are technically eligible to compete for MCA funding, a 
list of the world's poorest countries that are not prohibited by 
Congress from receiving assistance. Most of these countries, I 
understand, are not likely to be eligible for aid under the MCA because 
they will fall short of eligibility criteria related to governance, 
investing in people, and economic freedom.
    I understand that USAID plans to develop a program specifically 
designed to help those countries that just miss MCA eligibility 
requirements. Has this program been initiated? Where will funding for 
these activities come from?

    Answer. The Millennium Challenge Act (MCA) requires that the 
Millennium Challenge Corporation (MCC) Board wait a minimum of 90 days 
after announcing candidates before selecting eligible MCA countries. 
Selection can thus occur no sooner than May 6, 2004. The Board plans to 
meet as near as possible to that date so that selection can take place 
at the earliest date possible. Only after selection can countries that 
fall just short of qualifying for the MCA be identified and a program 
initiated to assist them.
    In addition to its ongoing assistance programs in a broad range of 
developing countries, USAID will provide targeted assistance to 
countries that just miss qualifying for the MCA and demonstrate a 
commitment to policy reform. In those countries, USAID will support 
development through programs under the MCA rubric of ruling justly, 
investing in people and encouraging economic freedom, with particular 
attention to areas of weakness in qualifying for the MCA. The aim will 
be to promote economic growth and development and encourage policy 
improvements that will eventually enable the country to qualify for the 
MCA.
    Funding for such programs could come from USAID and/or the 
Millennium Challenge Corporation. The Millennium Challenge Act 
authorizes the Board of the MCC to provide not more than 10% of 
appropriated assistance to countries for the purposes of assisting them 
to qualify for the MCA, but the Board has not yet addressed this issue. 
Both the MCC and USAID will encourage countries to take the needed 
steps to qualify for MCA funding and to create the conditions for 
lasting development progress.

    Question 10a. I have a general concern regarding U.S. citizen 
services at our embassies. My staff tells me of general problems in 
having phone calls and faxes returned promptly. I know our consular 
officers are extremely busy, and I expect they would return more phone 
calls from my staff if they were not. My question, then, is whether we 
have enough consular staff to respond to the needs of U.S. citizens.

    Answer. The State Department has sufficient consular staff to 
respond to the needs of U.S. citizens overseas. Since consular staff 
usually interacts with the public in the morning, most posts accept 
only emergency calls during this time, and generally establish hours 
for phone calls in the afternoon. Posts make every effort to respond to 
congressional inquiries within 72 hours as prescribed by Department of 
State regulation. Our experience has shown that email is the most 
efficient and reliable form of communication and encourage 
congressional staff to use this medium rather than fax. If your staff 
is experiencing difficulty with any particular posts, they should 
contact the Consular Officer assigned to the Department of State's 
Congressional Liaison Office for assistance.

    Question 10b. I would follow up with specific concerns about 
adoption cases. My office works with hundreds of families in the 
process of completing international adoptions. The parents tend to come 
to my office because they do not feel adequately helped by Embassy 
staff; they feel an undue emphasis has been placed on preventing 
illegal adoptions--which is a goal we all share--without adequate 
attention to facilitating legal adoptions. (A big exception to this 
issue, I might add, has been our very positive experience with the U.S. 
Embassy in Guatemala.) I am wondering if there are ways we can do more 
to help prospective parents, rather than simply focusing on stopping 
improper adoptions?

    Answer. The Department of State's highest priority is the welfare 
and protection of American citizens, including Americans adopting 
children internationally. In FY 2003, Americans adopted over 21,000 
children from overseas. We believe intercountry adoption is an 
excellent means of providing a loving, permanent family placement for 
children who would otherwise not have one. To support this goal we 
provide a number of services for American prospective adoptive parents.
    The Office of Children's Issues in the Bureau of Consular Affairs 
was created in 1994 in recognition of the growing prominence of 
children's issues in foreign policy. The Adoption Unit in that office 
is devoted to working with parents seeking to adopt children from 
overseas:

  <bullet> Adoption officers are available to respond to general and 
        specific inquiries from prospective adoptive parents;
  <bullet> We maintain a Web site with over 100 information flyers on 
        the adoption process in individual countries, as well as 
        general information on the immigrant visa process, citizenship 
        for adopted children, and safeguards for children and adoptive 
        parents;
  <bullet> While we cannot direct that a visa be issued, we can and do 
        inquire of the U.S. consular section abroad regarding the 
        status of a particular case.

    We take every opportunity to discuss adoptions with foreign 
interlocutors, both overseas and in the U.S. In these discussions, we 
express our strong support for transparent, consistently applied 
adoption procedures that place the interests of children first. In this 
vein, while we are not equipped to locate children for parents to 
adopt, act as an agent for an adoptive family, or order that a foreign 
authority grant an adoption, we can and do monitor the procedures of 
foreign governments to ensure that they do not discriminate against 
U.S. citizens in the adoption process.
    We provide training for our staff in the importance of facilitating 
intercountry adoptions for American adoptive parents as a reflection of 
U.S. Government policy. We include training on intercountry adoptions 
in the initial instruction provided to every consular officer before 
his or her first tour overseas. We include adoption visa service issues 
in the continuing training seminars provided to officers and Foreign 
Service National staff working in American Citizens Services and 
Immigrant Visa sections in embassies and consulates around the world. 
We discuss adoption policy and customer service values at regional 
conferences for post leadership and management. For example, in 2002, 
the Office of Children's Issues organized a Consular Conference on 
International Adoptions for consular officers serving at U.S. embassies 
with significant adoption workloads or adoption related concerns 
highlighting the importance of managing the orphan visa system to 
assist American citizen adoptive parents to receive orphan visas as 
quickly as possible. We continue to seek opportunities for training.
    Adoptive parents often seek assistance with the visa application 
process. The Department recognizes the special needs and considerations 
of adoptive parents and their children. As stated in the Foreign 
Affairs Manual (9 FAM 42.21 N11), it is the general policy of the 
Department that consular sections should provide expeditious assistance 
in handling orphan visa cases, and that orphan visa appointments should 
be given priority over other cases. As a result, most posts will give 
orphan visa applications the first available opening, often within a 
few days of the parents declaring themselves documentarily qualified.
    Unfortunately, not all orphan visa cases can be expeditiously 
processed if there are constraints that preclude setting an 
appointment. The Department of Homeland Security's Bureau of 
Citizenship and Immigration Services (USCIS) regulations, for example, 
prohibit a consular officer from issuing an orphan immigrant visa 
unless the Department of Homeland Security (DHS) has already approved 
the I-600A advanced processing application. U.S. immigration law 
requires an immigrant visa applicant to collect certain required 
documents, and under standard Department practice, an immigrant visa 
interview is not scheduled unless the applicant has gathered all the 
necessary documents. There may be other factors that preclude prompt 
appointment scheduling, including the necessity to resolve certain 
legal, procedural, or factual issues before holding an interview would 
be fruitful. Whenever possible in such cases, consular officers work 
with the adoptive parents or their agents to try and resolve the 
problems in a timely and transparent fashion.
    The Department of State is committed to the twin goals of rapid 
processing of international adoptions and the safeguarding of an 
adoption system free of fraud and baby selling. We believe that 
international adoption practices and procedures will be ameliorated as 
countries accede to and implement the Hague Adoption Convention. In 
addition to legitimizing the principle that intercountry adoption is 
superior to institutionalization for orphans, the aim of the Convention 
is to ensure that such adoptions take place when they are in the 
child's best interests and that the abduction of and trafficking in 
children and other abuses are prevented. The Department is committed to 
the Convention's principles and is working diligently to implement it 
for the United States. Once implemented, the Convention will be a 
valuable tool to help American citizens who seek to build their 
families through intercountry adoption.

    Question 10c. Much has been written about the drop-off in student 
visas issued--as well as the drop in student visa applications. While I 
believe it is entirely appropriate to exercise vigilance in the student 
visa process to prevent the entry of those who wish to harm Americans, 
I am concerned that we are being a bit too strict in our procedures. 
There is also a timeliness issue here--some students are not receiving 
their visas until after classes have begun. Is this a staffing 
question? Do you need more resources from the Congress in order to 
fulfill these duties in a timely manner?

    Answer. While there has been a decline in the number of student 
visa applications over the last two years, the refusal rate for this 
class of visa has increased only slightly during this period of time. 
Proportionally, the decline in student visa applications is less than 
the overall decline in applications for nonimmigrant visas generally.
    Levels of student visa applications are affected by a number of 
factors, including worldwide economic trends and general reluctance to 
travel after 9/11. There was also a general belief that it was more 
difficult to obtain a visa to the United States. The standards under 
which consular officers adjudicate visas based on immigration law and 
regulations have not changed, however. Consular officers continue to 
grant visas to persons who can demonstrate that they are bona fide 
nonimmigrants coming to the United States to study.
    The elimination of the personal appearance waiver for students and 
the need to collect biometric information from visa applicants has 
obliged students from a number of countries who previously did not need 
to come to an Embassy or Consulate to apply for their visas in person. 
Embassies and Consulates have been encouraged to set up special 
expedited appointments for students and exchange visitors in order to 
facilitate their visa applications in a timely manner.
    Most student visa cases are adjudicated by consular officers the 
same day as the visa interview and biometric collection. Only a small 
number, are submitted to Washington for interagency review. The 
clearing agencies generally give priority to student visa applications. 
Most of these cases are concluded in less than 30 calendar days. The 
Visa Office identifies cases that remain pending for the other clearing 
agencies to ensure that cases do not get overlooked.

    Question 10d. Moreover, in some large countries such as Sweden, I 
am told of students having to travel long distances to the U.S. Embassy 
in the capital city to engage in a three-minute interview for a visa. 
Are these types of procedures really necessary for countries like 
Sweden where we have a visa waiver program in place?

    Answer. Our focus is on the statutory requirement to issue visas 
with biometric identifiers. In order to collect biometrics at the time 
of the visa application, the applicants must appear in person. The visa 
interview requirement is designed to complement the biometric 
requirement.
    Students of all nationalities require a visa. The Congress has 
authorized the visa waiver program only for tourists and business 
visitors coming to the United States for short periods of stay. We 
recognize that some individuals travel long distances to reach our 
consular offices overseas. Most of those offices have appointment 
systems in part to permit those who do need to travel the assurance 
that a consular officer will be available to provide the appropriate 
services.

                                 ______
                                 

Response of Hon. Colin L. Powell, Secretary of State, to an Additional 
        Question for the Record Submitted by Senator Bill Nelson

    Question 1. Recently, the State Department publicly denounced the 
human rights record of the Government of Uzbekistan. It has come to my 
attention that several relatives of Americans have been wrongly 
imprisoned in Uzbekistan for personal political motives and been denied 
any visitation due process. In addition, Uzbekistan has arbitrarily put 
individuals on the Interpol red notice list based on what Assistant 
Secretary Elizabeth Jones has publicly characterized as political 
motives. What is the State Department doing to remedy these matters? At 
what point will the U.S. Government back up its expressed concern about 
human rights in Uzbekistan and other parts of central Asia with 
concrete steps?

    Answer. The United States has been proactive in addressing human 
rights issues in Uzbekistan and Central Asia. We have a hard-hitting 
public and private dialogue with the Government of Uzbekistan which 
focuses on a wide range of issues, among those the need to respect 
human rights, institute democratic reforms, and safeguard religious 
freedoms.
    In December, the State Department took the step of denying 
Uzbekistan certification for Nunn-Lugar Cooperative Threat Reduction 
(CTR) money on human rights grounds. Secretary Powell did recommend to 
the President, and he agreed, to approve a national security waiver 
because the reduction of weapons of mass destruction is in our 
interests. Further, FY04 assistance to the central government of 
Uzbekistan is dependent on our certification that Uzbekistan is making 
progress on our Strategic Partnership Framework signed in 2002. This 
Framework commits Uzbekistan to take steps in developing civil society 
and respecting human rights, among others.
    As part of our commitment to support the Government of Uzbekistan 
in making these reforms, we also engage in direct government-to-
government human rights training and legal reform assistance, support 
to local human rights NGOs, and active collaboration with Uzbek human 
rights activists.
    Nonetheless, the United States has made it clear to Uzbekistan that 
the continued development of our bilateral relationship is dependent on 
progress on all these fronts.
    With regards to Red Notices, the fact that a Red Notice for an 
individual has been issued by Interpol at the request of a member 
country does not obligate the United States to arrest that person. 
Indeed, under U.S. law, a Red Notice alone is insufficient to arrest a 
person for purposes of extradition.
    Though not specified in the question, the reference to arrested 
relatives of American citizens is related to three relatives of the 
Maqsudi family, former owners of the ROZ Trading company. We have 
actively urged Uzbekistan to release the three. The Government of 
Uzbekistan has assured us that they are conducting the dispute against 
ROZ Trading in accordance with Uzbek law. They have also confirmed that 
they have provided the Maqsudi relatives with access to their lawyers.

                                 <all>

</pre></body></html>
